APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Tenth
Circuit, Nos. 17-4083, 17-4093, 18-4036
(March 29, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Decision and Order Re
Litigation Fees and Costs in the
United States District Court for the
District of Utah, Central Division, No.
2:11-cv-00087
(January 8, 2018) . . . . . . . . . . . . App. 26
Appendix C Memorandum Decision and Order in
the United States District Court for
the District of Utah, Central Division,
No. 2:11-cv-00087
(December 1, 2016) . . . . . . . . . . . App. 40
Appendix D Amended Memorandum Decision and
Order in the United States District
Court for the District of Utah, Central
Division, No. 2:11-cv-00087
(July 29, 2013) . . . . . . . . . . . . . App. 102
Appendix E Constitution, Statutes, Rules . . App. 138
U.S. Const. art. I . . . . . . . . . . . . App. 138
U.S. Const. amend. V . . . . . . . . App. 138
U.S. Const. amend. XIV . . . . . . App. 139
26 U.S.C. § 2033 . . . . . . . . . . . . App. 139
26 U.S.C. § 2035 . . . . . . . . . . . . App. 139
26 U.S.C. § 2036 . . . . . . . . . . . . App. 141
26 U.S.C. § 2038 . . . . . . . . . . . . App. 143

ii
26 U.S.C. § 2042 . . . . . . . . . . . . App. 145
26 U.S.C. § 2204 . . . . . . . . . . . . App. 146
26 U.S.C. § 3505 . . . . . . . . . . . . App. 148
26 U.S.C. § 6166 . . . . . . . . . . . . App. 149
26 U.S.C. § 6203 . . . . . . . . . . . . App. 169
26 U.S.C. § 6212 . . . . . . . . . . . . App. 169
26 U.S.C. § 6213 . . . . . . . . . . . . App. 172
26 U.S.C. § 6302 . . . . . . . . . . . . App. 181
26 U.S.C. § 6303 . . . . . . . . . . . . App. 182
26 U.S.C. § 6321 . . . . . . . . . . . . App. 182
26 U.S.C. § 6324 . . . . . . . . . . . . App. 183
26 U.S.C. § 6324A . . . . . . . . . . . App. 185
26 U.S.C. § 6330 . . . . . . . . . . . . App. 190
26 U.S.C. § 6501 . . . . . . . . . . . . App. 192
Section 277(a) of the Revenue Act of
1926 (predecessor to U.S.C. Title 26,
§ 6501) . . . . . . . . . . . . . . . . . . . . App. 207
26 U.S.C. § 6502 . . . . . . . . . . . . App. 208
Section 278(d) of the Revenue Act of
1926 (predecessor to U.S.C. Title 26,
§ 6502) . . . . . . . . . . . . . . . . . . . . App. 209
26 U.S.C. § 6503 . . . . . . . . . . . . App. 210
26 U.S.C. § 6504 . . . . . . . . . . . . App. 217
26 U.S.C. § 6901 . . . . . . . . . . . . App. 218
Section 311 of the Revenue Act of 1928
(predecessor to
U.S.C. Title 26,
§ 6901) . . . . . . . . . . . . . . . . . . . . App. 222
Section 280 of the Revenue Act of 1926
(predecessor to
U.S.C. Title 26,
§ 6901) . . . . . . . . . . . . . . . . . . . . App. 225
26 U.S.C. § 6902 . . . . . . . . . . . . App. 227
26 U.S.C. § 7430 . . . . . . . . . . . . App. 228
26 U.S.C. § 7441 . . . . . . . . . . . . App. 239
26 U.S.C. § 7442 . . . . . . . . . . . . App. 240

iii
31 U.S.C. § 3713 . . . . . . . . . . . . App. 240
Utah Code § 78B-2-309. . . . . . . App. 241
US Treasury Regulation § 31.35051(d)(1) . . . . . . . . . . . . . . . . . . . App. 242
US Treasury Regulation § 301.69011(a)(1) . . . . . . . . . . . . . . . . . . . . App. 242
IRS Internal Revenue Manual
5.17.14.4.4, no. 4 (01-24-2012) . App. 243
Tax Court Rule 13(a) . . . . . . . . App. 245

App. 1

APPENDIX A
PUBLISH
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
Nos. 17-4083, 17-4093 & 18-4036
[Filed March 29, 2019]
________________________________
UNITED STATES OF AMERICA, )
)
Plaintiff - Appellant /
)
Cross-Appellee,
)
)
v.
)
)
MARY CAROL S. JOHNSON;
)
JAMES W. SMITH,
)
)
Defendants - Appellees /
)
Cross-Appellants,
)
)
and
)
)
MARIAN S. BARNWELL; BILLIE )
ANN S. DEVINE; EVE H. SMITH, )
)
Defendants.
)
________________________________ )

App. 2
APPEALS FROM THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF UTAH
(D.C. NO. 2:11-CV-00087-CW)
_____________________________
Clint A. Carpenter, Attorney, Tax Division,
Department of Justice (John W. Huber, United States
Attorney, Of Counsel; Richard E. Zuckerman, Principal
Deputy Assistant Attorney General; Arthur T.
Catterall, Attorney, Tax Division, Department of
Justice, with him on the briefs), Washington, D.C., for
Plaintiff-Appellant/Cross-Appellee.
Thomas R. Barton, Prince, Yeates & Geldzahler (James
A. Boevers, Prince, Yeates & Geldzahler; David E.
Sloan and Jennifer A . Whitlock, Sloan & Sloan, P.C.,
with him on the briefs), Salt Lake City, Utah, for
Defendants-Appellees/Cross-Appellants.
__________________________
Before TYMKOVICH, Chief Judge, MURPHY and
HARTZ, Circuit Judges.
__________________________
MURPHY, Circuit Judge.
__________________________
I. Introduction
The three consolidated appeals currently before this
court involve an action brought by the Government to
collect unpaid federal estate taxes. In Appeal No. 174083, the Government appeals from the district court’s
determination that its state-law contract claim was
time-barred because it was subject to a Utah state sixyear state statute of limitations. Exercising jurisdiction
under 28 U.S.C. § 1291, we conclude the state-law

App. 3
claim is governed by the ten-year statute of limitations
set out in 26 U.S.C. § 6502(a) because the Government
is proceeding in its sovereign capacity.
Appeal No. 17-4093 is a cross-appeal from the
district court’s ruling that the Government’s
transferee-liability claim, brought pursuant to 16
U.S.C. § 6324(a)(2), was timely. Exercising jurisdiction
under 28 U.S.C. § 1291, we conclude the transfereeliability claim was timely filed because the limitations
period applicable to the § 6324(a)(2) transferees is the
same as the limitations period applicable to the estate.
In Appeal No. 18-4036, the Government appeals
from the district court’s order awarding attorney’s fees
to Appellees. Exercising jurisdiction under 28 U.S.C.
§ 1291, we conclude Appellees are not entitled to
attorney’s fees because the Government’s position in
this litigation was substantially justified. See 26 U.S.C.
§ 7430(c)(4)(B).
II. Background
The issues raised in these consolidated appeals
arise from the Government’s attempt to collect unpaid
estate taxes that were assessed against the estate of
Hazel Anna S. Smith (the “Estate”).1 During her
lifetime, Ms. Smith (the “Decedent”) created The Anna
Smith Family Trust (the “Trust”) and funded it with

1

A comprehensive recitation of the full factual background in this
matter can be found in the district court’s memorandum decision
and order. United States v. Johnson, 224 F. Supp. 3d 1220 (D.
Utah 2016). Only the facts relevant to the three appeals currently
before this court are included in this opinion.

App. 4
shares of stock in State Line Hotel, Inc. (the “Hotel”).
The Hotel was a closely held corporation and the holder
of a Nevada gaming license. At the time of her death,
the Decedent was the sole trustee of the Trust. Two of
her children, Mary Carol S. Johnson and James W.
Smith, were named as successor trustees. The
Decedent also executed a will naming Johnson and
Smith as personal representatives of her estate. The
Decedent died on September 2, 1991. Her will directed
that the “rest and residue” of her estate be added to the
principal of the Trust to be administered by the
successor trustees.
Consistent with the terms of the trust agreement,
the successor trustees filed a federal estate tax return
with the Internal Revenue Service (“IRS”) on June 1,
1992. The return calculated the Estate’s federal estate
tax liability as $6,631,448. 2 Of that total, only $4
million was paid to the IRS at the time the return was
filed. The successor trustees made a valid election
pursuant to 26 U.S.C. § 6166(a), deferring payment of
the balance of the federal estate tax liability, because
the Hotel stock accounted for more than thirty-five
percent of the Decedent’s adjusted gross estate. The ten
annual installment payments would begin on June 2,
1997 and end on June 2, 2006. The IRS assessed the
Estate for the unpaid estate taxes on July 13, 1992.

2

In May 1995, the IRS issued a Notice of Deficiency against the
Estate based on a challenge to the valuation of the Hotel stock.
The parties settled the disputed amount and the Estate agreed to
pay additional federal estate taxes of $240,381.

App. 5
Although the assessed estate taxes remained
unpaid, the successor trustees distributed Hotel stock
from the Trust to the trust beneficiaries on December
31, 1992. This distribution was motivated by Nevada
restrictions on casino ownership by a trust. Cognizant
of the outstanding federal estate tax liability, however,
the successor trustees and the trust beneficiaries
executed an agreement (the “Distribution Agreement”)
that contained the following provision:
Liability
for
Taxes.
Each
of
the
BENEFICIARIES acknowledges that the assets
distributed to him or her will accomplish a
complete distribution of the assets of the Trust.
A portion of the total federal estate tax upon the
Estate of Anna Smith is being deferred and is
the equal obligation of the BENEFICIARIES to
pay as the same becomes due. Likewise, if, upon
audit, additional federal estate taxes or Utah
inheritance taxes are found to be owing, the
responsibility for any such additional taxes,
interest or penalties will be borne equally by the
BENEFICIARIES.
The beneficiaries identified in the Distribution
Agreement were the Decedent’s children: Johnson,
Smith, Marian S. Barnwell, and Billie Ann S. Devine.
The Hotel filed for Chapter 11 bankruptcy in
January 2002. Beginning with the annual installment
payment due on June 2, 2002, the Estate ceased
making payments of the deferred federal estate taxes.
The IRS declared the installment agreement to be in
default as of December 18, 2003. In June 2005, the IRS
learned of the existence of the Distribution Agreement.

App. 6
In 2011, the Government filed a complaint naming
the Decedent’s children—Johnson, Smith, Barnwell,
and Devine—as defendants and seeking recovery of
$1,569,851 in unpaid federal estate taxes.3 The
Government’s original complaint raised multiple claims
for relief, one of which is relevant to Appellees’ crossappeal. In the relevant claim, the Government alleged
all four of the Decedent’s children were liable for the
Estate’s unpaid federal estate taxes to the extent they
received property included in the gross estate (the
“§ 6324(a)(2) claim”). See 26 U.S.C. § 6324(a)(2).
Appellees’ motion to dismiss the § 6324(a)(2) claim was
granted in part and denied in part. The district court
determined that the Government’s § 6324(a)(2) claim
was not time-barred, but that it could only be asserted
as to the life insurance proceeds received by Appellees.
Because Appellees conceded liability as to the life
insurance proceeds, the district court entered judgment
in favor of the Government on the § 6324(a)(2) claim
but only to the extent of those distributions.

3

The Decedent’s children were also the beneficiaries of the Trust
and the signatories to the Distribution Agreement. The wife of
defendant Smith was also named as a defendant but she was
dismissed from the case by the district court. Defendants Barnwell
and Devine died during the pendency of this lawsuit and the
Government failed to substitute their estates as defendants.
Accordingly, only Johnson and Smith are the appellees and crossappellants in this matter. They will be hereinafter referred to as
“Appellees.”

App. 7
The Government moved to file an amended
complaint in August 2012.4 In its amended complaint,
the Government sought to enforce rights as a thirdparty beneficiary of the Distribution Agreement (the
“third-party beneficiary claim”). The district court
granted judgment in favor of Appellees on the claim,
concluding it was untimely under Utah law and
rejecting the Government’s argument that the
timeliness of the claim was governed by federal law.
III. Discussion
A. Timeliness of the Third-Party Beneficiary
Claim
In Appeal No. 17-4083, the Government appeals the
judgment entered in favor of Appellees on its state-law
claim as a third-party beneficiary of the Distribution
Agreement. The Government moved for summary
judgment on this claim in March 2015, arguing it was
the intended beneficiary of the Distribution Agreement
because the Decedent’s children agreed therein to pay
any estate taxes as they became due and payable. See
Tracy Collins Bank & Trust v. Dickamore, 652 P.2d
1314, 1315 (Utah 1982) (“Where it appears from the
promise or the contracting situation that the parties
intended that a third party receive a benefit, then the
third party may enforce his rights in the courts and is
deemed a donee beneficiary.”). In their written
opposition to the Government’s motion, Appellees
conceded the Government is a third-party beneficiary
of the Distribution Agreement but argued the claim
4

Although Defendants filed a written consent to the amendment,
the district court did not grant the motion until July 30, 2013.

App. 8
was untimely because it was not filed within the sixyear Utah statute of limitations applicable to contract
claims. See Utah Code Ann. § 78B-2-309(2).
The district court agreed with Appellees and
dismissed the Government’s third-party beneficiary
claim as time-barred. The court rejected the
Government’s argument that the timeliness of the
claim is governed by the ten-year federal statute of
limitations applicable to an action brought to collect
assessed taxes. See 26 U.S.C. § 6502(a). We review
statute of limitations questions de novo. United States
v. Anderson, 319 F.3d 1218, 1219 (10th Cir. 2003).
The sole question before this court is whether the
six-year statute of limitations set out in Utah Code
Ann. § 78B-2-309(2) or the ten-year statute of
limitations set out in 26 U.S.C. § 6502(a) is applicable
to the Government’s third-party-beneficiary claim. The
Supreme Court has previously stated that “[w]hether
in general a state-law action brought by the United
States is subject to a federal or state statute of
limitations is a difficult question.” United States v.
California, 507 U.S. 746, 758 (1993). Here, however,
Supreme Court and Tenth Circuit precedent dictates
the result advocated by the Government.
In United States v. Summerlin, the Supreme Court
held that “the United States is not bound by state
statutes of limitation . . . in enforcing its rights,” even
if the suit is brought in state court. 310 U.S. 414, 416
(1940). The Court summarized the generally applicable
rule as follows: “When the United States becomes
entitled to a claim, acting in its governmental capacity
and asserts its claim in that right, it cannot be deemed

App. 9
to have abdicated its governmental authority so as to
become subject to a state statute putting a time limit
upon enforcement.” Id. at 417. In United States v.
Holmes, this court applied Summerlin to the question
of whether the ten-year limitations period set out in
§ 6502(a) governed the Government’s attempt to collect
corporate taxes from the corporation’s sole shareholder,
defendant Holmes. 727 F.3d 1230, 1232 (10th Cir.
2013). The taxes were assessed against the corporation
but were unpaid at the time the corporation wound up
its operations and made distributions to Holmes. Id. at
1231. The Government filed suit against Holmes,
raising only state-law claims. Id. at 1232. Holmes
argued the Government’s claims were subject to a twoyear state statute of limitations. Id. at 1233. This court
ruled otherwise, concluding the Government’s claims
were “in every real sense a proceeding in court to
collect a tax” and, thus, the Government was “acting in
its sovereign capacity in an effort to enforce rights
ultimately grounded on federal law.” Id. at 1235
(quotation omitted). Appellees argue that Holmes is
distinguishable from this matter because the
shareholder’s liability in that case was based on
transferee liability, not a contract as it is here. This
factual difference is not material.
Holmes clearly stands for the proposition that the
Government is always acting in its sovereign capacity
when it seeks to collect unpaid federal taxes. It is
immaterial whether its claim to payment arises under
federal or state statutory or common law. The only
relevant question is whether the Government’s suit, if
successful, will result in the defendant’s liability to pay
federal taxes the Government has assessed against a

App. 10
taxpayer. If so, then the federal statute of limitations
applies. Appellees’ attempts to distinguish the facts in
Holmes are unpersuasive.5 Because the Government’s
third-party-beneficiary claim seeks to hold Appellees
liable for the payment of unpaid estate taxes assessed
against the Estate, § 6502(a) supplies the statute of
limitations applicable to the Government’s claim.
The Government asserts that we can grant
summary judgment in its favor on the third-partybeneficiary claim because it was timely filed and
Appellees have conceded liability.6 Appellees, however,
raise multiple challenges to the timeliness of the
Government’s claim even under the ten-year statute of
limitations. Because these arguments are raised for the

5

The district court ruled in Appellees’ favor based on its
interpretation of the Supreme Court’s ruling in United States v.
California, 507 U.S. 746 (1993). In California, however, the Court
held that the Government was not proceeding in its sovereign
capacity. Id. at 757-58. It was, instead, attempting to proceed as a
subrogee, seeking to recover California taxes allegedly overpaid by
a federal contractor. Id. Accordingly, the Court held that
Summerlin did not control the statute of limitations question. Id.
at 758. Here, the Government is not asserting rights as a subrogee.
As we conclude supra, it is asserting its own sovereign right to
collect federal taxes it previously assessed. Thus, Summerlin
controls and the analysis in California is inapplicable.
6

Defendants do not challenge the Government’s assertion that
they have conceded liability, nor could they. Their response to the
Government’s motion for summary judgment states: “No payments
were made, and it is undisputed that the section 6166 payment
extension defaulted in 2003. Thus, all of the deferred estate tax
(plus interest and penalties) became due and payable before the
end of 2003. When the [Appellees] failed to pay their respective
shares, each of them breached the [Distribution] Agreement.”

App. 11
first time in Appellees’ appellate brief, they are waived
and we do not address them. Attempting to avert the
waiver, Appellees assert they were not required to
challenge whether the Government’s claim is timebarred under the ten-year statute of limitations
because the Government did not argue application of
the ten-year period in its motion for summary
judgment.7 This argument is based on a mistaken view
of the applicable burden. A challenge to the timeliness
of a claim is an affirmative defense that must be raised
by the party alleging the claim is time-barred. See
Cortez v. Wal-Mart Stores, Inc., 460 F.3d 1268, 1276
(10th Cir. 2006). Thus, it was always Appellees’ burden
to show the third-party beneficiary claim was untimely.
B. Transferee Liability
The Government also asserted a claim pursuant to
26 U.S.C. § 6324(a)(2), arguing Appellees were
personally liable for the estate tax to the extent of the
value of the life insurance proceeds they received. In
Appeal No. 17-4093, Appellees challenge the district
court’s conclusion that the Government’s § 6324(a)(2)
claim was timely filed. We review de novo the district
court’s ruling on the statute of limitations applicable to
the Government’s claim. Anderson, 319 F.3d at 1219.

7

In their response to the Government’s motion for summary
judgment, Appellees argued only that the third-party beneficiary
claim was time barred under Utah’s six-year statute of limitations.
In their sur-reply in opposition to the Government’s motion for
summary judgment, Appellees did not mention the Government’s
third-party beneficiary claim even though the Government had
argued in its reply that the claim was governed by the ten-year
limitations period set out in 26 U.S.C. § 6502.

App. 12
Under § 6324(a)(2), a person who holds or receives
property included in a decedent’s gross estate is
personally liable for the estate tax to the extent of the
date-of-death value of the property received. Appellees
do not dispute that they are transferees under
§ 6324(a)(2) because they received life insurance
proceeds includible in the Decedent’s estate. The sole
dispute between the parties centers on whether the
Government’s § 6324(a)(2) claim was timely filed.
The Government generally has ten years to collect
estate taxes from a decedent’s estate, either “by levy or
by a proceeding in court.” 26 U.S.C. § 6502(a)(1). Here,
the ten-year limitations period was suspended
pursuant to 26 U.S.C. § 6503(d) because the Estate
made a deferment election pursuant to 26 U.S.C.
§ 6166. The parties agree the Estate was timely
assessed on July 13, 1992, and the § 6166 election
terminated on December 15, 2003, when the Estate
failed to make an installment payment. See 26 U.S.C.
§ 6166(g)(3). The Government filed suit on January 21,
2011, raising the § 6324(a)(2) claim in its complaint.
Appellees argue § 6503 does not suspend the statute
of limitations for § 6324(a)(2) transferees even if a valid
§ 6166 election suspends the limitations period for the
estate. Instead, they argue, the limitations period set
out in § 6901(a) governs transferee liability. Section
6901(a) provides that an assessment against a
transferee shall be made within one “year after the
expiration of the period of limitation for assessment
against the transferor.” 26 U.S.C. § 6901(c). Appellees
argue the Government never timely and properly
assessed them by following the procedure set out in

App. 13
§ 6901(a). It is well-settled, however, that § 6901 sets
out an alternative collection procedure applicable to
transferees who receive property from a decedent’s
estate. United States v. Russell (Russell I), 461 F.2d
605, 606 (10th Cir. 1972). Section 6901 is inapplicable
in this matter because the Government chose to bring
its transferee-liability claim pursuant to § 6324(a)(2).
Holmes, 727 F.3d at 1234 (“The collection procedures
contained in § 6901 are not exclusive and mandatory,
but are cumulative and alternative to the other
methods of tax collection recognized and used prior to
the enactment of § 6901 and its statutory
predecessors.” (quoting Russell I, 461 F.2d at 606)); see
also United States v. Geniviva, 16 F.3d 522, 524 (3d
Cir. 1994) (relying on the reasoning in Russell I to hold
“that an individual assessment under 26 U.S.C. § 6901
is not a prerequisite to an action to impose transferee
liability under 26 U.S.C. § 6324(a)(2)”).
Appellees argue our settled precedent in Holmes
and Russell I does not control the outcome in this
matter because the Estate made a § 6166(a) election
and, thus, the Government is required to follow the
assessment procedures set out in § 6901. Appellees’
reasoning as to why the Government must proceed
under § 6901 when an estate makes a § 6166(a) election
is less than clear.8 But, regardless of its specifics,

8

During oral argument in this matter, Appellees characterized
their § 6901 argument as “pretty much the same” as the analysis
set out in the dissenting opinion in United States v. Holmes, 727
F.3d 1230, 1240-46 (10th Cir. 2013). Whether an accurate
description of their written argument or not, the Holmes majority
held to the contrary.

App. 14
Appellees’ extensive argument centering on § 6901
cannot be reconciled with this court’s holding in United
States v. Botefuhr, 309 F.3d 1263 (10th Cir. 2002).
Defendants concede in their opening brief that “the
statute of limitations against the Estate was still open
when the Government brought this lawsuit in January
2011 because section 6503(d) suspended the running of
the statute while the section 6166 election was in
effect.” This concession is relevant because we held in
Botefuhr that “if an action could be timely commenced
against a donor under the provisions of § 6501 and
§ 6502, an action against the donee under § 6324(b) will
be considered timely.” 309 F.3d at 1281. Although
Botefuhr addressed a transferee’s liability for assessed
but unpaid gift taxes, its holding is equally applicable
to assessed but unpaid estate taxes. Id. at 1276 n.9
(expressly stating that the transferee liability ruling
applied to both estate and gift taxes because “the gift
tax and estate tax provisions are in pari materia and
must be construed together” (quotation omitted)).
Accordingly, under Botefuhr, the Government’s claim
was timely filed because it was brought less than ten
years after the Estate defaulted. See 26 U.S.C.
§ 6502(a) (setting out a ten-year statute of limitations).
Appellees make only a fleeting reference to Botefuhr
in their opening brief. They, instead, discuss this
court’s holding in United States v. Russell (Russell II),
532 F.2d 175 (10th Cir. 1976), erroneously attributing
the rule adopted in Botefuhr to Russell II and then
attempting to distinguish the facts in Russell II from
the facts in this matter. See Cross-Appellant Br. at 16
(“However, as this Court explicitly cautioned, the

App. 15
holding of Russell II applies to the particular and
limited facts of that case. It should not be extended to
this case, where the circumstances are critically
different.”). During oral argument, Appellees conceded
the holding in Botefuhr but argued the rule adopted in
that case should not be extended to transferees because
26 U.S.C. § 6503(d), which suspends the limitations
period for estates that make a valid § 6166 election, is
inapplicable to § 6324(a)(2) transferees.
Section § 6503(d) reads as follows: “The running of
the period of limitation for collection of any tax imposed
by chapter 11 [26 U.S.C. §§ 2001 et seq.] shall be
suspended for the period of any extension of time for
payment granted under the provisions of section . . .
6166.” 26 U.S.C. § 6503(d). Appellees assert that
personal liability arising under § 6324(a)(2) is not “a
tax imposed by chapter 11” and, thus, § 6503(d) does
not extend the limitations period as to transferees.9
Notwithstanding Defendants’ insistence to the
contrary, this argument is foreclosed by Botefuhr.
In Botefuhr, this court made it very clear that the
limitations period applicable to a decedent’s estate also
governs the limitations period applicable to
transferees. 309 F.3d at 1277. The references in

9

Appellees’ argument that § 6503(d) is inapplicable to transferees
would significantly worsen the situation of a transferee who
receives property from an estate that makes a § 6166 election.
Under Appellees’ theory, in that circumstance the Government
could immediately proceed to collect the unpaid (but deferred)
taxes from the transferee notwithstanding the fact the deferral
period had not yet run against the estate, which may have more
than sufficient assets to eventually pay the tax.

App. 16
§ 6503(d) to “any tax imposed by chapter 11” has no
impact on that holding. Rather, § 6503(d) is relevant in
the analysis only to the extent it determines the statute
of limitations applicable to the estate. And, once the
limitations period for the estate is determined,
Botefuhr unambiguously holds that a § 6324 claim can
be brought against a transferee within that same
period. Id. Appellees’ argument that § 6503(d) does not
“extend the limitations period for transferees” ignores
Botefuhr’s definitive holding that the limitations period
for transferees is the same as the limitations period for
the estate.10 Here, Appellees concede the Government
filed its § 6324(a)(2) claim before the statute of
limitations ran against the Estate. Thus, the
Government’s claim is timely.
C. Attorney’s Fees
After the district court entered judgment in favor of
Appellees on the Government’s third-party beneficiary
claim, Appellees moved for an award for attorney’s fees
and costs. The district court granted the motion on
January 8, 2018. In Appeal No. 18-4036, the
Government asks us to reverse the award of attorney’s
fees, arguing the position it took in the litigation was
substantially justified. See 26 U.S.C. § 7430(c)(4)(B).
Whether the Government’s position was substantially
justified is an issue we review for abuse of discretion.
Pierce v. Underwood, 487 U.S. 552, 559 (1988). “Under
10

As we stated in United States v. Botefuhr, 309 F.3d 1263, 1277
(10th Cir. 2002), § 6324 does not contain an explicit statute of
limitations. Hence, our reasoning that the statute of limitations
governing transferees must be the same as that governing the
estate.

App. 17
this standard of review, the district court’s conclusions
of law are reviewable on a de novo basis, and its
findings of fact are to be reversed only if ‘clearly
erroneous’.” United States v. 2,116 Boxes of Boned Beef,
726 F.2d 1481, 1486 (10th Cir. 1984) (involving an
analogous attorney’s fee provision in the Equal Access
to Justice Act).
In a “court proceeding which is brought by or
against the United States in connection with the
determination, collection, or refund of any tax, interest,
or penalty under this title, the prevailing party may be
awarded a judgment or a settlement for . . . reasonable
litigation costs incurred in connection with such court
proceeding.” 26 U.S.C. § 7430(a)(2). A party other than
the Government is the “prevailing party” if that person
“has substantially prevailed with respect to the amount
in controversy, or has substantially prevailed with
respect to the most significant issue or set of issues
presented.” Id. § 7430(c)(4)(A). Even if a party
substantially prevails with respect to the amount in
controversy or with respect to the most significant
issue or set of issues presented, it will not be treated as
the prevailing party if the Government can establish
that its position “in the proceeding” was substantially
justified. 26 U.S.C. § 7430(c)(4)(B)(i). Substantially
justified means “justified to a degree that could satisfy
a reasonable person,” or in other words, having a
“reasonable basis both in law and fact.” Pierce, 487 U.S.
at 565. It is the Government’s burden to establish that
its position was substantially justified. 26 U.S.C.
§ 7430(c)(4)(B)(i).

App. 18
The district court’s judgment awarding fees and
costs to Appellees was entered after the court ruled for
Appellees on the Government’s third-party beneficiary
claim. We have, however, reversed the district court’s
ruling on the third-party beneficiary claim and
determined that judgment should be entered on behalf
of the Government. We have also affirmed the district
court’s determination that Appellees are liable for the
unpaid estate taxes to the extent of the life insurance
proceeds they received from the Estate. It would
appear, then, that Appellees are no longer the
prevailing parties. Appellees dispute this, arguing their
victories earlier in this litigation reduced their liability
from one hundred percent to twenty-five percent.11 It is

11

The district court’s order on the attorney’s fee issue contains a
comprehensive summary of the prior proceedings on which it
partially based its decision.
On January 21, 2011, the United States filed a complaint
against the children of Anna S. Smith, seeking collection
of an estate tax deficiency owed by her estate as a result of
her death in 1991. Defendants filed a motion to dismiss on
April 1, 2011 on the grounds that the government’s claims
were time-barred; that 26 U.S.C. § 6324(a)(2) largely did
not impose personal liability upon them as beneficiaries,
other than as to their receipt of insurance proceeds; and
that they are not subject to fiduciary liability under 31
U.S.C. § 3713 because the estate had sufficient assets to
pay the outstanding tax liability at the time the estate
proceeds were distributed to the beneficiaries via a
Distribution Agreement. The court granted in part and
denied in part defendants’ motion to dismiss on July 29,
2013, allowing the government’s section 6324 claims
against the trustees and life insurance beneficiaries to
proceed, and concluding that the government had stated a
claim for fiduciary liability under section 3713.

App. 19
unnecessary for us to address whether Appellees have
substantially prevailed with respect to either the
amount in controversy or the most significant issue(s)
On July 31, 2013, the United States filed an Amended
Complaint, adding a claim seeking to foreclose against the
Distribution Agreement as well as a claim as a third party
beneficiary of the Distribution Agreement. Defendants
answered the Amended Complaint on August 27, 2013,
asserting defenses to include the expiration of the statute
of limitations as to the government’s interest as a third
party beneficiary to the Distribution Agreement and that
the government’s section 6324(a)(2) claims are barred
because the property was not included in the gross estate
under any of sections 2034 through 2042 of the Tax Code.
The parties filed cross motions for partial summary
judgment on the government’s first cause of action, namely
whether Johnson and Smith, as successor trustees of the
Trust, were personally liable for unpaid estate taxes under
26 U.S.C. § 6324(a)(2). The court initially granted
summary judgment in favor of the government on this
claim and granted defendant’s motion to amend their
answer.
In the Amended Answer filed October 17, 2014, defendants
asserted a defense that section 3713 liability was
discharged in August 1997 pursuant to 26 U.S.C. § 2204 as
a result of their tender of a special lien under 26 U.S.C.
§ 6324A. Defendants also filed a motion asking the court
to reconsider its section 6324(a)(2) summary judgment
ruling in the government’s favor and instead find that
trust assets were included in the gross estate under 26
U.S.C. § 2033. Following significant additional briefing,
the court issued its final decision on December 1, 2016,
finding for the defendants on all issues except for the
liability of defendants Johnson and Smith for one quarter
of their mother’s life insurance benefits each received.
United States v. Johnson, 2018 WL 327245, at *1 (D. Utah Jan. 8,
2018).

App. 20
presented, because we conclude the Government’s
position was substantially justified and the district
court’s conclusion to the contrary was based on an
erroneous methodology.
Because this matter involved multiple claims for
relief, we cannot review the correctness of the district
court’s ruling that the Government’s position was not
substantially justified until we first determine whether
the term “position,” as used in 26 U.S.C. § 7430(c)(4)(B)
means (1) the Government’s overall contention as to
the liability of the Decedent’s children for the unpaid
estate taxes or (2) the individual arguments made by
the Government on each issue. The statutory language
and the relevant case law counsel against the issue-byissue analysis undertaken by the district court.
The Supreme Court has provided some guidance on
the meaning of the term “position,” albeit in a slightly
different context. In Commissioner v. Jean, the Court
addressed the meaning of “position” as used in the
Equal Access to Justice Act (“EAJA”), 28 U.S.C. § 2412,
and concluded that “[w]hile the parties’ postures on
individual matters may be more or less justified, the
EAJA—like other fee-shifting statutes—favors treating
a case as an inclusive whole, rather than as atomized
line-items.” 496 U.S. 154, 161-62 (1990). As the
Government concedes, Jean addressed the question of
whether the position of the Government included prelitigation conduct; it did not directly address the
situation of multiple claims for relief raised by the
government in one lawsuit. The Court’s reasoning,
however, is still persuasive on the question of whether
the analysis of the Government’s position should be

App. 21
conducted at the macro or micro level. Further, in
Hackett v. Barnhart, this court implied that the
substantial-justification inquiry should center on the
Government’s position considered as a whole, and not
on “individual matters [that] may have been more or
less justified.” 475 F.3d 1166, 1173-74 (10th Cir. 2007)
(quotation omitted) (discussing the fee provision in the
EAJA). The Fourth Circuit Court of Appeals has
considered the question in the context of the EAJA and
concluded that the substantial-justification inquiry
should focus holistically on “whether the government
acted reasonably in causing the litigation or in taking
a stance during the litigation.” Roanoke River Basin
Assoc. v. Hudson, 991 F.2d 132, 139 (4th Cir. 1993); see
also id. at 138 (defining the issue presented as whether
courts should “focus only on the issue on which the fee
petitioning party prevailed or on the entire litigation
when determining whether the government’s position
was substantially justified”). The Fourth Circuit’s indepth analysis of the issue is persuasive and consistent
with Jean, Hackett, and the statutory language of
§ 7340 which does not use the terms “issue” and
“position” interchangeably. Accordingly, we conclude
the district court erred by improperly focusing on the
correctness of the Government’s argument on each
claim for relief rather than properly focusing on
whether there was a “reasonable basis both in law and
fact” for the Government’s overall position in the
litigation. Pierce, 487 U.S. at 565.
Under the holistic approach, the inquiry in a multiissue lawsuit brought by the Government to collect
unpaid taxes should focus “not on the government’s
success or failure [on a particular issue], but on the

App. 22
reasonableness of its position in bringing about or
continuing the litigation.” Roanoke River Basin Assoc.,
991 F.2d at 139. Further, we must keep in mind that
§ 7430, like the fee provision in the EAJA, constitutes
a partial waiver of the Government’s sovereign
immunity and, thus, it should be construed narrowly in
favor of the Government. See Ardestani v. INS, 502
U.S. 129, 137, (1991) (“EAJA renders the United States
liable for attorney’s fees for which it would not
otherwise be liable, and thus amounts to a partial
waiver of sovereign immunity.”); Adamson v. Bowen,
855 F.2d 668, 671 (10th Cir. 1988) (“We recognize that
courts must construe waivers of sovereign immunity
strictly.”). The purpose of § 7430 is to eliminate the
financial disincentives associated with defending
oneself “against unjustified government action.”
Morrison v. Comm’r, 565 F.3d 658, 659 (9th Cir. 2009)
(emphasis added). If the Government’s suit, as here,
raises multiple claims for relief but seeks to recover
only a single tax liability, it would be incongruous to
conclude that its position in bringing about the
litigation was unjustified when it ultimately secures a
judgment for the full amount sought. This is true even
if one or more of the Government’s alternative claims
are dismissed, because the Government cannot recover
more than the amount of the tax liability regardless of
how many of its claims are successful.
Here, the Government took one position in this
litigation—that the Decedent’s children were liable for
the unpaid estate taxes. We have ruled in favor of the
Government on its claim that those individuals are
liable for the full amount of the unpaid taxes because
the Government is a third-party beneficiary of the

App. 23
Distribution Agreement.12 Thus, under the facts in this
case, the Government’s litigation position was
substantially justified because it obtained a judgment
for the full amount sought. Accordingly, we reverse the
district court’s award of fees and costs to Appellees.
IV. Conclusion
In Appeal No. 17-4083, we reverse the district
court’s entry of judgment in favor of Appellees as to the
Government’s third-party beneficiary claim and
remand the matter to the district court with
instructions to enter judgment in favor of the
Government on that claim and to award damages to
the Government in the amount determined on remand.
In Appeal No. 17-4093, we affirm the judgment
entered on March 30, 2017, against appellee Johnson
in the amount of $92,250 and against appellee Smith in
the amount of $92,250.
In Appeal No. 18-4036, we reverse the award of
attorney’s fees and costs to Appellees.

12

If, on remand, the Government is unable to recover the full
amount of the unpaid taxes, it is only because it failed to substitute
the estates of deceased Defendants Barnwell and Devine as parties
in this matter, not because of any deficiency in the government’s
third-party beneficiary claim.

App. 24
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 17-4083
(D.C. No. 2:11-CV-00087-CW)
(D. Utah)
[Filed March 29, 2019]
________________________________
UNITED STATES OF AMERICA, )
)
Plaintiff - Appellant,
)
)
v.
)
)
MARY CAROL JOHNSON;
)
JAMES W. SMITH,
)
)
Defendants - Appellees,
)
)
and
)
)
MARIAN S. BARNWELL; BILLIE )
ANN S. DEVINE; EVE H. SMITH, )
)
Defendants.
)
________________________________ )
JUDGMENT
_________________________________
Before TYMKOVICH, Chief Judge, MURPHY and
HARTZ, Circuit Judges.
_________________________________

App. 25
This case originated in the District of Utah and was
argued by counsel.
The district court’s entry of judgment in favor of
Appellees as to the Government’s third-party
beneficiary claim is reversed. The case is remanded to
the United States District Court for the District of
Utah with instructions to enter judgment in favor of
the Government on that claim and to award damages
to the Government in the amount determined on
remand.
Entered for the Court
/s/Elisabeth A. Shumaker
ELISABETH A. SHUMAKER, Clerk

App. 26

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH,
CENTRAL DIVISION
Case No. 2:11-cv-00087
Judge Clark Waddoups
[Filed January 8, 2018]
________________________________
UNITED STATES OF AMERICA, )
)
Plaintiffs. )
)
v.
)
)
MARY CAROL S. JOHNSON;
)
JAMES W. SMITH; MARIAN S.
)
BARNWELL; BILLIE ANN S.
)
DEVINE; and EVE H. SMITH
)
)
Defendants. )
________________________________ )
MEMORANDUM DECISION AND ORDER
RE LITIGATION FEES AND COSTS
Defendants Mary Carol S. Johnson and James W.
Smith seek recovery of reasonable litigation fees and
costs pursuant to 26 U.S.C. § 7430. For the following
reasons, defendants’ motion is granted and defendants

App. 27
are awarded $285,648.06 in attorney’s fees and
$30,558.00 in expert witness report costs.
STATEMENT OF FACTS
On January 21, 2011, the United States filed a
complaint against the children of Anna S. Smith,
seeking collection of an estate tax deficiency owed by
her estate as a result of her death in in 1991.
Defendants filed a motion to dismiss on April 1, 2011
on the grounds that the government’s claims were
time-barred; that 26 U.S.C. § 6324(a)(2) largely did not
impose personal liability upon them as beneficiaries,
other than as to their receipt of insurance proceeds;
and that they are not subject to fiduciary liability
under 31 U.S.C. § 3713 because the estate had
sufficient assets to pay the outstanding tax liability at
the time the estate proceeds were distributed to the
beneficiaries via a Distribution Agreement. The court
granted in part and denied in part defendants’ motion
to dismiss on July 29, 2013, allowing the government’s
section 6324 claims against the trustees and life
insurance beneficiaries to proceed, and concluding that
the government had stated a claim for fiduciary
liability under section 3713.
On July 31, 2013, the United States filed an
Amended Complaint, adding a claim seeking to
foreclose against the Distribution Agreement as well as
a claim as a third party beneficiary of the Distribution
Agreement. Defendants answered the Amended
Complaint on August 27, 2013, asserting defenses to
include the expiration of the statute of limitations as to
the government’s interest as a third party beneficiary
to the Distribution Agreement and that the

App. 28
government’s section 6324(a)(2) claims are barred
because the property was not included in the gross
estate under any of sections 2034 through 2042 of the
Tax Code. The parties filed cross motions for partial
summary judgment on the government’s first cause of
action, namely whether Johnson and Smith, as
successor trustees of the Trust, were personally liable
for unpaid estate taxes under 26 U.S.C. § 6324(a)(2).
The court initially granted summary judgment in favor
of the government on this claim and granted
defendant’s motion to amend their answer.
In the Amended Answer filed October 17, 2014,
defendants asserted a defense that section 3713
liability was discharged in August 1997 pursuant to 26
U.S.C. § 2204 as a result of their tender of a special lien
under 26 U.S.C. § 6324A. Defendants also filed a
motion asking the court to reconsider its section
6324(a)(2) summary judgment ruling in the
government’s favor and instead find that trust assets
were included in the gross estate under 26 U.S.C.
§ 2033. Following significant additional briefing, the
court issued its final decision on December 1, 2016,
finding for the defendants on all issues except for the
liability of defendants Johnson and Smith for one
quarter of their mother’s life insurance benefits each
received. On May 1, 2017, defendants filed a motion for
attorney’s fees and costs under 26 U.S.C. § 7430. The
parties each subsequently appealed the court’s
December 1, 2016 memorandum decision. While the
case was on appeal, the court declined to resolve the
motion for attorney’s fees until, at the parties’ request,
a status conference was held on December 13, 2017. At
that time, both parties indicated it would be helpful to

App. 29
their appellate mediation efforts if the court decided
the motion. The court now proceeds to do so.
MOTION FOR ATTORNEY’S FEES AND COSTS
Section 7430(a) provides that in a “court proceeding
which is brought by . . . the United States in connection
with the determination, collection, or refund of any tax,
interest, or penalty under this title, the prevailing
party may be awarded a judgment . . . for . . .
reasonable litigation costs incurred in connection with
such court proceeding.” A “prevailing party” is a party
other than the United States, with a net worth of less
than $2 million at the time the proceeding was
commenced,1 who “has substantially prevailed with
respect to the amount in controversy, or has
substantially prevailed with respect to the most
significant issue or set of issues presented.” 26 U.S.C.
§ 7430(c)(4)(A).
The United States does not dispute that defendants
Johnson and Smith have prevailed on both the amount
in controversy and on the most significant issues or set
of issues presented. (U.S. Opp’n to Mot. for Atty. Fees,
ECF No. 201.) The United States also does not
challenge the factual allegations in the Johnson and
Smith affidavits asserting that they each had a net
worth of less than $2 million at the time this
proceeding commenced. (Id.)

1

28 U.S.C. § 2412(d)(2)(B) sets forth the net worth requirement for
an individual, which is made applicable to the definition of
prevailing party found at 18 U.S.C. § 7430(c)(4)(A)(ii).

App. 30
Section 7430(c)(4)(B) provides, however, that “a
party shall not be treated as the prevailing party . . . if
the United States establishes that the position of the
United States in the proceeding is substantially
justified.” The statute further goes on to state that the
United States’ position should be presumed “not to be
substantially justified if the Internal Revenue Service
did not follow its applicable published guidance . . . .”
26 U.S.C. § 7430(4)(B)(ii). Applicable published
guidance is defined as “regulations, revenue rulings,
revenue procedures, information releases, notices, and
announcements” as well as “private letter rulings,
technical advice memoranda, and determination
letters” that are issued to the taxpayer.” 26 U.S.C.
§ 7430(4)(B)(iv). In addition, the Supreme Court has
defined “substantially justified” as “justified to a degree
that could satisfy a reasonable person,” or in other
words, having a “reasonable basis both in law and fact.”
Pierce v. Underwood, 487 U.S. 552, 565 (1988). See also
Anthony v. U.S., 987 F.2d 670, 674 (10th Cir. 1993). In
making the determination about whether the United
States’ positions were substantially justified, “the
district court must look at all facts and circumstances
as well as the legal precedents relating to the case.”
Pate v. U.S., 982 F.2d 457 (10th Cir. 1993). “The
government’s failure to prevail in the underlying
litigation does not make its position necessarily
unreasonable, but it remains a factor” for
consideration. Anthony, 987 F.2d at 674.
A. Substantially Justified
Defendants’ fee request segregates the fees
according to claim. Specifically, defendants do not seek

App. 31
fees related to statute of limitations, transferee
liability, discovery, or otherwise uncategorized issues.
Instead, their fee request is limited to the following
issues on which they substantially prevailed: (a) that
the trust assets were not included in the gross estate of
Anna S. Smith under one of 26 U.S.C. §§ 2034 to 2042,
so therefore there could be no transferee liability under
section 6324(a)(2); (b) that a section 6324A special lien
had in fact been furnished to the IRS, which wrongfully
rejected it, and therefore Carol Johnson and James
Smith were entitled to discharge under section 2204 as
a matter of law; and (c) that the government’s attempts
to enforce the Distribution Agreement and foreclose its
tax lien were untimely or otherwise improper. The
court will address each issue in turn as to whether the
government’s position was substantially justified.
1. The government’s position with regard to the
discharge of Johnson and Smith’s fiduciary
liability was not substantially justified.
The government argues that defendants could not
have received a valid discharge of personal liability
under § 2204 as a result of furnishing a valid § 6324A
special lien because defendants “never made a written
application for discharge,” and because “the IRS never
accepted the defendants’ proposed § 6324A lien.” (U.S.
Opp’n 5-6, ECF No. 201.) The government has never
been able to identify any “form, method, procedure, or
policy by which a ‘written application’” is properly
made, nor point to “section 2204 or any applicable
authorities or regulations [that] require a specific
format, form, or wording to make an application for
discharge.” United States v. Johnson, 224 F. Supp.3d

App. 32
1220, 1237-38 (D. Utah 2016). This is nearly fatal to
the government’s claim that it had a reasonable basis
in law and fact for its position. The government has
nevertheless repeatedly asserted that a written
application other than the one it received was required
and that without one the court could not find that
defendants had substantially complied with the
application requirement pursuant to Baccei v. United
States, 632 F.3d 1140, 1145-46 (9th Cir. 2011).
In the court’s view, the government’s reading of and
reliance on Baccei for this position is not reasonable,
especially in light of its failure to otherwise identify a
“proper” method of making a written application. The
government cites Baccei for the proposition that “the
doctrine of substantial compliance can have no
application in the context of a clear statutory
prerequisite that is known to the party seeking to apply
the doctrine.” Id. at 1145. Baccei, however, goes on to
state that “substantial compliance with regulatory
requirements may suffice when such requirements are
procedural and when the essential statutory purposes
are fulfilled.” Id. Furthermore, Baccei clarifies that “A
taxpayer may be relieved of perfect compliance with a
regulatory requirement when the taxpayer has made a
good faith effort at compliance . . . and (1) the
regulatory requirement is not essential to the tax
collection scheme but rather is an unimportant or
relatively ancillary requirement or (2) the regulatory
provision is so confusingly written that it is reasonably
subject to conflicting interpretations.” Id. (internal
quotations omitted.) Baccei thus placed the government
on notice that in the absence of a “clear statutory
prerequisite that is known to the party seeking to apply

App. 33
the doctrine,” combined with the government’s utter
inability to identify any “proper” form or method of
providing a written application for discharge, its
position on this point was not substantially justified.
As for its position that the IRS was substantially
justified in rejecting the defendants’ proposed § 6324A
lien, the government still assumes that it had
discretionary authority not to accept closely held stock
as collateral under § 6324A. It cites the court to a
footnote in a Tenth Circuit case that states that a
litigation position is not necessarily unjustified based
on a finding that an agency’s actions have been
arbitrary and capricious. See Mid-Del Therapeutic
Center, Inc. v. C.I.R., 30 Fed. Appx. 889 n.3 (10th Cir.
2002). This argument misses the point. Here, the court
did not evaluate whether the IRS arbitrarily or
capriciously rejected the defendants’ proposed § 6324A
lien; thus, this case law is inapplicable. The
government vaguely asserts that its position that it had
the discretion to reject the special lien was otherwise
“supported by reference to the applicable statutes and
regulations, case law, and facts,” (U.S. Opp’n 8; ECF
No. 201), but fails to identify what these are and
provide an explanation as to why this position was
reasonable. Instead, the court concluded that the
government’s legal arguments on these issues
repeatedly contradicted its own published guidance,
misinterpreted the plain language of statutes and
regulations, ignored relevant provisions of other
statutes and regulations, and conflicted with the
undisputed purpose of section 6166. See Johnson, 224
F. Supp.3d at 1238-43. Because the government has
not demonstrated that its position on section 2204

App. 34
discharge as a result of the section 6324A special lien
had a reasonable basis in fact or law, the defendants
should be awarded attorney’s fees for all aspects of
their defense to section 3713 claims.2 The defendants’
request for the costs of Jeffery S. Pickett’s expert report
is directly related to these claims and should also be
granted.3 The report was necessary to establish the
value of the trust assets for purposes of the insolvency
test under section 3713 and to establish the value of
the stock for purposes of the special lien under section
6324A.
2. The government’s position with regard to
Johnson and Smith’s liability as trustees under
section 6324(a)(2) was not substantially
justified.
Although this issue was a difficult one for the court
during the litigation, the court concludes that the
government’s position that trust assets were included
in the gross estate pursuant to one of the transfer
sections, §§ 2034-2041, was not substantially justified.

2

Regardless of any potential merit to the government’s position on
the underlying section 3713 claim in the absence of discharge, the
fiduciaries had already been discharged as a matter of law and
should not have been required to defend themselves many years
later with respect to section 3713 liability.
3

Defendants correctly point out that the United States’ expert
report did not meet its own burden to show that the value of the
closely held stock was of insufficient or uncertain value, nor did it
even attempt to offer an opinion on its value. The absence of this
proof—or an attempt by the government to provide such
proof—also supports the court’s conclusion that the United States’
position was not substantially justified.

App. 35
Defendants argue that this entire issue was moot
because their alleged liability under section 6324(a)(2)
had already been discharged as a matter of law when
they furnished the special lien. (Def.’s Mot. 4; ECF No.
198). The court did not decide this issue, however, and
does not do so now. While the defendants acknowledge
that “the question of the proper code section of
inclusion was a novel issue,” (id.), the government’s
defense of this position merely restates their litigation
position, without demonstrating why their position was
reasonable.
In particular, the government continues to assert
that its “transfer” arguments were reasonable without
addressing the court’s conclusion that this position was
inconsistent with the IRS statutory scheme and
contradicted both IRS Technical Advice Memorandum
89-40-003 and IRS Revenue Ruling 75-553. Johnson,
224 F. Supp. 3d at 1232-34. 26 U.S.C. § 7430(c)(4)(B)(ii)
provides that “the position of the United States shall be
presumed not to be substantially justified if the
Internal Revenue Service did not follow its applicable
published guidance.” Although the statute allows this
presumption to be rebutted, the court concludes that
the government’s arguments fail to do so. Under the
IRS statutory scheme, the only potentially applicable
transfer sections (§§ 2036 and 2038) require beneficial
ownership to have been given away while at the same
time retaining some of the value of what has been
given away. The government has not presented any
factual or legal arguments that reasonably support a
conclusion that Anna S. Smith divested herself of the
beneficial ownership of her trust assets during her
lifetime. Instead, its arguments directed the court’s

App. 36
attention away from this critical fact. Because the
government has not demonstrated that its position on
trustee liability pursuant to 26 U.S.C. § 6324(a)(2) had
a reasonable basis in fact or law, the defendants should
be awarded attorney’s fees for all aspects of their
defense to these claims.
3. The government’s attempts to enforce the
Distribution Agreement and foreclose its tax lien
were not substantially justified.
The government argues that it had a reasonable
basis in both law and fact to seek enforcement of the
terms of the Distribution Agreement and to foreclose
its tax lien. In the court’s view, however, the
government sat too long on its right to enforce the
Distribution Agreement and failed to acknowledge its
own numerous mistakes in releasing its tax lien twice
and improperly attempting to revoke the liens it had
previously released, let alone that defendants’
furnishing of a valid section 6324A lien required the
IRS to release the tax lien such that there was no lien
to foreclose. This parade of legal and factual errors by
the government is not justified as being reasonable by
simply reciting to the court the same arguments it
made during the litigation. The government’s position
ignored that it necessarily stood in the position of a
third party beneficiary to the Distribution
Agreement—rather than in its sovereign capacity—in
its attempt to collect the unpaid tax. Similarly, it is not
reasonable for the government to argue that the
responsibility for its own numerous tax lien errors and
lapses should be shifted onto the taxpayer as it did
here. Accordingly, the government has failed to

App. 37
persuade the court that its position on these issues was
substantially justified as factually or legally
reasonable.
B. Reasonable Litigation Costs
Defendants seek an award of $285,648.06 in
attorney’s fees and $30,558.00 for the cost of the
Pickett report, for a total award of $316,206.06. As
previously mentioned, the defendants have not sought
attorney’s fees for issues upon which the government
may have had substantial justification for its positions,
or for time spent by counsel upon which defendants
received a fee discount. The fees requested have been
limited to the 26 U.S.C. § 7430(c)(4) statutory billing
rates for the years 2011-2017 where actual billing rates
were higher than the statutory rate, and reduced to the
actual billing rates where they were lower than the
statutory rate.
The government argues that the attorney fees are
too high for a case that did not go to trial, and that they
include hours that were “unnecessary, irrelevant and
duplicative,” citing eight motions for permission to file
an over-length brief, a motion for an extension of time,
and fees for more than one attorney working on the
case on the same matter. (U.S. Opp’n 10; ECF No. 201.)
Other than these examples and general assertions, the
government has not identified specific problematic
entries or any amount of fees they believe the court
should reduce.
Defendants argue that the density and complexity
of the subject matter—the U.S. Tax Code—was the
primary reason for the case’s expense. Because of that

App. 38
complexity, they argue that additional pages were
necessary to present their positions to the Court, upon
which they ultimately prevailed. Defendants also argue
that their lengthy and thorough memoranda may not
have been necessary had the government not
“repeatedly misunderstood, ignored, and misapplied
the provisions of the Tax Code, associated regulations,
and it’s agency’s own guidance and decisions.” (Reply 8,
ECF No. 211.) Defendants also argue that the
government’s resistance to defendants’ legitimate
attempts to raise meritorious theories by way of an
amended answer and the submission of an expert
report increased defendants’ fees, as did the
supplemental briefing required by the government’s
submission of a rebuttal report. Finally, defendants
argue that their case was staffed primarily by a tax
attorney and a litigator, with assistance from attorneys
with lower billing rates, and that this combination was
effective and efficient. In recognition of the reality that
some duplication occurred, defendants point out that
along the way counsel voluntarily applied significant
discounts—a total of 295 hours over the course of the
litigation—to reduce defendants’ fees. The court finds
that the attorney’s fees requested were reasonably
incurred over a long time period (2011-2017), have been
appropriately calculated, and reasonably reduced to
account for duplication. Furthermore, the actual
amount defendants seek here is $253,000 less than
what they actually paid their attorneys.
As for the cost of the defendant’s expert witness
report, the government argues that it should not be
awarded because its own rebuttal report claimed the
Pickett report contained “a host of fundamental flaws

App. 39
that make its conclusion misleading and unreliable.”
(U.S. Opp’n 11, ECF No. 11.) If the court does award
the cost of the Pickett report, the government argues
that Mr. Pickett’s fees should be limited to the
statutory rate cap applicable to attorneys’ fees. (Id.)
The court disagrees with the government. The report
was relevant, necessary, and helpful to the court.
Furthermore, the statutory rate cap does not apply to
experts—as opposed to attorneys—in tax cases, and the
government has not argued that Mr. Pickett’s hourly
rate was otherwise unreasonable.
CONCLUSION
Based on the foregoing analysis, the court grants
defendants’ § 7430 motion for attorney’s fees and costs.
Defendants are hereby awarded $285,648.06 in
attorney’s fees and $30,558.00 in expert witness report
costs. The total award is $316,206.06.
SO ORDERED this 8th day of January, 2018.
BY THE COURT:
/s/Clark Waddoups
Clark Waddoups
United States District Judge

App. 40

APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH,
CENTRAL DIVISION
Case No. 2:11-cv-00087
Judge Clark Waddoups
[Filed December 1, 2016]
________________________________
UNITED STATES OF AMERICA, )
)
Plaintiffs. )
)
v.
)
)
MARY CAROL S. JOHNSON;
)
JAMES W. SMITH; MARIAN S.
)
BARNWELL; BILLIE ANN S.
)
DEVINE; and EVE H. SMITH
)
)
Defendants. )
________________________________ )
MEMORANDUM DECISION AND ORDER
This is a tax case filed by the United States to
collect unpaid federal estate taxes owed by the Estate
of Hazel Anna S. Smith (“Estate”). This matter is
before the court on the plaintiff’s Second Motion for
Summary Judgment (Dkt. No. 117), defendants’ Motion
for Reconsideration of the court’s prior order granting

App. 41
partial summary judgment in favor of the government
(Dkt. No. 119), and defendants’ Motion for Summary
Judgment (Dkt. No. 122).
FACTUAL BACKGROUND
The defendants in this action include the four
children of Anna S. Smith (the “Decedent”), namely
Mary Carol S. Johnson, James W. Smith, Marian S.
Barnwell, and Billie Ann S. Devine. During the course
of this litigation, Marian S. Barnwell and Billie Ann S.
Devine passed away, and their estates have not been
substituted as defendants. Eve H. Smith, who was
named as a fifth defendant, is the wife of James W.
Smith. In its prior order in this case, the court
dismissed Mrs. Smith as a party to the litigation. (Am.
Mem. Decision and Order, Dkt. No. 75.)
During her lifetime, Decedent and two of her
children, defendants Mary Carol S. Johnson
(“Johnson”) and James W. Smith (“Smith”), executed a
trust agreement dated February 8, 1982 for the
creation of The Anna Smith Family Trust (the “Trust”),
in which Decedent, Johnson and Smith were named as
co-trustees. The Trust was funded on February 9, 1982
by 11,466 shares of stock in State Line Hotel, Inc.
(“Hotel”). The Hotel was the holder of a Nevada gaming
license. Nearly one year later, on February 1, 1990,
Decedent, Johnson and Smith executed an amended
trust agreement, which removed Smith and Johnson as
co-trustees and left Decedent as the sole trustee of
Trust.
On May 1, 1990, Decedent executed the Second
Amended Trust Agreement (“Trust Agreement”) as

App. 42
both grantor and sole trustee, which was the
agreement in effect at the time of Decedent’s death on
September 2, 1991. It is undisputed that the Decedent
had an unlimited power to modify, alter, amend,
revoke, or terminate the trust at any time during her
life. It is also undisputed that the Decedent, as grantor,
had the right to withdraw principal and income from
the Trust as she directed during her lifetime, and that
no Trust beneficiaries had an enforceable right to any
distributions from the Trust during Decedent’s life. The
Trust Agreement named Johnson and Smith as
successor trustees. Johnson and Smith were also
named in the Decedent’s will as personal
representatives of Decedent’s Estate. Neither
Decedent’s Estate nor the Trust have been named as
defendants in this lawsuit.
Upon Decedent’s death, her will directed the
personal representatives to ensure that the Decedent’s
“debts, last illness, and funeral and burial expenses be
paid as soon after [her] death as reasonably
convenient.” (Will ¶ II; Dkt. No. 32, Ex. A.) It further
directed the personal representatives that “claims
against [the] estate” may be settled and discharged in
the “absolute discretion of [the] Personal
Representatives,” although it did not expressly direct
the personal representatives to pay any federal estate
tax levied against the Estate. (Id.) The “rest and
residue” of the Estate was to be delivered to the
successor trustees and added by them to the principal
of the Trust to be administered as directed by the
trustees. (Id. at ¶ IV.)

App. 43
The Trust Agreement provided for the successor
trustees to make specific distributions, as soon as
possible after the Decedent’s death, from the principal
of the Trust to individuals who are not parties to this
suit. (Trust Agreement, 2; Dkt. No. 32, Ex. B.) The
successor trustees were then directed to
pay any and all debts and obligations of the
GRANTOR, the last illness, funeral, and burial
expenses of the GRANTOR and any State and
Federal income, inheritance and estate taxes
which may then be owing or which may become
due and owing as a result of the GRANTOR’s
death.
(Id.) (Emphasis added.) After these expenses were paid
by the successor trustees, one third of the remaining
Trust corpus (not to exceed $1,000,000) was to be
divided into four equal parts to be distributed to one of
the four family limited partnerships that had been
established for each of the heirs. (Id. at 4.) Finally, the
remaining principal and undistributed income of the
Trust was to be distributed equally between the heirs
by the successor trustees. (Id. at 4-5.) The heirs also
received benefits valued at $369,878 from several life
insurance policies belonging to the Decedent. (Dkt. No.
86-3, p. 8.)
As directed by the Trust Agreement, the successor
trustees filed a federal estate tax return with the
Internal Revenue Service (“IRS”) on June 1, 1992. The
Decedent’s gross estate was valued on the return at
$15,958,765, resulting in a federal estate tax liability
of $6,631,448, of which $4,000,000 was paid at the time
of filing. (See United States Estate Tax Return, Dkt.

App. 44
No. 86-3.) The majority of the Decedent’s gross estate
consisted of 9,994 shares of stock in the Hotel, valued
by a valuation expert on the return at $11,508,400.
Because the Hotel was a closely held business and its
value constituted more than thirty-five percent of the
Decedent’s adjusted gross estate, the successor trustees
validly elected to defer payment of the remainder of the
federal estate tax liability pursuant to 26 U.S.C.
§ 6166(a). Consistent with Section 6166, the election
provided that the remaining balance of the tax liability
would be deferred for five years, at which time the
successor trustees would pay it in ten annual
installments beginning on June 2, 1997 and ending on
June 2, 2006. (See Election, Dkt. No. 32-5.) After
receiving the estate tax return, the IRS properly
assessed the Estate for unpaid estate taxes on July 13,
1992.
It is undisputed that Nevada gambling law limited
the ability of a Trust to own stock in a casino. The
Trust and the successor trustees had received special
permission for ownership in the Hotel that was set to
expire in January 1993. (Ltr. from Nevada Gaming
Ctrl. Bd. dated July 23, 1992; Dkt. No. 139, p. 220.) The
parties do not dispute that because the application
process to gain permanent approval for such ownership
was extensive, expensive, and ultimately uncertain, the
successor trustees decided to distribute the Hotel stock
from the Trust to the beneficiaries. Accordingly, on
December 31, 1992, the successor trustees and the
heirs executed an agreement (the “Distribution
Agreement”) distributing the remaining Trust assets to
the heirs. (See Agreement; Dkt. No. 32, Ex. G.) The

App. 45
Distribution Agreement indicated the following
regarding the outstanding estate tax liability:
6. Liability for Taxes. Each of the
BENEFICIARIES acknowledges that the assets
distributed to him or her will accomplish a
complete distribution of the assets of the Trust.
A portion of the total federal estate tax upon the
Estate of Anna Smith is being deferred and is
the equal obligation of the BENEFICIARIES to
pay as the same becomes due. Likewise, if, upon
audit, additional federal estate taxes or Utah
inheritance taxes are found to be owing, the
responsibility for any such additional taxes,
interest or penalties will be borne equally by the
BENEFICIARIES.
(Id.) On December 28, 1992, a few days prior to signing
this agreement, the Estate paid the IRS an additional
$1,000,000 on the deferred tax owed. Defendants
assert, and the government has provided no contrary
evidence, that at the time the Distribution Agreement
was signed, their combined net worth was
approximately $21.1 million, whereas the estate tax
liability at that time was approximately $1.46 million.
From the date the Distribution Agreement was signed
until 2001, it is undisputed that additional payments
on the deferred tax totaling $1,399,221.87 were made
to the IRS by the Hotel on behalf of the defendants,
who held the majority of the ownership of the Hotel
from 1992 to 2001.
On May 30, 1995, approximately two years prior to
the start date of the Section 6166(a) deferred tax
installment payments, the IRS issued a Notice of

App. 46
Deficiency against the Estate. The IRS claimed that
the 9,994 shares of Hotel stock were worth $15,500,000
rather than $11,508,400 at the time of Decedent’s
death. (See Notice of Deficiency; Dkt. No. 32, Ex. E.)
According to the IRS, this adjusted valuation resulted
in an alleged additional estate tax of $2,444,367. The
Estate contested the Notice of Deficiency, and a
settlement was ultimately reached where the Estate
agreed to pay additional federal estate taxes in the
amount of $240,381. The IRS assessed the Estate for
the second time pursuant to that settlement on
December 30, 1996.
On May 27, 1997, about a week prior to the due date
of the first estate tax installment payment, Colleen
Girard, an agent from the IRS, sent a letter to Johnson
in her capacity as executor of the Estate, informing her
“of an alternative to your continued personal liability
for the unpaid estate tax . . . deferred under 26 U.S.C.
Section 6166.” One of the alternatives offered was for
Johnson “to furnish a Special Lien for Estate Tax
Deferred Under Section 6166, as described in 26 U.S.C.
Section 6324A.” (Ltr. from Colleen Girard dated May
27, 1997; Dkt. No. 122-2, pp. 3-4.) Accordingly, on
August 4, 1997, after obtaining additional information
from the IRS about the information required to submit
the Section 6324A special lien, Johnson and Smith,
through counsel, provided the IRS with an executed
Agreement to Special Lien Under Section 6324A signed
by all four children of the Decedent, an agreement
restricting the sale of the Hotel stock while the lien on
the stock was in effect, and the additional information
about the Hotel stock requested by the IRS. (Ltr. from
David Salisbury dated Aug. 4, 1997; Dkt. No. 122-2, p.

App. 47
7.) It is undisputed that at no point during this
exchange of information did Ms. Girard mention or
attach a “notice of election” or other application form
required to furnish the IRS with a special lien.
Although unknown to the defendants at the time,
Ms. Girard then sought guidance from IRS District
Counsel regarding the use of stock in a closely held
corporation as security for a special lien under Section
6324A. (Aug. 21, 1997 IRS Memo.; Dkt. No. 122-2, p.
13.) Ms. Girard informed District Counsel that the
Estate had consented to the lien and offered 4,768
shares of stock which, based on the 1996 Tax Court
settlement, had a value of $1,273 per share, or a total
value of $6,092,578. Given that the unpaid balance of
the tax assessment was $1,899,970 and the amount of
security needed was $2,192,365.20, Ms. Girard stated
that “I have analyzed the security and feel a lien under
IRC 6324A against the stock will adequately secure the
liability for the remainder of the IRC 6166 election.”
(Id.)
Notwithstanding the foregoing, in a letter dated
November 6, 1997, Ms. Girard subsequently notified
Smith and Johnson that District Counsel had “advised
our office that closely held stock should not be accepted
as collateral by the Internal Revenue Service because
the IRS cannot sell stock at a public auction as it
violates securities regulations.” (Ltr. from Colleen
Girard dated Nov. 6, 1997; Dkt. No. 122-2, p. 15.)
Through counsel, Smith and Johnson responded that if
there were securities law problems with the stock held
by the IRS in its Section 6324A Special Lien, “it would
appear that they belong to the IRS, not to the

App. 48
taxpayer,” and that it was their position that “if an
election is made under Section 6324A and the
identified property can be expected to survive the
period of deferral, the requirements of the statute have
been met and the application of the special lien is
mandatory.” (Ltr. from David Salisbury dated Jan. 13,
1998; Dkt. No. 122-2, pp. 17-18.) In any event, Ms.
Girard, Smith, and Johnson all agreed to wait two
years to revisit the matter in 2000. (Ltr. from Ms.
Girard dated Jan. 20, 1998; Dkt. No. 122-2, pp. 19-20.)
It is undisputed that neither Ms. Girard, nor anyone
else at the IRS, ever contacted Smith, Johnson, or their
attorneys again with respect to the Section 6324A
special lien.
In January 2002, the Hotel filed for Chapter 11
bankruptcy in the state of Nevada. It is undisputed
that as a result of the bankruptcy proceedings, the
beneficiaries were instructed to stop making any more
distributions to pay the estate tax. The defendants did
apply for an extension of time to pay the next
installment due under Section 6166 and notified the
IRS that the Hotel was in bankruptcy proceedings.
(Dkt. No. 139, pp. 164-166.) By May 2002, the
bankruptcy court approved the sale of all Hotel assets
free of liens, claims, and encumbrances. As
shareholders, the heirs received no value for their
Hotel ownership interests in the bankruptcy.
Over a year after the conclusion of the Hotel
bankruptcy, the IRS sent Smith and Johnson
delinquent billing notices for the outstanding estate
taxes dated August 28 and December 2, 2003. The
latter notice stated that if the payment due was not

App. 49
received by the IRS by December 15, 2003, the
“installment agreement will be in danger of defaulting.
If this occurs, the whole balance due on the account
will be due immediately and turned over for collection.”
(2nd Delinquent Installment Billing-2003, Dkt. No.
139, p. 163.) The installment payment was not made in
2003. In 2005, the Estate, through counsel,
communicated with Byron Broda at the IRS about the
inability of the Estate to pay its outstanding estate
taxes. Counsel sent Mr. Broda an explanation of the
Estate’s distribution of assets in 1992, the financial
difficulties of the Hotel and the bankruptcy, as well as
a copy of the Distribution Agreement. (Dkt. No. 139,
pp. 168-183.) The parties agree that the IRS then sent
Smith and Johnson notices of their intent to levy
unspecified assets in approximately July 2005. (Gov.
Opp. Mem. to Second Mot. Summ. J.; Dkt. No. 138, p.
14.) On July 8, 2005, the IRS sent the Estate a Notice
of Federal Tax Lien, and indicated it had been filed
with the County Recorder of Salt Lake and Tooele
counties in Utah. The notice included a statement that
said:
IMPORTANT RELEASE INFORMATION: For
each assessment listed below, unless notice of the
lien is refiled by the date given in column (e), this
notice shall, on the day following such date, operate
as a certificate of release as defined in IRC 6325(a).
The last refiling date listed in column (e) of this notice
listed “N/A” with respect to the 1992 estate tax
assessment, and January 29, 2007 with respect to the
1996 estate tax assessment. (2005 Notice of Federal
Tax Lien; Dkt. No. 139, pp. 197-199.) The assessment

App. 50
was for a total of $1,569,9671.67 which appeared to be
attributable in full to the 1996 tax assessment. (Id.)
On or about September 12, 2005, the IRS sent a
Notice of Levy to each of the individual defendant
children, Smith, Johnson, Bille Ann S. Devine, and
Marian S. Barnwell. The notices stated, “This levy
attaches assets includible in the gross estate of Hazel
Anna S. Smith, which were distributed or transferred
to you, including but not limited to cash and life
insurance proceeds.” (Notices of Levy; Dkt. No. 139, pp.
206-209.) Thereafter, on November 15, 2005, Mr. Broda
recommended that the government pursue a civil suit
against the Estate, Johnson, and Smith for transferee
liability for the estate tax. This lawsuit was not filed
until January 21, 2011.
On or about January 9, 2007, the IRS sent the
Estate a corrected Notice of Federal Tax Lien, which
was also filed in Salt Lake and Tooele counties. This
notice claimed it was “filed to correct the amount due
on the original lien,” but that otherwise the
“information on the original notice filed is correct and
that instrument remains in full force and effect.” (2007
Notice of Federal Tax Lien; Dkt. No. 139, pp. 200-202.)
This notice apportioned the tax owed between the 1992
assessment ($1,164,490.94) and the 1996 assessment
($405,220.73). (Id.) The IRS did not re-file their Notice
of Federal Tax Lien by January 29, 2007, the deadline
identified on the original and corrected notices. Rather,
the IRS issued Certificates of Release for both the 2005
and 2007 liens on February 18, 2007, which stated that
“the lien provided by Code section 6321 for these taxes
and additions has been released.” (Certificate of

App. 51
Release of Federal Tax Lien; Dkt. No. 139, pp. 210213.) These certificates were filed in both Salt Lake
and Tooele counties. (Id.)
Several months later on March 27, 2007, the IRS
mailed the Estate a Revocation of Certificate of Release
of Federal Tax Lien with respect to both the 1992 and
1996 assessments filed in both Salt Lake and Tooele
counties, stating that “we mistakenly allowed Notices
of Federal Tax Lien filed against Hazel Anna S. Smith
Estate to be released” and that the releases “are
revoked and the liens are reinstated, as provided under
Internal Revenue Code, Section 6325(f)(2).”
(Revocations, Dkt. No. 139, pp. 214-217.) The IRS
admits that the revocation notice was not filed with the
Salt Lake county recorder’s office as required by
statute. (Decl. of Jennifer Graham ¶ 3, Dkt. No. 148.)
Similarly, the IRS admits that on October 12, 2012 it
again filed Certificates of Release of Federal Tax Lien
with respect to both the 1992 and 1996 assessments in
Salt Lake county. (Id. at ¶ 4.) However, on May 15,
2015, the IRS finally filed its Revocation of those
releases with the Salt Lake county recorder’s office,
along with a new Notice of Federal Tax Lien against
the Estate, stating that the government now has until
August 12, 2025 to refile its lien for the 1992
assessment and until December 30, 2025 to refile its
lien for the 1996 assessment. (Id. at Ex. 8, Dkt. No.
148-2.)
PROCEDURAL BACKGROUND
The government filed this action on January 21,
2011 in an effort to collect the estate’s outstanding tax
liability, asserting a cause of action against all

App. 52
defendants for trustee, transferee, and beneficiary
liability under 26 U.S.C. § 6324(a)(2), and against the
personal representatives under 31 U.S.C. § 3713.
(Compl., Dkt. No. 2.) Defendants filed a motion to
dismiss the complaint. (Dkt. No. 31.) Following a
hearing on that motion, the court determined that the
government had adequately stated a claim that the
trustees of the Trust may be personally liable for the
unpaid estate tax to the extent of the value of the
property in the Trust at the time of Decedent’s death
pursuant to 26 U.S.C. § 6324(a)(2). (See Am. Mem. and
Decision, Dkt. No. 75.) The court dismissed the
government’s claim, on the other hand, that each heir
should be individually liable for the unpaid estate taxes
as a transferee of Trust assets pursuant to that statute.
(Id.) Similarly, the court determined that the
government’s claim regarding each heir’s potential
individual liability for the estate’s taxes as a
beneficiary of Trust assets under Section 6324(a)(2)
should be limited to the extent of the distributions they
received from the Decedent’s life insurance policies.
(Id.) Finally, the court determined that the government
had adequately stated a claim that the personal
representatives may have individual fiduciary liability
for the estate taxes under 31 U.S.C. § 3713, although it
revised its reasoning as to why after resolving
defendants’ first motion to reconsider. (Id.)
After the court ruled on defendants’ motion to
dismiss, the defendants answered the government’s
Amended Complaint, which was filed on July 31, 2013
and included for the first time causes of action related
to the Distribution Agreement. (Dkt. No. 79.)
Subsequently, the parties filed cross motions for partial

App. 53
summary judgment on the government’s first cause of
action, namely whether Johnson and Smith, as
successor trustees of the Trust, were personally liable
for unpaid estate taxes under 26 U.S.C. § 6324(a)(2)
because that section only makes trustees liable up to
the value of assets included in decedent’s gross estate
under 26 U.S.C. §§ 2034 to 2042, inclusive.1 Oral
argument was heard on these motions on October 1,
2014, after which the court ruled on the record in favor
of the government that the successor trustees were
personally liable for the estate tax because the Trust

1

For purposes of the prior motion to dismiss, defendants did not
dispute that “trustees” were “transferees” that fall within the scope
of Section 6324(a)(2). In this motion for summary judgment,
defendant trustees argued that they can only be liable as
transferees under this statute if the Trust assets were included in
Decedent’s gross estate under Sections 2034-2042, a position that
was not at issue in the previous motion. See Section 2, infra. The
court finds that this clarification of defendants’ position was not
clearly inconsistent with their position in the prior motion to
dismiss, nor was their prior position calculated to mislead the
court, nor did this clarification give defendants an unfair
advantage. See Hansen v. Harper Excavating, Inc., 641 F.3d 1216,
1227 (10th Cir. 2011). Defendants stated this position as their
Fifteenth Defense in their Answer to Amended Complaint filed on
August 27, 2013; the discovery deadline was still several months
away when defendants clarified their position; and the government
has always had the burden of proving that it has met all elements
of its Section 6324(a)(2) claim. Because Section 6324(a)(2) is a
strict liability statute that imposes liability based not on a
trustee’s improper acts, but on the status of being a trustee,
receiving property, and having unpaid federal estate taxes, it is
necessary for the court to fully consider each of the statute’s
elements and defendants’ arguments without being constrained by
prior statements when these questions were not directly at issue
previously.

App. 54
assets were included in the Decedent’s gross estate
under a relevant section, namely 26 U.S.C. § 2036(a).
Defendants have challenged this ruling in a Motion to
Reconsider, which is now before the court. (Dkt. No.
119.)
At the October 1 hearing, the court also granted
defendants’ motion for leave to amend their answer to
include the affirmative defense that the government’s
claims against Smith and Johnson as personal
representatives and fiduciaries are barred because they
were effectively discharged from personal liability in
August 1997 as a result of their tender of a special lien
under 26 U.S.C. § 6324A. Shortly before the deadline
for dispositive motions, defendants moved for an
extension of time to submit an expert report from
Jeffrey S. Pickett to support that the value of the Hotel
stock pledged as collateral at or near the time of their
§ 6324A election was more than sufficient to pay the
remaining amount of the federal estate tax that had
been deferred under 26 U.S.C. § 6166. Their motion
was granted and defendants filed their second motion
for partial summary judgment on the grounds that
Smith and Johnson were discharged from personal
liability pursuant to their furnishing of the § 6324A
special lien. This motion is before the court. (Dkt. No.
122.)
For its part, on March 17, 2015, the government
timely filed its second motion for summary judgment
on the remaining counts of its amended complaint, and
part of this motion is now before the court. (Dkt. No.
117.) On July 21, 2015, the court held a hearing on the
parties’ second motions for summary judgment,

App. 55
defendants’ motion for reconsideration, and defendants’
motion for extension of time to submit expert reports.
The court granted defendants’ motion for an extension
of time to submit expert reports. The court granted the
government’s second motion for summary judgment as
to the defendants’ personal liability for estate tax
attributable to the life insurance proceeds received
from the decedent. The court took the claims regarding
the successor trustees’ personal liability under
submission. Defendants’ motion for reconsideration and
second motion for partial summary judgment were also
taken under submission.
After both parties submitted expert reports and
supplemental briefing regarding the expert reports and
defendants’ claims that Smith and Johnson should be
discharged from personal liability as a result of
satisfying the requirements for a special lien pursuant
to § 6324A and thus obtaining a discharge pursuant to
§ 2204 such that they are not personally liable
pursuant to § 3713, the court held a final hearing on
the briefing on June 23, 2016. After consideration of
the parties’ extensive briefing, the relevant law, and
the oral arguments by the parties, the court now rules
on the following motions: United States’ Second Motion
for Summary Judgment (Dkt. No. 117), Defendants’
Motion to Reconsider (Dkt. No. 119), and defendant’s
Motion for Partial Summary Judgment (Dkt. No. 122).

App. 56
ANALYSIS
1. Failure to Substitute Estates as Defendants
Requires the Court to Dismiss Defendants
Marian S. Barnwell and Billie Ann S. Devine
As a preliminary matter, the court begins by
addressing the government’s claims against the two
deceased defendants. Notice of the September 1, 2015
death of defendant Billie Ann S. Devine was filed on
September 21, 2015. (Dkt. No. 172.) Notice of the April
17, 2016 death of Defendant Marian S. Barnwell was
filed on May 16, 2016. (Dkt. No. 190.) Rule 25(a)(1) of
the Federal Rules of Civil Procedure governs the
substitution of a party for claims that are not
extinguished by a party’s death. In this case, the
government’s claims against these two deceased heirs
as the beneficiaries of Trust assets under Section
6324(a)(2) to the extent of the distributions they
received from the Decedent’s life insurance policies is
not necessarily extinguished by their deaths and could
potentially have survived against their estates. Rule
25, however, requires a motion for substitution of a
party to be “made within 90 days after service of a
statement noting the death.” Fed. R. Civ. P. 25(a)(1).
For Devine, that time expired in December 2015. For
Barnwell, that time expired in August 2016. When a
party—here the government—has failed to make a
timely motion for substitution of a party, “the action by
or against the decedent must be dismissed.” Id. There
has been no motion for substitution of either defendant
here; accordingly, the court dismisses all of the
government’s claims against defendants Devine and
Barnwell.

App. 57
2. Motion to Reconsider Whether Trust Assets
Were Included in Decedent’s Gross Estate
Under 26 U.S.C. § 2033
The court now turns to defendants’ motion to
reconsider its decision to grant partial summary
judgment to the government on the question of whether
Smith and Johnson as successor trustees are
personally liable for the unpaid estate tax to the extent
of the value of the property in the Trust under section
6324.
As successor trustees of the Trust, Johnson and
Smith can be personally liable for unpaid estate taxes
up to the value of the Trust assets under 26 U.S.C.
§ 6324(a)(2) only if the Trust assets were included in
decedent’s gross estate under 26 U.S.C. §§ 2034 to
2042, inclusive.2 In their motion for partial summary
judgment, defendants argued that Decedent’s assets
were included in her Estate under 26 U.S.C. § 2033,3
rather than under 26 U.S.C. § 2036 or 26 U.S.C.
§ 2038, because the Decedent retained full beneficial
ownership of all Trust assets during her lifetime and
there was no transfer to any other Trust beneficiary

2

The parties agree that the only possibly relevant sections within
this range are section 2036 and section 2038.
3

Section 2033 refers to property in which the decedent has an
interest, and states:
The value of the gross estate shall include the value of all
property to the extent of the interest therein of the decedent at
the time of his death.
26 U.S.C. § 2033.

App. 58
until the time of her death. (Def.’s Mot. for Summ. J. 7,
Dkt. No. 86.) By contrast, the government’s motion for
summary judgment on this claim argued that
decedent’s assets were either included in her estate
under 26 U.S.C. § 2036(a) because they were transfers
with a retained life estate,4 or under 26 U.S.C. § 2038
because the Decedent retained the power to alter,
amend, revoke, or terminate the Trust.5 (Gov. Mot. for

4

Section 2036 states:
(a) General rule. The value of the gross estate shall include
the value of all property to the extent of any interest
therein of which the decedent has at any time made a
transfer (except in case of a bona fide sale for an adequate
and full consideration in money or money’s worth), by
trust or otherwise, under which he has retained for his life
or for any period not ascertainable without reference to his
death or for any period which does not in fact end before
his death—
(1) the possession or enjoyment of, or the right to the
income from, the property, or
(2) the right, either alone or in conjunction with any
person, to designate the persons who shall possess or enjoy
the property or the income therefrom.

26 U.S.C. § 2036.
5

Section 2038 states in pertinent part:
(a) In general. The value of the gross estate shall include the
value of all property—
(1) Transfers after June 22, 1936. To the extent of any
interest therein of which the decedent has at any time
made a transfer . . . by trust or otherwise, where the
enjoyment thereof was subject at the date of his death
to any change through the exercise of a power (in
whatever capacity exercisable) by the decedent . . . to
alter, amend, revoke, or terminate, or where any such

App. 59
Summ. J. 13-19, Dkt. No. 88.) After oral argument on
October 1, 2014, the court denied defendants’ motion
and granted summary judgment to the government on
the claim that Smith and Johnson were personally
liable for the unpaid estate tax as successor trustees of
the Trust. (Dkt. No. 108.) The court concluded that the
assets in the Trust, a fully revocable grantor trust,
were included in Decedent’s gross estate under 26
U.S.C. § 2036(a)(2) because as a result of the creation
of the Trust and the designation of the beneficiaries
therein, “at the instant of death the beneficiaries in
this property had a legally enforceable interest.” (Hr’g
Tr. dated Oct. 1, 2014 49; Dkt. No. 113.)
Defendants have asked the court to reconsider this
decision, arguing that the critical question for their
claim that the Trust assets were included in the gross
estate under 26 U.S.C. § 2033 is not whether the
beneficiaries obtained a legally enforceable interest at
the moment of Decedent’s death, but rather what
interest the Decedent held at the moment of her death.
(Dft.’s Mot. to Reconsider 3, Dkt. No. 119.) Defendants
argue that the court’s analysis of 26 U.S.C. § 2036 was
in error because it incorrectly focused on the interests
held by the beneficiaries immediately after the moment
of death, rather than on the interests held by the
Decedent during her life. (Id. at 7.) From a temporal
standpoint, in other words, the transfer envisioned by
the fully revocable grantor trust executed by the

power is relinquished during the 3-year period ending
on the date of the decedent’s death.
26 U.S.C. § 2038 (emphasis added).

App. 60
Decedent during her lifetime only occurred as a result
of Decedent’s death, and thus the assets remained
beneficially owned by her during her lifetime and were
includable in the Estate pursuant to 26 U.S.C. § 2033
rather than § 2036 or § 2038. They further argue that
this temporal analysis was not originally briefed as to
section 2036, id. at 3, although the court notes that the
parties did present arguments on temporal
considerations as to section 2038. The government
argues that the court should not reconsider defendants’
motion because it merely restates the position
defendants took in their initial motion. (Gov.’s Opp’n
Mem., Dkt. No. 143.) Thus, the court first evaluates the
legal standard required to grant a motion to reconsider.
A. Legal Standard on a Motion to Reconsider
Rule 54(b) of the Federal Rules of Civil Procedure
provides, in relevant part:
[A]ny order or other decision, however
designated, that adjudicates fewer than all the
claims or the rights and liabilities of fewer than
all the parties does not end the action as to any
of the claims or parties and may be revised at
any time before the entry of a judgment
adjudicating all the claims and all the parties’
rights and liabilities.
Fed. R. Civ. P. 54(b).
The government argues that although Rule 54(b)
allows a court to revisit any order that rules on less
than all of the claims in a case, a motion to reconsider
is not appropriate when it merely restates the party’s
position taken in the initial motion. See Servants of the

App. 61
Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir. 2000)
(A motion for reconsideration is an “inappropriate
vehicle[] to reargue an issue previously addressed by
the court when the motion merely advances new
arguments, or supporting facts which were available at
the time of the original motion.”). While defendants
agree that “[a] motion to reconsider is not a second
chance for the losing party to make its strongest case
or to dress up arguments that previously failed,”
United States v. Huff, 782 F.3d 1221, 1224 (10th Cir.
2015), they note and the court agrees that the Tenth
Circuit encourages a court to reconsider an
interlocutory ruling “where error is apparent.” Warren
v. Am. Bankers Ins., 507 F.3d 1239, 1243 (10th Cir.
2007). Furthermore, “[a] district court always has the
inherent power to reconsider its interlocutory rulings.”
Id.
The court agrees with the defendants that the key
language of section 2033 requires the court to focus its
analysis on what was “beneficially owned by the
decedent at the time of his death,” 26 C.F.R. 20.2033-1,
rather than on the interests owned by the beneficiaries
immediately after decedent’s death, which it did at the
October 1, 2014 hearing. Accordingly, based on the
foregoing standard and to prevent clear error, the court
proceeds to reconsider whether the Trust assets were
included in Decedent’s gross estate under 26 U.S.C.
§ 2033.

App. 62
B. Decedent Had Full Beneficial Ownership of
All Trust Property During Her Lifetime;
Thus Trust Assets Were Included in Her
Gross Estate Under 26 U.S.C. § 2033
The court’s focus during the October 1, 2014 oral
argument for summary judgment on this issue was on
how it should interpret the meaning of the term
“transfer” for purposes of these estate tax statutes.
(Hr’g Tr. dated Oct. 1, 2014 4; Dkt. No. 113.) While the
court’s analysis still revolves around the meaning of
that term, the court erred by not also keeping in mind
the overall estate tax statutory scheme. Upon
reconsideration, the court finds that an evaluation of
estate tax liability first requires the inclusion in the
gross estate, under section 2033, of “the value of all
property, whether real or personal, tangible or
intangible, and wherever situated, beneficially owned
by the decedent at the time of his death.” 26 C.F.R.
20.2033-1. Other sections then apply to include in the
gross estate certain gifts and/or transferred assets
purportedly given away during decedent’s lifetime
where the decedent retained “strings” of control,
whereas section 2033 “taxes property which has never
really been given away at all.” Estate of Tully v. U.S.,
528 F.2d 1401, 1403 (Ct. Cl. 1976).
Consistent with this statutory structure, the court
must first analyze whether the Trust assets were ever
“given away” such that Decedent lost the beneficial
ownership of them during her lifetime, or in other
words, whether a “transfer” for purposes of sections
2036 and 2038 did or did not occur prior to Decedent’s
death. To do so, the court considers first the “legal

App. 63
interests and rights created [by the Trust] under [s]tate
law,” and then decides “whether the interests and
rights so created are sufficient to justify including the
property in the gross estate” under section 2033. Estate
of Watson v. Comm’r, 94 T.C. 262, 270-71 (1990). Under
Utah law, “[a] trust is a form of ownership in which the
legal title to property is vested in a trustee.” Flake v.
Flake (In re Estate of Flake), 2003 UT 17 ¶ 12, 71 P.3d
589. Trust creation also requires a settler’s intent “to
confer a beneficial interest in the property in some
other person,” id. at ¶ 11, although those beneficial
interests can take effect via inter vivos or testamentary
transfers. Thus, under the proper temporal analysis, a
revocable grantor trust can potentially be included or
not in a decedent’s gross estate under section 2033,
depending on its terms.6
Here, the grantor of the Trust was the Decedent.
(Dkt. No. 86-2 ¶ 1.) The Decedent was also the sole
trustee of the Trust before her death, having previously
exercised her right to revoke prior trust agreements
that named co-trustees. (Id.) The Decedent, as grantor,
had unlimited power to revoke, modify, alter, or amend

6

Merely reporting the Trust’s assets on Schedule G of the Estate
tax return is insufficient to cause the inclusion of Trust assets in
the gross estate under sections 2035, 2036, 2037, or 2038,
notwithstanding that Schedule G appears to assume it. IRS
instructions require assets to be listed on Schedule G if a decedent
created any trusts during his or her lifetime. (Def.’s Mot. Summ.
J. 39-42, Dkt. No. 86.) Nor is the court willing to decide questions
of trustee liability under section 6324 based on the correctness of
a taxpayer’s preparation of a form rather than on proper
application of the code sections themselves.

App. 64
the Trust at any time.7 (Id. at 11 ¶ 12.) It is undisputed
that during the Decedent’s lifetime, she did not resign
as trustee or become incapacitated such that a
successor trustee served in her place. The income and
principal of the Trust could be withdrawn without
restriction by the Decedent only, as grantor, during her
lifetime.8 (Id. ¶ 5A.) Only upon the grantor’s death
were the Trust assets to be distributed for the payment
of expenses and debts and for distribution to the
various beneficiaries of the Trust. (Id. ¶ 5B.)
Defendants do not dispute that Decedent’s creation
of the Trust changed the legal title of the Trust assets
from ownership by Decedent personally to ownership
by Decedent as the trustee of the Trust. While that is

7

While Decedent’s power to “alter, amend, revoke, or terminate”
the Trust tracks the plain language of section 2038, it is not proper
to conflate the plain language with the required initial analysis of
beneficial ownership under section 2033. Section 2038 interests
require that the benefits—not just the legal title—first be given
away subject to these retained powers. Section 2033, on the other
hand, is the provision by which the government “taxes property
over which the owner has kept so much control that he has never
really transferred it.” Tully, 528 F.2d. at 1405, n. 11. Without a
valid transfer, property never leaves the section 2033 gross estate.
Were it otherwise, the plain language of section 2038 would
swallow section 2033 in contravention of the estate tax structure.
8

The court is not persuaded by the government’s argument that
the Decedent’s withdrawals were limited by her fiduciary duties as
trustee because, as defendants point out, “a self-imposed duty to
hold and manage assets for your own benefit is no duty at all.”
(Def.’s Combined Opp’n Mem. 25, Dkt. No. 97.) As a result, her
fiduciary duties as trustee did not result in an inter vivos transfer
that would take Trust assets out of Decedent’s section 2033 gross
estate.

App. 65
true, the beneficial ownership of the Trust assets never
changed during Decedent’s lifetime. “Actual command
over the property taxed,” as opposed to mere
“refinements of title” are key to questions of “the actual
benefit for which the [estate] tax is paid.” Burnet v.
Guggenheim, 288 U.S. 280, 283 (1933). Here, not only
did the transfer of title to the Decedent as trustee not
change Decedent’s beneficial ownership of the Trust
assets during her lifetime, but the beneficiaries of the
Trust merely had a “hope and expectation” of inheriting
a beneficial interest in the Trust assets, rather than
any actual ownership interests during Decedent’s
lifetime.9 See Estate of Spruill v. Comm’r, 88 T.C. 1197,
1222 (T.C. 1987). The government’s argument focused
heavily on the Trust’s testamentary transfer of assets
to the successor trustees—rather than to Decedent’s
estate—at the moment of death, claiming that “[t]he
language of § 2033 reaches interests in property held
by a decedent at his death (i.e., his estate), not
beforehand.” (Gov. Opp’n Memo 22, Dkt. No. 88.) Upon
reconsideration, however, the court concludes that
unless Decedent transferred beneficial ownership of

9

The court rejects the government’s argument that the
beneficiaries owned “vested interests” in the trust during
Decedent’s lifetime because of a provision relating to the rule
against perpetuities. Similarly, the court does not find a transfer
for purposes of section 2033 because the Trust language provided
that the beneficiaries could designate one or more of their own
heirs to receive Trust assets that a beneficiary would have been
entitled to receive had he or she been alive at Decedent’s death.
None of the beneficiaries exercised this special power of
appointment, and even if they had, their appointee(s) would have
received nothing more than the beneficiaries had, which—during
Decedent’s lifetime—was only an expectancy.

App. 66
Trust assets during her lifetime, how or to whom they
transferred upon her death—no matter how
“instantaneous”—simply plays no part in the section
2033 analysis. (Gov. Reply 4-7, Dkt. No. 98.) See 26
C.F.R. 20.2033-1.
Defendants cite to an IRS Technical Advice
Memorandum and an IRS Revenue Ruling to support
the conclusion that a trust arrangement of this type
does not transfer the beneficial ownership away from
the decedent for purposes of section 2033. In IRS
Technical Advice Memorandum 89-40-003, dated June
30, 1989, the IRS stated:
In the present case, X was directed to invest the
principal deposited by A and distribute income
and corpus as directed by A. At A’s death, any
assets remaining were to be distributed to A’s
personal representative. The trustee’s discretion
was limited to investment decisions. Thus, the
assets held in Trust Arrangement Y were held
solely for the benefit of A during A’s lifetime and
were payable to A’s estate on A’s death. Since
there is no third party involved in the Trust
Arrangement A is properly treated as the owner
of the assets held in the Trust Arrangement at
the time of her death. Accordingly, the assets
held in the Trust Arrangement at the time of A’s
death are properly includible in A’s gross estate
under section 2033 and not section 2038 of the
Code.
I.R.S. Tech. Adv. Mem. 89-40-003 (June 30, 1989)
(emphasis added). (Dkt. No. 86-4.) The focus of this IRS
ruling is not on the fact that technically, a legal

App. 67
transfer of assets to trustee X took place. Instead, the
focus is on the fact that the sole economic and
ownership benefit of these assets during A’s lifetime
was held by A. Compared to this analysis, defendants’
case for inclusion of Trust assets under section 2033 is
even stronger than the taxpayer in the memorandum
because Decedent’s creation of the Trust did not
transfer title to a third party trustee, such as X in the
example above. Instead, it transferred title solely to
herself during her lifetime, in her dual roles as grantor
and trustee.10
Similarly, in IRS Revenue Ruling 75-553, the
decedent created a fully revocable trust during her
lifetime, with trust assets to be distributed to her
estate upon her death. The issue the IRS considered
was whether the bank trustee would be liable under
6324(a)(2) for any unpaid estate taxes. The IRS said
“no” and stated:
Although sections 2036, 2037, and 2038 of the
Code include in a decedent’s gross estate the
value of any interest in property transferred by
the decedent, in trust or otherwise, where a life
estate, reversionary interest, or power to alter,
amend or revoke is retained by the decedent,

10

In the cases cited by the government suggesting that a transfer
for estate tax purposes takes place regardless of the transferee
having dual roles, the court notes that in those cases, the
transferees were not the same persons as the grantors, and the
interpretations of sections 2033 and 2036 were not at issue. See
Bell v. Comm’r, 82 F.2d 499, 500 (3d Cir. 1936); Agnes McCue,
Addressed as the Transferee of the Estate of John J. Nolan v.
Comm’r, 1946 Tax Ct. Memo LEXIS 248, *127-*128 (T.C. 1946).

App. 68
these provisions of the Code do not become
operative unless someone other than the decedent
receives a beneficial interest in the transferred
property. The transfer of property to a trustee
acting as agent for the transferor, without a third
party receiving any interest in the property,
would not fall within the scope of sections 2036,
2037, and 2038. In the instant case the trust
corpus is payable to the decedent’s estate and is
property of the decedent within the meaning of
section 2033 and is includible in the gross estate
only under that section.
Accordingly, the trustee is not subject to
transferee liability for estate tax pursuant to
section 6324(a)(2) of the Code since the corpus of
the trust was not includible in the decedent’s
estate under sections 2036, 2037, or 2038, but
was includible under section 2033 exclusively.
Rev. Ruling 75-553 (emphasis added). Here, again, the
IRS was not focused on the fact of a technical transfer
of title to a bank trustee, but rather on whether
someone other than the decedent received a beneficial
interest in the transferred property during the
decedent’s lifetime. Like the decedent in Revenue
Ruling 75-553, the Decedent here beneficially owned all
of the Trust assets up until the time of her death.
Additionally, the IRS was not focused on the fact that
upon the Revenue Ruling decedent’s death, trust assets
were distributed to his estate, as opposed to a
beneficiary or to a testamentary trust. It is true that
here, Decedent’s Trust arrangement meant that Trust
assets avoided probate and allowed retention of control

App. 69
over a closely held business after Decedent’s death. But
Trust asset passage through probate—or any other
after-death process or event—is not relevant to what
beneficial ownership of the property the Decedent held
during her lifetime. The court finds that these IRS
interpretations of the Code and its regulations are
reasonable and are entitled to “substantial judicial
deference.”11 U.S. v. Cleveland Indians Baseball Co.,
532 U.S. 200, 220 (2001).
The court’s original ruling erred in determining that
the specific language of section 2036 was broad enough
to make Decedent’s creation of the Trust and transfer
of legal title from the Decedent as grantor to the
Decedent as trustee a “transfer” for estate tax
purposes. (Hr’g Tr. dated Oct. 1, 2014 48; Dkt. No.
113.) The court also erred in determining that at the
“instant of death” the beneficiaries had a legally
enforceable interest such that Trust assets were
properly includable in the estate pursuant to section
2036, id. at 48-50, because it was persuaded by the
government’s argument that sections 2036 and 2038

11

Additionally, while the court is persuaded by defendants’
arguments that (1) the determination of what is included in the
gross estate should be harmonized with how that property is
valued under the tax code, and (2) that section 2035 can inform the
court regarding why sections 2036 and 2038 do not apply to the
Trust at issue here, it does not make its ruling on the basis of
those arguments. (Def.’s Mot. to Reconsider 9, 16; Dkt. No. 119.) It
is worth noting, however, that the IRS interpretations above are
consistent with a statutory tax scheme that functions as set forth
by defendants in their motion to reconsider, and that nothing in
the government’s response persuades the court otherwise. (Gov.’s
Opp’n Mem. 8, Dkt. No. 143.)

App. 70
are “transfer provisions” intended to capture “all
incomplete transfers, which includes transfers taking
effect at death via revocable trusts.” (Gov. Reply 6, Dkt.
No. 98.) Upon reconsideration and for the reasons
stated above, the court finds that Trust assets were
never “given away” such that Decedent lost the
beneficial ownership of them during her lifetime, and
thus that there was no transfer—incomplete or
not—for purposes of sections 2036 and 2038 prior to
Decedent’s death. As a result, the court concludes that
Trust assets were included in the gross estate pursuant
to section 2033, which precludes Smith and Johnson’s
liability as trustees for the estate tax under 26 U.S.C.
§ 6324. The court vacates its prior grant of partial
summary judgment to the government as to trustee
liability, (Dkt. No. 108), and grants defendants’ motion
for partial summary judgment on this claim. (Dkt. No.
86.)
3. Second Cross-Motions for Summary Judgment
The remaining claims for which the government
seeks summary judgment are (1) that Smith and
Johnson have fiduciary liability under 31 U.S.C.
§ 3713(b) for the unpaid estate tax in their capacities as
personal representatives of the Estate, or, as
alternatives, (2) that the government as a third party
beneficiary may enforce the Distribution Agreement
against the defendants or (3) that the government may
foreclose its federal tax lien against the Distribution
Agreement. Meanwhile, the defendants have moved for
partial summary judgment on the grounds that Smith
and Johnson were discharged from personal fiduciary
liability for any unpaid estate tax under section 3713(b)

App. 71
because they furnished a section 6324A special lien
agreement sufficient to pay the deferred taxes. The
court begins with the legal standard for summary
judgment.
A. Summary Judgment Legal Standard
Rule 56 of the Federal Rules of Civil Procedure
governs the standard for summary judgment. Under
Rule 56(c), the court should grant summary judgment
“if the pleadings, depositions, answers to
interrogatories, and admissions on file, together with
the declarations, if any, show that there is no genuine
issue as to any material fact and that the moving party
is entitled to a judgment as a matter of law.” Smith v.
Midland Brake, Inc., 180 F.3d 1154, 1160 (10th Cir.
1999). “One of the purposes of a motion for summary
judgment is to pierce the pleadings and to assess the
proof in order to ascertain whether there exists a
genuine need for trial.” Metro Oil Co. v. Sun Refining
& Marketing Co., 936 F.2d 501, 504 (10th Cir. 1991).
“Once the moving party has properly supported its
motion for summary judgment, the burden shifts to the
nonmoving party to go beyond the pleadings and set
forth specific facts showing that there is a genuine
issue for trial.” Sally Beauty Co., Inc. v. Beautyco, Inc.,
304 F.3d 964, 971 (10th Cir. 2002). “An issue is genuine
if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Id. at 972
(internal punctuation omitted). If a reasonable jury
could not return a verdict for the nonmoving party,
summary judgment is appropriate. See MacPherson v.
Brinecell, 98 F.3d 1241, 1246 (10th Cir. 1996).

App. 72
B. Defendants Smith and Johnson Furnished
a Valid Section 6324A Special Lien That
Discharged Their Personal Liability under
Section 2204 and Precludes Section 3713
Personal Liability
Having determined that defendants Smith and
Johnson are not personally liable for the unpaid estate
taxes in their capacities as trustees of the Estate, the
court next turns to the question of whether Smith and
Johnson are personally liable for the unpaid estate
taxes in their capacities as personal representatives of
the Estate. Because the government’s claim for section
3713 liability will be rendered moot if the court
determines that Smith and Johnson’s personal liability
was discharged under section 2204 as a result of
furnishing a valid section 6324A special lien, the court
begins with the requirements for discharge under
section 2204 and then considers the question of
whether defendants furnished a valid special lien
under section 6324A.
i. Defendants
Made
an
Effective
Application for Discharge Under 26
U.S.C. § 2204
The general rule that allows fiduciaries such as
executors or personal representatives of an estate to be
discharged from personal liability for unpaid federal
estate tax is that the fiduciary either pays the estate
tax owed as determined and notified by the IRS, or, in
the case of assessed tax payments deferred under
section 6166, by “furnishing any bond which may be
required for any amount for which time for payment is
extended.” 26 U.S.C. § 2204(a). The IRS regulation goes

App. 73
on to clarify that furnishing a bond for purposes of this
section is met by furnishing a valid special lien
agreement under 26 U.S.C. § 6324A.12 Smith and
Johnson argue that they furnished a valid special lien
agreement to the IRS under 26 U.S.C. § 6324A;
therefore, whether or not the IRS formally
acknowledged or provided receipt stating their personal
liability was discharged, their personal liability for the
Estate’s federal tax was nevertheless discharged as a
matter of law. (Def.’s 2nd Mot. Summ. J., Dkt. No.
122.) The government argues that discharge under 26
U.S.C. § 2204(a) requires, as a prerequisite, a written
application for discharge, which it claims the
defendants failed to provide. (Gov.’s Opp’n, Dkt. No.
135.)
Notwithstanding the government’s insistence that
a written application is required for discharge, it has
entirely failed to demonstrate that section 2204 or any
applicable authorities or regulations require a specific
format, form, or wording to make an application for
discharge. While section 2204 provides that a taxpayer
may make a “written application . . . for determination
of the amount of the tax and discharge from personal
liability therefor,” the government has only identified
that the application should be made to “the applicable

12

Specifically, 26 U.S.C. § 2204(c) provides that:
[An] agreement which meets the requirements of section
6324A [26 USCS § 6324A] (relating to special lien for estate
tax deferred under section 6166 [26 USCS § 6166] shall be
treated as the furnishing of a bond with respect to the amount
for which the time for payment has been extended under
section 6166 [26 USCS § 6166].

App. 74
internal revenue officer with whom the estate tax
return is required to be filed.” 26 C.F.R. § 20-2204-1.
The purpose of the application, according to the text of
the statute and regulations, is for the government to
provide the fiduciary with a determination of the
amount owed. See id.; 26 U.S.C. § 2204(a). Discharge,
however, is conditioned only on payment of the amount
owed or the furnishing of an appropriate lien or bond.
Id.
In this case, as a result of the prior tax court
proceeding about the value of the Hotel shares and the
second tax assessment in 1996 based on that
settlement, both parties were already fully aware of the
amount of the tax owed by the Estate in August 1997
when the defendants furnished their special lien. There
is no dispute on that point. The court is not persuaded
that a separate written application is a substantive
requirement of section 2204 because it appears that its
essential purposes are fulfilled not by a written
application but by the payment of the tax assessed or
the furnishing of an appropriate bond. See Baccei v.
United States, 632 F.3d 1140, 1145 (9th Cir. 2011)
(“Substantial compliance with regulatory requirements
may suffice when such requirements are procedural
and when the essential statutory purposes have been
fulfilled.”) (internal punctuation omitted). Because a
separate written application is not a substantive
prerequisite, the court concludes that if the defendants
furnished a valid special lien under section 6324A, as
a matter of law their personal liability as fiduciaries
was discharged.

App. 75
Even if the court is incorrect and section 2204
requires a written application as a prerequisite to
discharge, the court finds that the written
communication between defendants and the
government leading up to defendants furnishing the
special lien agreement constitutes a written application
pursuant to section 2204. The government initiated
this communication. The first sentence of Ms. Girard’s
May 27, 1997 letter states that “The purpose of this
letter is to inform you of an alternative to your
continued personal liability for the unpaid estate tax of
the Estate of Hazel Anna S. Smith that was deferred
under 26 U.S.C. Section 6166.” (Ltr. from Ms. Girard to
Johnson dated May 27, 1997; Dkt. No. 122-2.) The
government claims that the letter was sent to protect
its interest in the deferred tax payments, and it is true
that later in the first paragraph, the letter states that
“This letter is being sent at this time because the
government’s interest must be adequately protected
during the remaining period of your Section 6166
installment election.” (Id.) Having so stated, however,
the letter goes on to state that “In order to insure
protection of the government’s interest and to
terminate your personal liability, you as personal
representative of the estate may elect . . . [among other
things] to furnish a Special Lien for Estate Tax
Deferred Under Section 6166, as described in 26 U.S.C.
Section 6324A.” (Id.) (Emphasis added.) The next two
paragraphs of the letter go on to describe in detail the
requirements for electing a special lien, something the
agent does not do with respect to the other options she
suggested. The letter also specifically states that “We
have attached information to assist you in completion
of the application to elect the special lien.” (Id.)

App. 76
(Emphasis added.) The information attached to the
letter was an agreement form for the Agreement to
Special Lien under IRC 6324A, which the defendants
completed and submitted prior to the IRS’s deadline.
These facts are undisputed. In light of them, along
with the government’s failure to identify any other
form, method, procedure, or policy by which a “written
application” is otherwise properly made (assuming that
a written application is a prerequisite), the court
concludes in the alternative that Smith and Johnson
properly made a written application for discharge
under section 2204 when they timely followed the
directions provided to them by the IRS, who
demonstrably understood that it was offering
defendants a discharge of personal fiduciary liability,
even if in so doing it did not explicitly reference section
2204.13 Having thus concluded that the parties
understood that an application for discharge was both
suggested by the IRS and made by the defendants, the
court next evaluates whether defendants made a valid
special lien election.

13

Section 2204 also provides a special rule in the case of estate tax
deferred under section 6166, namely, that the government may
provide the personal representative or executor a statement of the
bond (or lien) required “to be furnished within 9 months after
receipt of the application,” but “if no notification is received, the
executor is discharged at the end of such 9 month period from
personal liability for the tax the payment of which has been
extended.” 26 CFR § 20.2204-1. It is undisputed here that the
government did not provide any notice of any additional lien or
bond amount it required at any time following receipt of
defendants’ special lien agreement.

App. 77
ii. Defendants Smith and Johnson
Furnished a Valid Section 6324 Special
Lien
When a personal representative elects to defer
estate tax payments under 26 U.S.C. § 6166, he or she
can furnish a special lien on certain property in favor
of the United States. If the three requirements for a
valid special lien under 26 U.S.C. § 6324A are met, the
IRS must accept the special lien in lieu of a general lien
under section 6324, 26 U.S.C. § 6324A(d)(4), and “the
deferred amount . . . shall be a lien in favor of the
United States on the section 6166 lien property.” 26
U.S.C. § 6324A(a).
The first requirement to furnish a lien under section
6324A is for the personal representative to make an
election. The Code of Federal Regulations states that
“the election is made by applying to the Internal
Revenue Service office where the estate tax is filed”
before the tax and interest are paid in full. 26 CFR
§ 301.6324A-1(a). The government does not dispute
that the timeliness requirement was met here. The
regulations go on to state that the “application is to be
a notice of election requesting the special lien . . . and
is to be accompanied by the [Agreement to lien].” Id.
The government has also not disputed that defendants
made a notice of election requesting the special lien
and that it was accompanied by the lien agreement
document. Accordingly, this requirement was met.
The second requirement to furnish a lien under
section 6324A is for the personal representative to file
a proper agreement that contains (1) signatures by all
parties having an interest in the property consenting to

App. 78
the lien, (2) decedent’s name and Social Security
number, (3) the amount of the lien, (4) the fair market
value of the property subject to the lien on the date of
decedent’s death as well as on the date of the election,
(5) the amount of encumbrances to the property on both
dates, as above, (6) a clear description of the property
subject to the lien, and (7) designation of an agent for
the beneficiaries of the estate and parties consenting to
the lien for all dealings with the IRS. 26 CFR
§ 301.6324A-1(b). It is undisputed that the Agreement
to Special Lien Under IRC Section 6324A filed by the
defendants in August 1997 met the above
requirements. Although the government implies that
the subsequent encumbrance of the Hotel stock in 1999
or 2000 creates a dispute that the defendants did not
treat the stock as if was subject to a special lien, this is
not a genuine dispute of material fact for two reasons.
First, at the time the agreement was submitted to the
IRS, defendants correctly noted that the stock was
unencumbered. It only became encumbered several
years after the agreement was filed. Second, special
lien property is not required to start out as or remain
unencumbered under section 6324A; in fact, section
6324A(b)(2)(B) anticipates that the initial valuation of
lien property should take into account any
encumbrances, and section 6324A(d)(3) provides
instructions as to the priorities of security interests.
Furthermore, the statute allows the IRS to accelerate
the deferred payments if at any time it determines the
value of the special lien property is not adequate. 26
U.S.C. § 6324A(d)(5). As a result, the fact that
defendants subsequently used the Hotel stock as
collateral does not invalidate the previous creation of a
proper lien and the second requirement has been met.

App. 79
The third and final requirement to furnish a lien
under section 6324A is that the section 6166 lien
property (i.e. the collateral) must satisfy the
requirements of the statute. The statute requires the
lien property to be an interest “in real and other
property to the extent such interests can be expected to
survive the deferral period, and are designated in the
agreement.” 26 U.S.C. § 6324A(b)(1). And, although the
IRS cannot require the lien property to have more than
a maximum value consisting of the deferred tax
amount plus the required interest, the statute does not
require the lien property to have a minimum value to
create a special lien in the property. Id. at (b)(2). While
the government does not dispute that the Hotel stock
was properly designated in the agreement, it disputes
whether the stock was expected to survive the deferral
period and whether its value was sufficient. The court
does not find that either claim is a genuine dispute of
material fact and addresses them separately below.
(a)

Survival

The government disputes the Report of Jeffrey S.
Pickett, defendants’ expert, as to the history of the
business and its claim that the Hotel had been in
operation for decades without interruption or financial
stress, which supports the survivability of its stock.
(Gov.’s Opp’n 9, Dkt. No. 135.) The government also
claims that the internal memorandum statement of its
agent, Ms. Girard, that “I have analyzed the security
and feel a lien under IRC 6324A against the stock will
adequately secure the liability for the remainder of
the IRC 6166 election” is not binding on the

App. 80
government. (IRS Memo. dated Aug. 21, 1997; Dkt. No.
122-2, p. 13.) (Emphasis added.)
With respect to defendants’ expert report, the court
reiterates that while it is defendants’ burden to come
forth with evidence to support its motion for summary
judgment, once they have done so, the burden shifts to
the government to “set forth specific facts showing that
there is a genuine issue for trial.” Sally Beauty Co., 304
F.3d at 971. After the court granted defendants’ motion
to submit its expert’s report, it authorized the
government to submit its own expert report. The
government’s expert report does not set forth any
specific facts suggesting that the Hotel’s financial
stability or history were not as represented. (Expert
Review Report of Don M. Drysdale, Dkt. No. 176-1.) In
fact, the report states only that Mr. Pickett’s report
should have included additional information about
facilities, organizational structure, management team,
classes of equity interests and rights attached thereto,
products or services offered, and strategy and future
plans to assist the government in assessing risk. (Id. at
11-13.) The government argues that a jury could infer
from its expert’s report that the defendants failed to
meet their burden to come forth with evidence
supporting the survivability of the lien property. The
court disagrees. Without specific facts showing a
genuine dispute as to the parties’ expectations about
the survivability of the Hotel stock, it is the
government who has failed to meet its burden.14

14

Furthermore, as to survivability, the IRS Office of Chief Counsel
has provided internal guidance that although

App. 81
Perhaps more importantly, however, Ms. Girard’s
statement constitutes a party admission by the
government that it had, in fact, evaluated the
survivability of the Hotel stock for the duration of the
deferral and found it to be adequate at the time it was
offered. The government argues that an IRS agent’s
statement cannot bind the agency and for support
refers the court to Sidell v. Comm’r, 225 F.3d 103, 111
(1st Cir. 2000); Connecticut Gen. Life Ins. Co. v.
Comm’r, 177 F.3d 136, 145 (3d Cir. 1999); Armco, Inc.
v. Comm’r, 87 T.C. 865, 867 (T.C. 1986); and
Honeywell, Inc. v. United States, 661 F.2d 182, 185-86
(Ct. Cl. 1981). These cases, however, reference
individual agent views about or interpretations of IRS
regulations and policies. As a result, they do not apply
here to Ms. Girard’s statement about her factual
“[t]here is a risk that the Service may err in its conclusion
[about the survivability of closely held stock] . . . Congress
intended that the Service bear such a risk. Comm. on Ways
and Means, 94th Cong., Background Materials on Federal
Estate and Gift Taxation 302, (Comm. Print 1969) (“[t]he
Government will not only permit the deferral of taxes, but will
bear part of the risk that the illiquid asset may decline in
value during the deferral period”). If Congress had intended
that the Service be assured payment, Congress would have
required that a bond be provided to the Service for deferred
estate taxes.
IRS CCA 200747019 (IRS 2007). (Dkt. No. 122-1, p. 21.) Although
letter rulings and memoranda such as this are not precedent,
courts commonly rely on such statements because they “reveal the
interpretation put upon the statute by the agency charged with the
responsibility of administering the revenue laws.” Estate of Roski
v. Comm’r, 128 T.C. 113, 120 (T.C. 2007); Thurman v. Comm’r,
T.C. Memo 1998-233 (T.C. 1998); Hanover Bank v. Comm’r, 369
U.S. 672, 686 (1962).

App. 82
evaluation that the Hotel stock would survive the
deferral period, which is neither a regulation nor a
policy. As a result, Ms. Girard’s admission persuades
the court that there is no genuine dispute of fact that
defendants met the survivability requirement for a
special lien.
(b)

Value

Although the parties’ biggest apparent dispute
about the special lien requirements is whether the
value of the Hotel stock was sufficient, the court finds
this dispute to be nonmaterial. First, section 6324A
does not require a minimum value to be met for a
special lien to arise. Taxpayer election of lien property
expected to survive the deferral period and designated
in an appropriate agreement “shall be a lien in favor of
the United States on the section 6166 property.” 26
U.S.C. § 6324A(a) (emphasis added). Thus, the
government’s contention that it properly rejected the
lien property because of “uncertain market value” is
not well taken. If the value of lien property is too low,
is does not mean that the special lien did not arise, it
just means that the government is under-secured. The
government’s remedy for insufficient value to secure
deferred tax obligations is to accept a bond in the
amount of the shortfall, 26 U.S.C. § 6324A(b)(3), or to
require the addition of property to the special lien
agreement. 26 U.S.C. § 6324A(d)(5). It is undisputed
that rather than making such specific requests, the
government instead purported to reject the Hotel stock
as collateral. But, because section 6324A is a taxpayer
election, nothing in the statute authorizes the
government to reject the election. It must be consented

App. 83
to not by the government, but by “all parties having
any interest on the property” that creates the lien, as
it was here. 26 CFR § 301.6324A-1(b).
Furthermore, the court is not persuaded that the
government’s attempt to reject the stock was based on
consideration of its value as opposed to consideration of
its nature. As explained above, Ms. Girard’s letters and
memoranda constitute party admissions. Ms. Girard’s
rejection letter dated November 6, 1997 states “Thank
you for the information you provided. As I stated, this
District has not accepted closely held stock as security
for the remainder of IRC 6166 elections.” (Dkt. No. 1222, p. 15.) After informing defendants that she had
sought guidance from District Counsel, Ms. Girard
went on to state that “They have advised our office that
closely held stock should not be accepted as collateral
by the Internal Revenue Service because the IRS can
not sell stock at a public auction as it violates securities
regulations.” (Id.) A review of Ms. Girard’s internal
memorandum seeking guidance from District Counsel
shows that she reported that “The four Smith children
are offering 4,768 shares of stock giving the security
pledged a value of $6,092,578” for an unpaid
assessment of $1,889,970 and an amount of security
required of $2,192,365.20. (Id.) She then stated that “I
have analyzed the security and feel a lien under IRC
6324A against the stock will adequately secure
the liability for the remainder of the IRC 6166
election.” (Emphasis added.) Ms. Girard then went on
to state that “The District does not have any IRC
6324A liens against stock” and asked for guidance
regarding security consisting of stock in a closely held
corporation. (Id.) Ms. Girard’s concern, then, was not

App. 84
value, as she appeared to find it adequate, but rather
the nature of the property.15
Nothing about the nature of closely held businesses
permits rejection of the security by the IRS. The IRS
has previously accepted special liens under section
6324A in closely held businesses. IRS v. Skiba (In re
Roth), 301 B.R. 451 (W.D. Pa. 2003) (286 shares in
closely held car dealership); Center Heights Lumber Co.
v. United States, 1999 U.S. Dist. LEXIS 7495 (S.D. Ind.
1999) (1995 creation of 6324A lien on closely held
stock). Nothing in the plain language of section 6324A
provides a mechanism for the IRS to reject the section
6166 collateral if it meets the requirements of the
statute. Furthermore, the title of section 6166
specifically contemplates acceptance of liens in closely
held businesses: “Extension of time for payment of
estate tax where estate consists largely of interest in
closely held business.” Case law discussing the purpose
of section 6166 suggests that the government’s
argument that it cannot (or should not) accept stock in
closely held businesses for special liens to secure taxes
deferred under section 6166 is unsupported. Roski, 128
T.C. at 129-130 (stating that section 6166 was enacted
because existing law was “inadequate to deal with the

15

The government also argues that Ms. Girard’s follow-up letter
dated January 20, 1998 is a discussion about the IRS’s concerns
about the fair market value of the closely held stock as opposed to
a discussion of its nature. Even if the government is correct, a
special lien in the Hotel stock offered by defendants’ agreement
still arose, and could not be rejected because the government failed
in its obligation to value the stock at the time of the election and
make a request for a specific amount of additional property or bond
it believed it required as security.

App. 85
liquidity problems experienced by estates in which a
substantial portion of the assets consist of a closely
held business.”); Estate of Bell v. Comm’r, 928 F.2d 901,
902 (9th Cir. 1991) (“The purpose of section 6166 is to
prevent the forced liquidation of closely held businesses
because substantial estate taxes must be paid.”). And,
according to IRS Chief Counsel, the IRS must accept
the collateral if it meets the requirements and has no
authority to reject it because it prefers alternative
collateral.16 IRS CCA 2008030016 (IRS 2007). (Dkt. No.
122-1, p. 32.)
To the extent that the government’s argument
about the stock’s value is not that the special lien did
not arise, but rather that the discharge under section
2204 would not have automatically occurred had the
lien been insufficient to cover the unpaid tax and
interest, the court refers again to the applicable burden
of proof. Defendants have presented evidence that at

16

Specifically, the memorandum states:
If the three requirements under I.R.C. § 6324A are met, the
I.R.C. § 6324A special lien arises and the collateral must be
accepted by the Service. The Service does not have the
authority to reject collateral proffered by the Estate on the
grounds that it would be burdensome for the Service to
determine the value. Nor does the Service have the authority to
reject collateral proffered by the Estate because the Service
would prefer other collateral. Congress gave the Service a very
limited role in the creation of the I.R.C. § 6324A special lien:
the Service determines whether the statutory requirements
have been met. If the statutory requirements have been met, the
special estate tax lien arises under the statute and the Service
must accept the Interest.

IRS CCA 2008030016 (IRS 2007). (Emphases added.)

App. 86
the time they applied for the special lien, the value of
the offered stock was nearly triple the amount of
unpaid tax and interest.17 (Agreement to Special Lien
Under IRC Section 6324A, Dkt. 122-2, p. 9.)
Defendants have also presented Ms. Girard’s party
admission that the stock would “adequately secure the
liability.”18 (Dkt. No. 122-2, p. 15.) In addition to this,
the defendants have presented evidence from their
expert witness that on the two relevant dates, the stock
pledged as collateral was worth $4,710,000 as of June
2, 1992 and $5,800,000 at the time of the furnishing of
the Special Lien Agreement on August 4, 1997. (See
Dkt. No. 122 ¶ 18, pp. 10, 22; and Pickett Report (Ex.
10 thereto) at 032-038.) In response to this evidence,
the government’s expert, Mr. Drysdale, has only opined
that Mr. Pickett overvalued the Hotel stock, but he has
failed to provide his own valuation. Just as with the
government’s argument about survivability, the
government argues that a jury could infer from Mr.
Drysdale’s report that the defendants failed to meet
their burden to come forth with evidence supporting

17

The $1,273 value per share was based upon the settlement
reached with the IRS in the tax court case in 1996.
18

While Ms. Girard’s January 20, 1998 letter subsequently raised
questions about whether this value for purposes of the estate tax
assessment was the appropriate value for security purposes, it
never actually valued the stock. (Ltr. from Ms. Girard dated Jan.
20, 1998; Dkt. No. 122-2, pp. 19-20.) The IRS is the party with the
duty to value the stock if it disagreed with defendants’ valuation,
and it failed to perform this duty. Neither is the court persuaded
by the government’s argument now that Ms. Girard’s subsequent
letter represents that she believed the stock had no value, or at
least a value less than the amount of tax and interest owed.

App. 87
the sufficiency of the value of the lien property. The
court disagrees. Without specific contrary facts from
which a jury could find that the stock value was less
than the amount owed—and not just lower than Mr.
Pickett’s valuation—it is again the government who
has failed to meet its burden to rebut the defendants’
evidence. MacPherson, 98 F.3d at 1245 (“[M]ore than a
mere “scintilla” of evidence is needed to create a
genuine issue of material fact.”).
For the foregoing reasons, the court finds that the
three requirements for a valid special lien are met
under 26 U.S.C. § 6324A. Therefore, the IRS had no
discretion to reject the special lien, and that lien
constitutes the bond required pursuant to the
discharge statute. 26 U.S.C. § 2204. Consequently,
Johnson and Smith’s fiduciary liability as personal
representatives of the Estate for the unpaid estate tax
was discharged as a matter of law and the
government’s claim for fiduciary liability under 31
U.S.C. § 3713(b) is moot.
4. Statute of Limitations Expired on Contract
Enforcement Claim
The court now turns to the government’s claim
seeking to enforce the terms of the Distribution
Agreement against the defendants, which was raised
for the first time in the government’s Amended
Complaint filed July 31, 2013.19 (Am. Compl. 12, Dkt.
No. 77.) The government claims that the December 31,
1992 agreement between Smith and Johnson in their
19

In the Amended Complaint, the contract enforcement claim is
the government’s fourth cause of action. (Dkt. No. 77.)

App. 88
capacities as trustees of the Trust and personal
representatives of the Estate and the four defendant
beneficiaries is a contract to which they are third party
beneficiaries. The government seeks one quarter of the
unpaid estate tax and interest due from each
beneficiary as a result of this language in the contract:
A portion of the total federal estate tax upon the
Estate of Anna Smith is being deferred and is
the equal obligation of the BENEFICIARIES to
pay as THE SAME becomes due. Likewise, if,
upon audit, additional federal estate taxes . . .
are found to be owing, the responsibility for any
such additional taxes, interest or penalties will
be borne equally by the BENEFICIARIES.20
(Agreement ¶ 6, p. 2; Dkt. No. 32-8.)
Defendants do not dispute that the Distribution
Agreement is a contract and that the government is a
third party beneficiary with rights under the
agreement. Defendants argue, instead, that the
government’s rights are time barred due to the
applicable six year state statute of limitations on
contract claims. Utah Code. Ann. § 78B-2-309(2). The
“statute of limitations ordinarily begins to run when
the breach occurs.” Butcher v. Gilroy, 744 P.2d 311, 313
(Utah Ct. App. 1987). When a party refuses to perform
under a contract, the limitation period begins to run.
See S&G Inc. v. Intermountain Power Agency, 913 P.2d
20

Because the deceased beneficiaries have been dismissed from
this case, at best the government’s claim is for one quarter of the
unpaid estate tax and interest due each from Smith and Johnson
as the surviving beneficiary parties to the contract.

App. 89
735, 740-41 (Utah 1996). The facts are undisputed. The
deferred tax owing as a result of the section 6166
election was about $1.5 million, interest payments on
which were paid until the Hotel’s bankruptcy
proceedings in 2002. At that time, Smith and Johnson
requested a one year extension to pay the next estate
tax installment due. When no payments were made
thereafter, the IRS sent delinquent billing notices
dated August 28 and December 2, 2003, the latter of
which demanded payment by December 15, 2003 and
stated that if payment was not received, “the whole
balance of the account will be due immediately.” It is
undisputed that no payments were made and that the
section 6166 payment extension defaulted as of
December 15, 2003. When the beneficiaries failed to
pay their respective shares of the tax due as of that
date, each of them breached the Distribution
Agreement. This breach, according to the defendants,
initiated the running of the state statute of limitations
for contracts that expired six years later on December
15, 2009. It is also undisputed, the court notes, that the
IRS did not become fully aware of the Distribution
Agreement and its terms until June 2005, when
counsel for defendants sent a copy to the IRS. Even if
the court uses June 2005 as the date triggering the
running of the statute of limitations, without deciding
that it must, it had expired no later than June 2011,
which is two years prior to the government filing its
Amended Complaint containing the breach of contract
claims.
For its part, the government claims that the
applicable statute of limitations is not the state statute
of limitations for contracts, but the federal statute of

App. 90
limitations on collections of tax assessments pursuant
to 26 U.S.C. § 6502.21 (United States’ Reply Mem. 18,
Dkt. No. 146.) (“When the United States uses a state
law remedy to collect taxes, its ability to do so is not
governed or shortened by state procedural rules or
state law limitations. Instead § 6502 of the Internal
Revenue Code and any applicable federal extensions
control limitations.”) Upon review of the relevant case

21

Section 6502(a) provides the following limitations period as to
collections after assessment of tax:
(a) Length of period. Where the assessment of any tax
imposed by this title has been made within the period of
limitation properly applicable thereto, such tax may be
collected by levy or by a proceeding in court, but only if the
levy is made or the proceeding begun—
(1) Within 10 years after the assessment of the tax, or
(2) if
(A) There is an installment agreement between
the taxpayer and the Secretary, prior to the
date which is 90 days after the expiration of
any period for collection agreed upon in
writing by the Secretary and the taxpayer at
the time the installment agreement was
entered into; or
(B) There is a release of levy under section 6343
after such 10-year period, prior to the
expiration of any period for collection agreed
upon in writing by the Secretary and the
taxpayer before such release.
If a timely proceeding in court for the collection of a tax is
commenced, the period during which such tax may be
collected by levy shall be extended and shall not expire
until the liability for the tax (or a judgment against the
taxpayer arising from such liability) is satisfied or becomes
unenforceable.

App. 91
law, the court concludes that the government is
incorrect on the facts of this case.
The government points the court to U.S. v.
Summerlin, a 1940 case where the United States was
the assignee of a creditor’s claim against the estate of
a decedent. 310 U.S. 414 (1940). In Summerlin, the
Supreme Court reversed a determination that a Florida
state statute of limitations applied when the United
States, acting in its governmental capacity, becomes
entitled to a claim and asserts its claim in that right.
Id. at 417. To foreclose any argument that § 6502(a) is
not the relevant statute of limitations here, the
government cites U.S. v. Galletti for the proposition
that “the limitations period resulting from a proper
assessment governs the extent of time for the
enforcement of the tax liability.” 541 U.S. 114, 123
(2004) (internal punctuation omitted) (citing U.S. v.
Updike, 281 U.S. 489 (1930)). The Tenth Circuit
followed these precedents in a case where the
government sought to collect a tax assessment against
the sole shareholder distributee of a now-defunct
corporation taxpayer in U.S. v. Holmes, 727 F.3d 1230
(10th Cir. 2013). The shareholder defended on the basis
of a Colorado state statute of limitations for collections
by creditors of a dissolved partnership. Id. at 1232. The
Tenth Circuit stated that determining “[w]hether in
general a state-law action brought by the United States
is subject to a federal or state statute of limitations is
a difficult question,” but that in Holmes,
notwithstanding that the government was “invoking a
provision of state law” to hold the shareholder
accountable for the liability of the taxpayer
corporation, the reality was that “the present suit,

App. 92
though not against the corporation but against its
transferee to subject assets in his hands to the
payment of the tax, is in every real sense a proceeding
in court to collect a tax.” Id. at 1235. As a result, the
Tenth Circuit determined that federal law, not the
state statute of limitations, governed the time limit on
collections enforcement. Id.
The court also located a 1965 Sixth Circuit case that
appears to have applied Summerlin in circumstances
factually similar to those at issue here. In U.S. v.
Parker House Sausage Co., 344 F.2d 787 (1965),
defendant Parker House entered into a sales contract
to purchase real estate subject to a tax lien for the
seller’s withholding taxes. The contract provided that
the purchaser would assume and pay the tax liabilities.
The government filed suit for payment of the tax as a
third party beneficiary of the sales contract requiring
Parker House as purchaser to pay the liability.
Defendants pled the Michigan six-year statute of
limitations for contracts as a defense, claiming that the
government’s action did not seek to enforce a tax
liability against it (as it was not the taxpayer), but was
instead a civil action for breach of contract and thus
subject to the state statute of limitations. Without
analysis, but citing to Summerlin, the Sixth Circuit
rejected the defense and stated that “[t]he United
States is not barred in an action brought to enforce its
claim by a state statute of limitations.” Id. at 788.
Based on a subsequent U.S. Supreme Court ruling,
however, the court concludes that Parker House was
decided incorrectly. In U.S. v. California, 507 U.S. 746
(1993), the Supreme Court indicated that a more robust

App. 93
analysis of the cause of action under which the
government is proceeding is required before simply
relying on the general assertion in Summerlin and
related cases that the government is not bound by state
statutes of limitations. U.S. v. California involved the
government’s attempt to recover taxes it paid that it
alleges were wrongfully assessed against one of its
private contractors under California law. The initial
cause of action it asserted was a federal common law
cause of action for “money had and received,” an
implied-in-law contract. Id. at 749. The Supreme Court
first determined that the government did not have a
federal cause of action for an implied contract because
its position in the proceeding was essentially that of a
subrogor of the private contractor’s claims against
California. Id. at 756. The private contractor’s rights as
subrogee had lapsed under the state statute of
limitations and its claims were barred; thus, under
traditional subrogation principles, the United States’
claims would also be time barred. Id. The government
argued that its claims were not limited by the state’s
statute of limitations on the basis, among other cases,
of Summerlin’s statement that “[w]hen the United
States becomes entitled to a claim, acting in its
governmental capacity, and asserts its claim in that
right, it cannot be deemed to have abdicated its
governmental authority so as to become subject to a
state statute putting a time limit upon enforcement.”
Summerlin, supra, at 417. The Supreme Court
disagreed. It proceeded to distinguish Summerlin and
the other cases relied on by the government on the
basis that, first, in those cases the rights upon which
the government were proceeding were “obtained by the
Government through, or created by, a federal statute,”

App. 94
and second, because in those proceedings, “[t]he
government was proceeding in its sovereign capacity.”
Id. at 757. While the Court ultimately did not provide
a definitive answer as to “[w]hether in general a statelaw action brought by the United States is subject to a
federal or state statute of limitations,” it did determine
that Guaranty Trust Co. v. United States, 304 U.S. 126
(1938), provided guidance, namely, that if “the proof
demonstrated that the United States never acquired a
right free of a pre-existing infirmity, the running of
limitations against its assignor,” then “[e]ven if the
United States had a right to be free from the statute of
limitations, it was deprived of no right on these facts.”
U.S. v. California at 758. In other words, “[b]ecause the
Government waited until after the state statute of
limitations had run against [its private contractor] to
bring suit, the Government was not subrogated to a
right free of a pre-existing infirmity.” Id. at 758-59
(internal punctuation omitted).
U.S. v. California, then, requires this court to first
evaluate the nature of the government’s claim to
determine whether it was obtained through or created
by a federal statute, and second, to determine whether
it is pursuing the claim in its sovereign capacity. Only
if it meets those requirements has it acquired a right
not barred by the state statute of limitations. Here, the
parties all agree that the nature of the government’s
claim is as a third-party beneficiary to the contract
entered into by Smith and Johnson as trustees of the
Trust and personal representatives of the Estate with
the four defendant children. While the underlying
estate tax debt was created by federal statute, the
government’s breach of contract claim was not obtained

App. 95
through, or created by a federal statute, but by virtue
of the government being an intended third-party
beneficiary of a contract governed by state law. See
U.S. v. California at 757. This fact means that the
state statute of limitations period, not the federal
limitations period, applies to the breach of contract
claim. The government also cannot meet the second
requirement to avoid being subject to the state statute
of limitation, because to prevail in the breach of
contract claim, it must proceed as a third-party
beneficiary rather than in its sovereign capacity.22 See
id. As a third-party beneficiary, the government stands
in the shoes of and “takes on the rights and
limitations” that Smith and Johnson have as trustees
and/or personal representatives to enforce the right of
contribution against the beneficiaries, “one limitation
being a time limit for filing civil suits.” See Flying
Phoenix Corp. v. Creative Packaging Mach., Inc., 681
F.3d 1198, 1201 (10th Cir. 2012). See also Rio Algom
Corp. v. Jimco Ltd., 618 P.2d 497 (Utah 1980) (stating
that third party beneficiaries are not entitled to greater
rights than the actual parties to a contract). In the
language of U.S. v. California, the government
22

Notwithstanding the Tenth Circuit’s language in Holmes that
“the present suit . . . is in every real sense a proceeding in court to
collect a tax,” the facts here are distinguishable from those in
Holmes and require a different result. Holmes at 1232. The
difference is that the government in Holmes was acting in its
sovereign capacity to collect a tax debt against the sole shareholder
of a defunct corporation on the basis of a state law that permitted
debt collections against shareholder distributees of dissolved
corporations. Id. Here, the government cannot act on the contract
claim unless it acts in the capacity of a third-party beneficiary as
opposed to a sovereign.

App. 96
acquired a right with a “pre-existing infirmity,” i.e. the
state statute of limitations. U.S. v. California at 759.
After stepping into Smith and Johnson’s shoes as a
third-party beneficiary, the government then waited
until after the limitations period had run to bring suit
against the contract beneficiaries. Accordingly, the
court finds that the government’s claim for breach of
contract is time barred.
5. The Government Cannot Foreclose Its Section
6321 Lien Against an Expired Asset
The government’s final claim23 seeks to foreclose its
federal tax lien, which arose pursuant to 26 U.S.C.
§ 6321 at the time the tax was assessed, against any
rights which were created by the Distribution
Agreement. The parties each raise numerous
arguments for and against this claim, but the court
finds that two of them are both simple and
dispositive.24 First, pursuant to 26 U.S.C. § 2204(c), a
special lien agreement that meets all of the
requirements of section 6324A “shall be treated as the
furnishing of bond.” Following that, section 6325(a)
provides that the IRS “shall issue a certificate of
release of any lien imposed” within 30 days of being
timely furnished an acceptable bond for the assessed
tax. 26 U.S.C. § 6325. The court determined in section
3, supra, that defendants furnished a special lien
23

This claim is asserted as the third cause of action in the
Amended Complaint. (Dkt. No. 77.)
24

As a result of finding that the following two points are
dispositive on this issue, the court declines to address the parties’
remaining arguments.

App. 97
agreement that met all of the requirements of section
6324A and that the IRS was required to accept, and it
is thus a bond under section 2204(c). As a result, the
government’s various tax liens under section 6321 were
required to be released within 30 days of being
furnished, and there is no section 6321 general lien
remaining upon which the government can foreclose.
Second, although the government subsequently filed
a Notice of Tax Lien in 2005 and a corrected notice in
2007, presumably because the Estate defaulted on its
section 6166 payments, the government released these
liens in both 2007 and in 2012, including after filing its
lawsuit in this matter. While it is true that 26 U.S.C.
§ 6325(f)(2) authorizes the IRS to revoke lien
releases—whether released mistakenly or not—the
Revocations filed by the government were not effective.
The 2007 Revocation was ineffective because it is
undisputed that the government failed to file it in the
Salt Lake County recorder’s office as required by
statute. 26 U.S.C. § 6325(f)(2)(B). The 2012 Revocation
was ineffective because by the time the government
properly refiled it in the Salt Lake county recorder’s
office on May 20, 2015, the asset it sought to
attach—the Distribution Agreement—was no longer a
“right to property” held by the taxpayer Estate because
the statute of limitations allowing it to be enforced
against defendants had expired.25 The “property” or
“right to property” to which a lien can attach is defined
by state law. In Gardner v. U.S., 34 F.3d 985 (10th Cir.
1994), the Tenth Circuit stated:
25

This conclusion also assumes that the government’s failure to
name the Estate as a party is not in itself fatal to its claim here.

App. 98
Additionally, although federal law delineates the
standard for determining when a federal tax lien
attaches, [t]he threshold question in this case, as in
all cases where the Federal Government asserts its
tax lien, is whether and to what extent the taxpayer
had “property” or “rights to property” to which the
tax lien could attach. In answering that question,
both federal and state courts must look to state law,
for it has long been the rule that in the application
of a federal revenue act, state law controls in
determining the nature of the legal interest which
the taxpayer had in the property . . . sought to be
reached by the statute.
(internal punctuation omitted) (emphasis added). The
Tenth Circuit also observed “[i]t has been aptly noted
that the Government’s rights can rise no higher than
those of the taxpayer to whom the property belongs. . .
Moreover, the tax collector not only steps into the
taxpayer’s shoes but must go barefoot if the shoes wear
out.” Id. (internal punctuation omitted), citing 4 B.
Bittker, Federal Taxation of Income, Estates, and Gifts
paragraph 111.5.4, at 111-102 (1981); and U.S. v.
Rodgers, 461 U.S. 677, 690-91 (1983). Here, because
the taxpayer Estate’s rights to enforce the Distribution
Agreement had been long expired by 2015, the
government is barefoot with respect to its section 6321
tax lien. There is nothing to which its 2015 Revocation
or its newly filed 2015 Notice of Tax Lien could attach.
Because the taxpayer Estate no longer has “property”
or “rights to property” to which its lien could attach in

App. 99
2015, the government’s action to foreclose the lien
against the Distribution Agreement must fail.26
CONCLUSION
For all of the foregoing reasons, the court GRANTS
defendants’ Motion to Reconsider (Dkt. No. 119),
VACATES its previous grant of summary judgment on
the government’s Motion for Summary Judgment (Dkt.
No. 87) and GRANTS summary judgment on
defendants’ Motion for Partial Summary Judgment
(Dkt. No. 86) finding that the trustees of the Trust are
not liable for the unpaid federal estate tax and interest
under section 6324(a)(2) because Trust assets are
included in the gross estate under section 2033.
In addition, the court GRANTS defendants’ Motion
for Summary Judgment (Dkt. No. 122) and finds that
the trustees of the Trust were discharged from personal
liability for the unpaid federal estate tax under section
2004 because they properly furnished a special lien
under section 6324A.
The court previously granted in part the United
States’ Second Motion for Summary Judgment (Dkt.

26

26 U.S.C. § 6322 provides that the government’s section 6321 tax
lien arises at the time the taxes are assessed and continues “until
the liability for the amount so assessed . . . is satisfied or becomes
unenforceable by reason of lapse of time.” Contrary to the
government’s position, the court finds that the language “or
becomes unenforceable by reason of lapse of time” must have some
meaning that precludes its ability to extend the lien indefinitely,
in this case, at least 20 to 24 years from the date of assessment.
The government had ample time during that period to protect its
rights and failed to do so.

App. 100
No. 117) on the Amended Complaint’s first claim for
relief that defendants are liable, pursuant to 26 U.S.C.
§ 6324(a)(2), for the unpaid estate tax liabilities to the
extent of the proceeds they received as beneficiaries of
Decedent’s life insurance policies. The court now
clarifies that because this decision dismisses
defendants Barnwell and Devine from this action, the
government’s recovery is limited to life insurance
proceeds received by defendants Smith and Johnson.
The government should file a motion requesting
judgment in the appropriate amount on this claim.
Finally, as to the remainder of the government’s
Second Motion for Summary Judgment (Dkt. No. 117),
the court DENIES the remainder of the government’s
first claim for relief in the Amended Complaint for
trustee or transferee liability under Section 6324(a)(2);
finds MOOT the government’s second claim for relief
for fiduciary liability under 31 U.S.C. § 3713; DENIES
the government’s third claim for relief for foreclosure of
federal tax lien against rights created by the
Distribution Agreement; and DENIES the
government’s fourth claim for relief for breach of
contract as a third party beneficiary to the Distribution
Agreement. The Clerk of Court is directed to dismiss
defendants Barnwell and Devine from this action and
enter Judgment as above, with the exception of the
court’s partial grant of relief on plaintiff’s first cause of
action, which remains to be resolved by the court.
SO ORDERED this 1st day of December, 2016.

App. 101
BY THE COURT:
/s/Clark Waddoups
Clark Waddoups
United States District Judge

App. 102

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
DISTRICT OF UTAH,
CENTRAL DIVISION
Case No. 2:11-cv-00087
Judge Clark Waddoups
[Filed July 29, 2013]
________________________________
UNITED STATES OF AMERICA, )
)
Plaintiffs. )
)
v.
)
)
MARY CAROL S. JOHNSON;
)
JAMES W. SMITH; MARIAN S.
)
BARNWELL; BILLIE ANN S.
)
DEVINE; and EVE H. SMITH
)
)
Defendants. )
________________________________ )
AMENDED MEMORANDUM
DECISION AND ORDER
INTRODUCTION
The United States has brought this action against
Defendants for the collection of an estate tax deficiency
owed by the estate of Anna S. Smith. Defendants have
moved to dismiss the case pursuant to Federal Rule of

App. 103
Civil Procedure 12(b)(6), arguing that the Government
has failed to state a claim upon which relief can be
granted. (Dkt. No. 31.) For the reasons discussed
below, the court grants in part and denies in part
Defendants’ motion to dismiss.1
FACTUAL BACKGROUND
Anna S. Smith (“Decedent”) died testate on
September 2, 1991. She was survived by her children
Mary Carol S. Johnson (“Johnson”), James W. Smith
(“Smith”), Marian S, Barnwell (“Barnwell”), and Billie
Ann S. Devine (“Devine”). The surviving children are
the Decedent’s Heirs and Defendants in this action.2
Prior to her death, the Decedent executed a Last Will
and Testament and established the Anna Smith Family
Trust (the “Trust”). Johnson and Smith are named as
the personal representatives of the Decedent’s Estate
and are also the trustees of the Trust (hereinafter the
“Personal Representatives” or “Trustees”).
The Will directed the Personal Representatives to
ensure that the Decedent’s “debts, last illness, and
funeral and burial expenses be paid as soon after [her]
death as reasonably convenient.” Will, ¶ II (Dkt. No.
32, Ex. A). While the Will did not expressly direct the
Personal Representatives to pay any federal estate tax
levied against the Estate, it stated that “claims against
[the] estate” may be settled and discharged in the
“absolute discretion of [the] Personal Representatives.”
1

Pursuant to Federal Rule of Civil Procedure 54(b), this Amended
Memorandum Decision and Order supersedes the court’s previous
memorandum decision issued on May 23, 2012. Only section III of
the court’s ruling has been amended.

App. 104
Id. The Will finally directed that the “rest and residue”
of the Estate be delivered to the Trustees to be added
to the principal of the Trust and administered in
accordance with the provisions of the trust agreement.
Id. ¶ V.
The Trust was governed by the Second Amended
Trust Agreement (the “Trust Agreement”). According to
the Trust Agreement, the Trustees were to make
certain specific distributions from the trust principal to
several individuals, who are not parties to this suit, as
soon as possible after the Decedent’s death. Trust
Agreement,2 (Dkt. No. 32, Ex. B). The Trustees were
also directed to
pay any and all debts and obligations of the
GRANTOR, the last illness, funeral, and burial
expenses of the GRANTOR and any State and
Federal income, inheritance and estate taxes
which may then be owing or which may become
due and owing as a result of the GRANTOR’s
death.
Id. (emphasis added). After these distributions had
been made, the Trustees were to divide a third of the
remaining trust corpus (not to exceed $1,000,000) into
four equal parts to be distributed to four family limited
partnerships one of which had been established for
each of the Heirs. Id. at 4. Finally, the Trustees were

2

Eve H. Smith is the wife of James W. Smith. She also was named
as a defendant in this matter. As discussed further below, the
Government has failed to state a valid claim against her. The court
therefore does not include her in its analysis of the liability of the
other defendants.

App. 105
directed to distribute the remaining principal and
undistributed income of the trust equally to the Heirs.
Id. at 4-5. The Heirs also received benefits valued at
nearly $370,000 from several life insurance policies
belonging to the Decedent.
In accordance with the Trust Agreement, the
Trustees filed a federal estate tax return with the
Internal Revenue Service (“IRS”) on June 1, 1992. The
return valued the Decedent’s gross estate at
$15,958,765, with a federal estate tax liability of
$6,631,448. See United States Estate Tax Return (Dkt.
No. 32, Ex. C). The bulk of the Estate consisted of 9,994
shares of stock in State Line Hotel, Inc. (the “Hotel”)
valued at $11,508,400. When the return was filed, the
Trustees elected to defer payment of a portion of the
federal estate tax liability.3 The deferred tax liability
was to be paid in ten annual installments beginning on
June 2, 1997 and ending on June 2, 2006. After
receiving the estate tax return, the IRS properly
assessed the Estate for unpaid estate taxes on July 13,
1992.
On December 31, 1992, the Trustees and Heirs
executed an agreement (the “Distribution Agreement”)
distributing all the remaining trust assets to the Heirs.
See Agreement (Dkt. No. 32, Ex. G). With regard to the
outstanding federal estate tax liability, the
Distribution Agreement states as follows:

3

The Estate made this election pursuant to 26 U.S.C. § 6166(a).
The provision allows an estate to defer paying part of its estate tax
if more than thirty-five percent of an adjusted gross estate consists
of an interest in a closely held business.

App. 106
6. Liability for Taxes. Each of the
BENEFICIARIES acknowledges that the
assets distributed to him or her will
accomplish a complete distribution of the
assets of the Trust. A portion of the total
federal estate tax upon the Estate of
Anna Smith is being deferred and is the
equal obligation of the BENEFICIARIES
to pay as the same becomes due.
Likewise, if, upon audit, additional
federal estate taxes or Utah inheritance
taxes are found to be owing, the
responsibility for any such additional
taxes, interest or penalties will be borne
equally by the BENEFICIARIES.
Id. at ¶ 6.
On May 30, 1995 the IRS issued a Notice of
Deficiency against the Estate, determining that the
Hotel shares were worth $15,000,000 at the time of the
Decedent’s death. The adjusted valuation resulted in
an alleged additional estate tax of $2,444,367. The
Estate contested the Notice of Deficiency, and a
settlement was ultimately reached where the Estate
agreed to pay additional federal estate taxes in the
amount of $240,381. Thus, the total federal estate tax
was $6,871,829.
In January 2002, the Hotel filed for Chapter 11
bankruptcy in the state of Nevada, and shortly
thereafter, the court approved the sale of all the Hotel’s
assets to a third party free and clear of all liens, claims,
and encumbrances. The Heirs received no value for
their Hotel shares, but each received $126,000

App. 107
annually for signing a two-year non-compete
agreement. The Heirs also have each reported losses in
excess of $1,000,000 in connection with their ownership
of the Hotel stock, which have been used to offset
taxable income.
In 2003, the Estate defaulted on its federal estate
tax liability, after having paid $5,000,000 of the total
amount due. In 2005, the IRS sent a notice and
demand for payment of the tax liability to the Estate
and the Personal Representatives. Despite this notice
and demand, the Personal Representatives have failed
to fully pay the assessments made against the Estate.
The IRS has made efforts to collect the taxes due
through levies against the Estate, the Trust, and
Defendants but has failed to yield any collections. The
action currently before the court is a further attempt by
the Government to collect the outstanding tax liability
against the Estate.
LEGAL STANDARD
When evaluating a motion to dismiss under Rule
12(b)(6), the court “must accept all the well-pleaded
allegations of the complaint as true and must construe
them in the light most favorable to the plaintiff.” David
v. City & County of Denver, 101 F.3d 1344, 1352 (10th
Cir. 1996) (quotations and citations omitted). The court
need not, however, consider allegations which are
conclusory, or that “do not allege the factual basis” for
the claim. Brown v. Zavaras, 63 F.3d 967, 972 (10th
Cir. 1995); see also Hall v. Bellmon, 935 F.2d 1106,
1110 (10th Cir. 1991) (“[C]onclusory allegations
without supporting factual averments are insufficient
to state a claim on which relief can be based.”).

App. 108
Moreover, the court is not bound by a complaint’s legal
conclusions, deductions, and opinions couched as facts.
See Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555
(2007) (citations omitted).
Although all reasonable inferences must be drawn
in the non-moving party’s favor, a complaint will only
survive a motion to dismiss if it contains “‘enough facts
to state a claim to relief that is plausible on its face.’”
Ridge at Red Hawk, L.L.C. v. Schneider, 493 F.3d 1174,
1177 (10th Cir. 2007) (quoting Twombly, 550 U.S. at
570). “A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (citations omitted). Under this standard, a
claim need not be probable, but there must be facts
showing more than a “sheer possibility” of wrongdoing.
Id.
ANALYSIS
I. PERSONAL LIABILITY UNDER 26 U.S.C.
§ 6234(a)(2)
The Government claims that each Heir is liable for
the Estate tax pursuant to 26 U.S.C. § 6324(a)(2).
Section 6324(a)(2) imputes personal liability for federal
estate taxes to certain individuals who receive property
from an estate at the time of a decedent’s death. The
first sentence of section 6324(a)(2) states:
(2) Liability of transferees and others.
If the estate tax imposed by chapter 11 is
not paid when due, then the spouse,
transferee, trustee . . . , surviving tenant,

App. 109
person in possession of the property by
reason of the exercise, nonexercise, or
release of a power of appointment, or
beneficiary, who receives, or has on the
date of the decedent’s death, property
included in the gross estate . . . to the
extent of the value, at the time of the
decedent’s death, of such property, shall
be personally liable for such tax.
26 U.S.C. § 6324(a)(2) (2010) (emphasis added). The
section lists six distinct categories of individuals who
may be personally liable. The categories that have
relevance in this case are “transferee,” “trustee,” and
“beneficiary.” For ease of reference, when the court
collectively refers to these categories, the court will
refer to them as a “Distributee” or “Distributees.”
The Trustees admit they fall within the scope of
section 6324(a)(2). Likewise, the Heirs admit that as
beneficiaries of the Decedent’s life insurance proceeds,
they also fall within the scope of section 6324(a)(2) to
the extent of the value of the insurance proceeds. The
Heirs deny, however, that they became Distributees
when property from the trust corpus was distributed to
them. They therefore deny all liability arising from
their status as trust beneficiaries.
A. Transferee Liability
i. Transferees Under Utah Law
The Government argues the Heirs are transferees
based on common law and Utah law. Under common
law, a transferee is anyone “to whom a property
interest is conveyed.” Black’s Law Dictionary (7th ed.

App. 110
1999). Utah law specifies “‘the creation of a trust
involves the transfer of property interests in the trust
subject-matter to the beneficiaries.’” See Banks v.
Means, 2002 UT 65, ¶ 9, 52 P.3d 1190, overruled on
other grounds by Utah Code Ann. § 75-7-605 (2012)
(quoting George G. Bogert & George T. Bogert, Trusts
& Trustees § 998 (2d ed. rev. 1983)). Hence, according
to the Government, the Heirs are transferees because
a property interest in the Trust corpus was conveyed to
them upon the mere creation of the Trust, and that
property interest was held by the Heirs at the time of
the Decedent’s death.
The Supreme Court has held that courts should look
to state law to determine the scope of liability under
some other sections of the tax law. See Comm’r v.
Stern, 357 U.S. 39, 44-45 (1958); see also Bergman v.
Comm’r, 66 T.C. 887, 892 (1976); Magill v. Comm’r, 43
T.C.M. (CCH) 859 (1983). The same is not true for
section 6324(a)(2). Instead, federal “courts have
developed a uniform body of federal law defining the
nature and effects of [section 6324(a)(2)] liability.”
Schuster v. Comm’r, 312 F.2d 311, 315 (9th Cir. 1962).
This makes “an examination of state law unnecessary.”
Magill, 43 T.C.M. (CCH) 859; see also Baptiste v.
Comm’r, 29 F.3d 1533, 1538 (11th Cir. 1994) (stating
“section 6324(a)(2) is an independent federal source of
liability[,] . . . so there is no reason to look to state
law”); Groetzinger v. Comm’r, 69 T.C. 309, 316 (1977)
(“[S]ection 6324 provides for the substantive liability of
the transferees of estates with respect to the estate tax
without regard to State law.”). While the Government
may be correct in its statement of Utah law, it is
improper to rely on state law to define the term

App. 111
“transferee” for purposes of section 6324(a)(2). The
court therefore concludes the Heirs did not become
transferees merely because they were named as trust
beneficiaries when the Trust was created.
ii. Timing of Trust Distributions
The Government also contends that the Heirs are
personally liable for the Estate tax because they
became transferees when property from the trust
corpus was distributed to them. The Heirs argue they
cannot be transferees because such property was not
distributed to them immediately upon the date of the
Decedent’s death.
In Englert v. Commissioner, the United States Tax
Court held that a transferee “can only mean the person
who ‘on the date of the decedent’s death’ receives or
holds the property of a transfer made in contemplation
of, or taking effect at, death.”4 32 T.C. 1008, 1016
(1959). See also Garrett v. Comm’r, 67 T.C.M. (CCH)
2214, *41 (1994) (“We concluded that, for purposes of
section 827(b), the term ‘transferee’ applied only to the
person who on the date of decedent’s death receives or
holds the property of a transfer made in contemplation
of, or taking effect at, death.”). The Englert court
recognized that the language of the statute could be
read in multiple ways, see Englert, 32 T.C. at 1015-16,
because it imputes personally liability to a person “who
receives, or has on the date of the decedent’s death,
4

Englert addressed section 827(b), which is the predecessor to
section 6324(a)(2) and courts have consistently construed them as
having the same substantive content. See Garrett v. Comm’r, 67
T.C.M. (CCH) 2214, *35 (1994).

App. 112
property included in the gross estate,” 26 U.S.C.
§ 6324(a)(2) (emphasis added). The syntax of the clause
might suggest that Congress intended any transferee
who receives property that had been in the gross
estate, regardless of the time when he or she receives
it, to be personally liable under section 6324(a)(2). The
Englert court held, however, that “Congress used the
word ‘receives’ to take care of property received by
persons solely because of decedent’s death such as
insurance proceeds or property which was not in the
possession of one of the persons described in section
827(b), . . . at the moment of the decedent’s death, but
who immediately received such property solely because
of the decedent’s death.” Id. at 1016.
Where there is ambiguity as to the meaning of a tax
statute, the court must resolve the issue in favor of the
taxpayer. Miller v. Standard Nut Margarine Co., 284
U.S. 498, 508 (1932) (“It is elementary that tax laws
are to be interpreted liberally in favor of taxpayers and
that words defining things to be taxed may not be
extended beyond their clear import. Doubts must be
resolved against the Government and in favor of
taxpayers.”); Duke Energy Natural Gas Corp. v.
Comm’r, 172 F.3d 1255, 1260 n.7 (10th Cir. 1999) (“[I]f
doubt exists as to the construction of a taxing statute,
the doubt should be resolved in favor of the taxpayer.”)
(quotations and citation omitted); Higley v. Comm’r, 69
F.2d 160, 162-63 (8th Cir. 1934) (“[T]he beneficiary is
entitled to a favorable construction because liability for
taxation must clearly appear.”). Because section
6324(a)(2) may be interpreted in multiple ways, it is
ambiguous and must be interpreted in favor of the
Heirs. The court concludes that in order for a person to

App. 113
be a transferee under section 6324(a)(2), the person
must have or receive property from the gross estate
immediately upon the date of decedent’s death rather
than at some point thereafter.
iii.

Trustees Received the Trust Corpus Upon
Decedent’s Death

Applying this interpretation, case law supports that
personal liability for an estate tax does not typically
extend to trust beneficiaries because it is the trustee
who receives the property on the date of a decedent’s
death. See Englert, 32 T.C. at 1015 (“It was the ‘trustee’
of the 1941 trust who ‘on the date of the decedent’s
death’ held the property in question and not the [trust
beneficiary].”); Garrett, 67 T.C.M. (CCH) 2214, *43
(“[The trustee] was personally liable for the payment of
the Federal estate tax under section 6324(a)(2). It was
the trustee who received the property included in the
decedent’s gross estate and it had the legal title,
control, and possession of such property.”); see also
Higley, 69 F.2d at 162-63 (“[T]he application of
‘transferee’ to trust beneficiaries is at least doubtful
and the statute in that respect ambiguous. In such a
situation the beneficiary is entitled to a favorable
construction because liability for taxation must clearly
appear.”); United States v. Detroit Bank & Trust Co.,
No. 20937, 1962 U.S. Dist. LEXIS 5184, at *5 (E.D.
Mich. Feb. 28, 1962) (holding that a beneficiary of a
testamentary trust was not liable under section
6324(a)(2)).
The Government tries to distinguish Englert,
Garrett, and Higley from the case at hand on the
ground that the cited cases deal only with trust

App. 114
beneficiaries who were entitled to income from the
trust on the date of the settlor’s debt, as opposed to
property belonging to the trust corpus itself.5 While the
distinction made by the Government is worthy of
notice, there is nothing in the cited cases to suggest
that such a distinction was relevant to the courts when
determining the scope of liability imposed on
transferees. In fact, none of the cases make the
distinction at all.
The Government suggests that because the Eighth
Circuit in Higley noted that trust beneficiaries are
often only entitled to income from the trust, it was
limiting its rationale to those circumstances. To the
contrary, the Eighth Circuit specifically recognized that
trust beneficiaries may be entitled to both the income
and principal of the trust. Higley, 69 F.2d at 163
(noting that a trust beneficiary “may or may not” have
“legal title, control, and possession as would afford
opportunity to dispose of the property primarily liable
for the payment of the tax”). The court held that even
though some trust beneficiaries may have an interest
in the trust corpus itself, Congress has chosen to avoid
having to determine which trust beneficiaries could
bear the burden of personal liability for an estate tax
by “placing upon the trustee a personal liability.” Id. at
163.

5

The government correctly characterizes the petitioners in
Englert, Garrett, and Higley as income beneficiaries, rather than
principal beneficiaries, of the trusts in question. However, at least
one district court has found it appropriate to extend the same
reasoning to principal beneficiaries as well. See Detroit Bank &
Trust Co., 1962 U.S. Dist. LEXIS 5184, at *5.

App. 115
Like the petitioner in Englert, here the immediate
right to the trust corpus belonged to the Trustees upon
the Decedent’s death, not to the Heirs. See Englert, 32
T.C. at 1010, 1015. Whatever inchoate property
interest the Heirs may have received upon the death of
the Decedent did not put them in a significantly better
position to bear the burden of being personally liable
for the estate tax than the trust beneficiaries in the
cases cited above. Contrary to the suggestion of the
Government, the Trust Agreement did not give the
Heirs an “immediate right to the balance of the corpus
of the trust.” Pl.’s Opp’n to Mot. to Dismiss, 15 (Dkt.
No. 39).6 Instead, the Trustees were required to pay the
expenses, debts, and obligations of the Decedent,
including any federal estate tax obligation, prior to any
distribution of the trust property to the Heirs. See
Trust Agreement, 2 (Dkt. No. 32, Ex. B). In addition,
the Trust Agreement directed the Trustees to make
several substantial distributions to specified third
parties and to four family partnerships prior to
distributing any property to the Heirs. Id. at 2-4.
Only after the debts and obligations of the Estate
were satisfied, and the specific distributions were
made, were the Trustees directed to distribute the
“remaining principal and undistributed income” of the
trust to the Heirs in equal shares. Id. at 4. It was not
certain that the Heirs would receive any property
under the Trust Agreement. Had the Trust corpus been
insufficient to meet the debts and obligations of the

6

When referring to the page numbering of a party’s brief, the court
is referring to the number at the bottom of the memorandum
rather than the number assigned by cm/ecf at the top of the page.

App. 116
Estate and the specific distributions described in the
Trust Agreement, the Heirs would have received
nothing from the Trust. This supports the Heirs are not
transferees.
iv. Subsequent Transferees
The Heirs final argument as to why they are not
transferees pertains to the statutory construct of
section 6324(a)(2). The above analysis addresses the
first sentence of the section. The second sentence of the
section addresses special estate tax liens, which are not
at issue in this case. The second sentence is
nevertheless relevant because it provides meaning
about who a transferee is under the first sentence. The
second sentence of section 6324(a)(2) states:
Any part of such property transferred by
(or transferred by a transferee of) such
spouse, transferee, trustee, surviving
tenant, person in possession, or
beneficiary, to a purchaser or holder of a
security interest shall be divested of the
lien provided in paragraph (1) and a like
lien shall then attach to all the property
of such spouse, transferee, trustee,
surviving tenant, person in possession, or
beneficiary, or transferee of any such
person, except any part transferred to a
purchaser or a holder of a security
interest.
26 U.S.C. § 6324(a)(2) (2010) (emphasis added).
The Heirs argue that because Congress referred to
“transferees of transferees” in the second sentence of

App. 117
section 6324(a)(2) and not the first sentence, that such
subsequent transferees were not intended to be liable
under the first sentence. Case law supports this
interpretation. See Garrett, 67 T.C.M. (CCH) 2214, at
*41 (rejecting “liability-by-secondary-transfer
argument” under section 6324(a)(2)); Englert, 32 T.C.
at 1016.
While it is conceivable that a “transferee” in the
first sentence could be defined to mean an initial
transferee of a decedent and any subsequent
transferees, such a construction would render
references to the “transferees of any such person” in
the second sentence of the statute superfluous. Courts
favor interpreting the terms of a statute so as to avoid
rendering any terms or phrases superfluous. See TRW,
Inc. v. Andrews, 534 U.S. 19, 31 (2001) (“We are
reluctant to treat statutory terms as surplusage in any
setting.”) (quotations and citation omitted); Moskal v.
United States, 498 U.S. 103, 109 (1990) (“[A] court
should give effect, if possible, to every clause and word
of a statute.”) (quotations and citations omitted);
Mountain States Tel. & Tel. Co. v. Pueblo of Santa Ana,
472 U.S. 237, 249 (1985) (“[A] statute should be
interpreted so as not to render one part inoperative.”)
(quotations and citation omitted); Lamb v. Thompson,
265 F.3d 1038, 1051 (10th Cir. 2001) (“[I]t is our duty
to give effect, if possible, to every clause and word of a
statute rather than to emasculate an entire section.”)
(quotations and citations omitted).
Were the court to read the term “transferee” in the
first sentence of section 6324(a)(2) to mean both initial
and subsequent transferees, references to “transferees

App. 118
of any such person” in the second sentence would be
meaningless and superfluous. Congress understood
how to refer to a subsequent transferee when they
enacted section 6324(a)(2). They did so in the second
sentence of the statute at issue. If they intended
“transferees of transferees” to be personally liable for
an estate tax under the first sentence of the section,
they would have made that clear using the same
language they used in the second sentence. Because
they did not use that language, it is not proper for this
court to expand the meaning of the language that was
used. The court therefore concludes that the term
“transferee” in the first sentence of section 6324(a)(2)
does not apply to subsequent transferees who receive
property from a Distributee following a decedent’s
death. Accordingly, the Heirs are not transferees under
section 6324(a)(2).
B. Beneficiaries
The Government also asserts that Defendants are
“beneficiaries” under section 6324(a)(2). The
Defendants concede they are beneficiaries of the
Decedent’s life insurance policies, and therefore liable
for the value of the insurance proceeds distributed to
them. They argue, however, that the term “beneficiary”
should not be interpreted broadly to mean any
recipient of property from the Decedent’s gross estate.
While the Government asserts that the more common
and widely accepted meaning of “beneficiary” is “a
person for whose benefit property is held in trust,”
Black’s Law Dictionary (9th Ed. 2009), they do not
contest the fact that multiple courts have interpreted
“beneficiary” narrowly, such that it only applies to

App. 119
insurance policy beneficiaries. Garrett, 67 T.C.M.
(CCH) 2214, at *39 (“[T]he personal liability imposed
upon beneficiaries referred only to specific beneficiaries
of life insurance.”); Englert, 32 T.C. at 1014 (“[I]t is
obvious the use of the word ‘beneficiary’ in this section
applies only to insurance policy beneficiaries.”); Higley,
69 F.2d at 162.
As the Tax Court outlined in Garrett, the legislative
history of section 6324(a)(2) and its predecessors show
that Congress was only referring to insurance
beneficiaries when it used the term “beneficiary” in the
statute. See Garrett, 67 T.C.M. (CCH) 2214, at *35-40.
Section 827(b) of the Internal Revenue Act of 1939, a
predecessor to section 6324(a)(2), states:
if insurance passes under a contract
executed by the decedent in favor of a
specific beneficiary . . . then the . . .
beneficiary shall be personally liable for
such [estate] tax.
Internal Revenue Code, ch. 3, § 827(b), 53 Stat. 1, 128
(1939) (current version at 26 U.S.C. § 6324(a)(2) (2010))
(emphasis added). In 1942, Congress amended section
827(b) of the Internal Revenue Act of 1939, adopting
language that is nearly identical to the language
currently encoded in section 6324(a)(2). See Revenue
Act of 1942, Pub. L. No. 77-753, sec. 411, § 827(b), 56
Stat. 798, 950 (1942). In making the amendment, a
House Report accompanying the bill stated:
Section 827(b), as it now appears in the
Code, in imposing personal liability for
the tax refers only to transfers in

App. 120
contemplation of death or intended to
take effect in possession or enjoyment at
or after death, and life insurance in favor
of a specific beneficiary.
Englert, 32 T.C. at 1015 (quoting H.R. Rep. No. 77-2333
(1942)); see also S. Rep. No. 77-1631 (1942).
It is clear that the term “beneficiary” was only
meant to refer to insurance beneficiaries under section
6324(a)(2) and not beneficiaries of a trust. Because all
of the Heirs did receive proceeds from various life
insurance policies held by the Decedent upon her
death, they are each subject to personal liability under
section 6324(a)(2) to the extent of the distributions they
received from the policies.
The Government finally argues that if the personal
liability assigned by section 6324(a)(2) did not extend
to trust beneficiaries, endless abuse and estate tax
evasion would ensue. These concerns appear
overstated. There is no question that trustees are
personally liable under section 6324(a)(2) when
property included in a decedent’s gross estate is
transferred to a trust. Consequently, a trustee would
have every incentive to ensure that an estate tax owed
by the estate was paid prior to distributing all the
assets of the trust. The trustee’s potential liability
should help curb the abuses envisioned by the
Government.
C. Eve H. Smith
The Government asserts that Eve H. Smith “is sued
because she was a beneficial transferee of certain
assets distributed to her from the Estate through the

App. 121
Trust and [as] a partner of the James W. Smith Family
Limited Partnership.” Complaint, ¶ 9 (Dkt. No. 2). It
also asserts that Ms. Smith “is a beneficiary or
transferee of the Estate because she received
distributions of cash and other assets included in the
Decedent’s gross estate, personally” and as a partner of
in two limited partnerships. Id. ¶ 32. Although the
Government asserts that Ms. Smith received cash and
assets, it does not identify any of them. Nor do the Will
and Trust show that Ms. Smith received cash or assets.
Furthermore, she was not a party to the Distribution
Agreement. Finally, the assertion that Ms. Smith
should bear liability because she was a partner of
certain limited partnerships is an even more
attenuated argument than that made against the Heirs
and direct beneficiaries of the Trust.
During oral argument on the motion to dismiss, the
court asked the Government to identify what evidence
it had that Ms. Smith was a Distributee. The
Government stated that it needed to conduct discovery
to determine her involvement in the limited
partnerships. The law is clear that a party “may not
use discovery as a fishing expedition.” Anthony v.
United States, 667 F.2d 870, 880 (10th Cir. 1981); see
also Szymanski v. Benton, 289 Fed. Appx. 315, 320-21
(10th Cir. 2008); Martinez v. True, 128 Fed. Appx. 714,
716 (10th Cir. 2005). Moreover, the Government did
not sue the limited partnerships. It sued Ms. Smith in
her individual capacity. The Government has therefore
failed to state sufficient facts to show it has a
cognizable claim against Ms. Smith at this stage of the
litigation. Accordingly, Ms. Smith is hereby dismissed
without prejudice.

App. 122
D. Summary of Defendants’ Liability Under
Section 6324(a)(2)
As conceded, the Trustees fall within the scope of
section 6324(a)(2) to the extent of the value of the
property in the trust at the time of the Decedent’s
death. Furthermore, the Heirs are “beneficiaries” under
section 6324(a)(2) to the extent of the value of the life
insurance proceeds they received by virtue of the
Decedent’s death. Such beneficiary status does not
extend to any other property the Heirs received under
the Trust Agreement. Moreover, the Heirs do not meet
the definition of “transferees” under section 6324(a)(2).
Consequently, the defendants are not liable as trust
beneficiaries or as transferees.
II. STATUTE OF LIMITATIONS
A. Tax Assessment Against an Estate
Although Defendants concede the Trustees and
beneficiaries of the life insurance proceeds would
otherwise be subject to liability under section
6324(a)(2), they nevertheless contend the Government
is time-barred from pursuing a collection action against
them.7 To bring an action to collect an estate tax from
a decedent’s estate, the IRS must first assess the estate
for the amount due. See 26 U.S.C. § 6501(a) (2012). The

7

Defendants likewise contend that even if Defendants were liable
as transferees under section 6324(a)(2), the Government would be
time-barred from pursing a claim against them. The court notes
that its analysis about the statute of limitations applies regardless
of whether a Distributee is as a trustee, beneficiary, or transferee.

App. 123
assessment must be made within three years after the
estate’s tax return was filed. Id.
Following a timely assessment, the IRS can collect
the estate tax by levy or by a proceeding in court if the
levy or proceeding is initiated within ten years after
the assessment. See id. § 6502(a). The statutes of
limitations for assessment imposed by section 6501 and
for collection imposed by section 6502 are suspended
“for the period during which the Secretary is prohibited
from making the assessment or from collecting by levy
or a proceeding in court . . . and for 60 days thereafter.”
Id. § 6503(a)(1). Thus, when an estate makes an
election to extend the time for payment of an estate
tax, the statute of limitations is tolled during the
extension period. See id. § 6503(d).
In this case, the Estate filed a tax return on June 1,
1992. The IRS timely assessed the Estate on July 13,
1992. Typically, the IRS would then have had ten years
(that is until July 13, 2002) to collect the assessed
taxes. This period, though, was extended when the
Estate elected to defer payment pursuant to 26 U.S.C.
§ 6166(a). Under that section, an estate may choose to
pay the tax liability over ten annual installments, with
the first installment commencing five years after the
deferral election is made. As a result, the statute of
limitations may be tolled for as long as fifteen years
from the date of election. The Estate elected this option
on the same date it filed its tax return. Rather than
tolling the statute of limitations until 2007, however,
the statute commenced running again in 2003 when
the Estate defaulted in making its annual payment.
The Government therefore has until 2013 to commence

App. 124
an action against the Estate to collect the unpaid estate
taxes. For purposes of this motion, Defendants do not
dispute this conclusion. Mem. in Supp. of Mot. to
Dismiss, 22 (Dkt. No. 32).
B. Tax Assessments Against a Distributee
i. Section 6901’s Applicability
Notably, the present action is not against the
Estate. It is against Distributees of the Estate, whom
the Government has never assessed. Section 6901 of
the Internal Revenue Code outlines the method and
procedure for collecting taxes from transferees who
received transferred assets from an estate. For
purposes of section 6901, the term “transferee” is
defined as “donee, heir, legatee, devisee, and
distributee, and with respect to estate taxes, also
includes any person who, under section 6324(a)(2), is
personally liable for any part of such tax.” 26 U.S.C.
§ 6901(h) (emphasis added). The term “transferee” is
therefore broader under section 6901 than it is under
section 6324(a)(2), and it encompasses the Trustees
and the life insurance beneficiaries in this case.
Section 6901(a) states that the method of assessing
and collecting tax from a transferee shall be done “in
the same manner and subject to the same provisions
and limitations as in the case of the taxes with respect
to which the liabilities were incurred.” Id. § 6901(a). In
other words, because a transferee’s liability for estate
tax is derived from the transferor estate, courts will
look to the tax rules that govern the estate when
determining liability of the transferee. See McKowen v.
IRS, 370 F.3d 1023, 1026-27 (10th Cir. 2004). The

App. 125
section therefore implies that to collect tax liability
from the Trustees and life insurance beneficiaries, the
Government must first have assessed them in the same
manner it assessed the Estate. Section 6901(a) further
provides that for initial transferees, which the Trustees
and beneficiaries are in this case, “[t]he period of
limitations for assessment of any such liability of a
transferee . . . shall be . . . within 1 year after the
expiration of the period of limitation for assessment
against the transferor.” 26 U.S.C. § 6901(c) (emphasis
added).
Upon an initial reading, section 6901 appears to
mandate how the IRS may assess and collect taxes
from those personally liable under section 6324(a)(2).
The Tenth Circuit, however, has stated that section
6901 is only one method of collecting against
transferees because “the collection procedures of § 6901
are cumulative and alternative - - not exclusive or
mandatory.” United States v. Russell, 461 F.2d 605, 607
(10th Cir. 1972) (citations omitted). As a result, “an
individual assessment under 26 U.S.C. § 6901 is not a
prerequisite to an action to impose transferee liability
under 26 U.S.C. § 6324(a)(2).” United States v.
Geniviva, 16 F.3d 522, 525 (3d Cir. 1994).
Stated differently, the Government can elect
whether to bring an action under section 6324(a)(2) or
section 6901. If it elects to bring it under section
6324(a)(2), it is not subject to the limitation period
stated in section 6901. Instead, section 6502’s
limitation period applies. United States v. Russell, No.
KC-2953, 1974 U.S. Dist. LEXIS 6241, at *7-8 (D. Kan.
Oct. 17, 1974) (unpublished), aff’d, 532 F.2d 175 (10th

App. 126
Cir. 1976) (stating “§ 6502 is the applicable statute of
limitations to actions brought under § 6324(a)(2)”). The
effect of this election is that the Government can bring
an action against a Distributee at any time during the
limitations period for collecting against an estate, even
where the Government has not made a timely
assessment against the person pursuant to section
6901(c). See Geniviva, 16 F.3d at 525; United States v.
Botefuhr, 309 F.3d 1263, 1281 (10th Cir. 2002) (“[I]f an
action could be timely commenced against a donor
under the provisions of § 6501 and § 6502, an action
against the donee under § 6324(b)8 will be considered
timely.”).
ii. Section 6503 Interaction with Section 6901
Defendants acknowledge the Tenth Circuit’s
interpretation of the statute, but they nevertheless
contend the law is distinguishable, as applied to them,
because the Tenth Circuit has never expressly
extended its interpretation to apply to section 6166
deferrals. According to Defendants, when the Estate
made a section 6166(a) election, and thus tolled section
6502’s limitation period, section 6901 became
mandatory and exclusive. To support its argument,
Defendants cite to section 6503. Section 6503(d) tolls
the statute of limitations for collecting an estate tax

8

Section 6324(b) imposes personal liability for an overdue gift tax
on donees to the extent of the value of a gift they received. Courts
have determined the personal liability imposed by section
6324(a)(2) and section 6324(b) to be in pari materia, and that the
two subsections should be construed together. See Botefuhr, 309
F.3d at 1276 n. 9 (citing Estate of Sanford v. Comm’r, 308 U.S. 39,
44 (1939) (other citations omitted)).

App. 127
“for the period of any extension of time for payment
granted under [section 6166].” 26 U.S.C. § 6503(d).
Section 6503(k)(3) includes a cross reference that
states, “For suspension in case of . . . [c]laims against
transferees and fiduciaries, see chapter 71.” Chapter 71
of the Internal Revenue Code includes section 6901
through section 6905. Section 6901 is the only section
in chapter 71 that addresses any tolling provisions for
collecting against a transferee. Thus, Defendants argue
that when the Estate elected to defer paying taxes
under section 6166(a), section 6503 mandated that the
IRS follow the rules under section 6901 rather than
6324(a)(2) for collecting taxes against them.
As previously discussed, section 6901 requires that
a transferee be assessed “within 1 year after the
expiration of the period of limitation for assessment
against the transferor,” and provides for a suspension
of the period of limitations on assessment for any
“period during which the Secretary is prohibited from
making the assessment.” 26 U.S.C. § 6901(c)(1), (f).
Therefore, according to Defendants, the Government is
barred from bringing an action against them under
section 6324(a)(2) because the assessment period
imposed by section 6901 has run.
Interpreting section 6503 to mean that section 6901
becomes mandatory when a section 6166(a) election is
made would yield an anomalous result. In an ordinary
case, where a section 6166(a) election is not made, the
Government may bring a collection action against a
section 6324(a)(2) Distributee as long as an action may
be brought against the estate itself. Assuming a timely
assessment was made against the estate, and no other

App. 128
deferrals occurred, a collection action could be brought
against a Distributee up to thirteen years after the
estate tax return was filed.9 This is true regardless of
whether the Distributee has been independently
assessed or not.
Under Defendant’s theory, however, when a section
6166(e) election is made, section 6901 would require an
independent assessment of a Distributee within four
years of the filing of the estate tax return. If no
assessment were made against the Distributee, the
Government would be barred from bringing a collection
action from that point forward. There is no reason, and
Defendants have offered no reason, to suspect that
Congress intended a section 6324(a)(2) Distributee,
who has not been independently assessed, to be subject
to a collection action for up to thirteen years in an
ordinary case, but only four years where a section
6166(e) election is made.
Furthermore, Defendants reliance on a crossreference is indicative of the weakness of their
argument that section 6503(k)(3) makes section 6901
the mandatory method of collecting against a
Distributee. Statutory cross-references are typically
less helpful in conveying meaning than the substantive
language of a statute. Indeed, nothing in the language
of the cross-reference indicates that Congress had in

9

Section 6501 requires the assessment to be made against the
estate within three years of when the tax return was filed. Section
6502(a)(1) requires a collection action to be brought against a
taxpayer within ten years after the tax assessment.

App. 129
mind the situation currently facing the court when it
adopted section 6503(k)(3).
iii.

Section 6503 Tolling Provision

Next, Defendants argue that even if section 6503
does not make section 6901 mandatory, section 6503(d)
should not be read to toll the limitations period for
section 6324(a)(2) Distributees. Instead, section 6503(d)
should be read only to toll the period for collecting the
estate tax because section 6324(a)(2) is a derivative
liability and not a tax itself. Section 6503(d) states:
The running of the period of limitation for
collection of any tax imposed by chapter
11 shall be suspended for the period of
any extension of time for payment
granted under the provisions of section
6161(a)(2) or (b)(2) or under the
provisions of section 6163 or 6166.
26 U.S.C. § 6503(d) (emphasis added). Chapter 11 is
the section of the tax code that relates to the taxation
of estates. Defendants are correct that section
6324(a)(2) makes Distributees liable for an estate tax,
but such liability is not itself a tax. See Baptiste v.
Comm’r, 29 F.3d 1533, 1542 (11th Cir. 1994)
(“Baptiste’s liability under section 6324(a)(2) . . . is not
a tax liability, but is an independent personal
obligation which . . . may be collected in a manner
similar to that employed in collecting tax liabilities.”);
see also United States v. Russell, 532 F.2d 176 (10th
Cir. 1976) (“Russell II”) (“The government’s suit is, in
reality, no more than a simple action in debt.”); cf.
Hamar v. Comm’r, 42 T.C. 867, 877 (1964) (suggesting

App. 130
that while transferee liability “is a liability for a tax,”
it “may not be a tax liability in the ordinary sense”).
Again, however, Tenth Circuit precedent is clear
that as long as the period of time is open for collecting
against an estate, it is open for collecting against a
section 6324(a)(2) Distributee. Thus, even if section
6503(d) does only toll the limitations period for
collecting the estate tax, it nevertheless leaves open
that period. Because it is undisputed that the period for
collecting against the Estate has not run in this case,
the IRS may still pursue collection against the Trustees
and life insurance beneficiaries.
iv. Due Process
Finally, Defendants urge the court to adopt their
reasoning based on principles of equity and due
process. In Russell II, the Tenth Circuit cautioned the
Government that failure to assess a Distributee may
not always be excused simply because an estate
received notice. Russell, 532 F.2d at 177. Moreover, in
United State v. Schneider, the District of North Dakota
rejected the holding in the Russell cases because it
determined that adopting “the government’s position
denies taxpayers the fundamental due process that the
assessment provisions of the Internal Revenue Code
were meant to afford.” No. A1-89-197, 1992 U.S. Dist.
LEXIS 21588, at *2-3, 7 (D.N.D. June 8, 1992). Such
concerns are enhanced when a section 6166(a) deferral
could allow the Government to seek collection of an
estate tax against a Distributee up to twenty-five years
after an estate tax return was filed.

App. 131
Hence, a question remains whether equity or due
process can militate against collecting taxes from a
Distributee. The court does not reach this issue,
however, because the facts of this case support that
Defendants had clear and early notice that the Estate’s
taxes had not been fully paid and that they may be
personally liable. Defendants acknowledged this
obligation in a binding contract. Due process is
therefore not at issue. Nor do principles of equity
demand that the risk Defendants undertook be shifted
to the Government in this case. Accordingly, the court
hereby denies Defendants’ motion to dismiss the first
cause of action against the Trustees and life insurance
beneficiaries.
III.

FIDUCIARY LIABILITY UNDER 31 U.S.C.
§ 3713

The Government’s final claim is that Johnson and
Smith, as personal representatives of the Estate, are
liable for the Estate tax at issue, pursuant to 31 U.S.C.
§ 3713(b). Section 3713(b) states:
A representative of a person or an estate
. . . paying any part of a debt of the person
or estate before paying a claim of the
Government is liable to the extent of the
payment for unpaid claims of the
Government.
31 U.S.C. § 3713(b) (2010). Consequently, when an
estate is insolvent or has insufficient assets to pay its
debts, a personal representative must give priority to
the United States and pay that liability first. If it does
not do so, the representative may be personally liable.

App. 132
Because of the “statute’s broad purpose of securing
adequate revenue for the United States Treasury,
courts have interpreted it liberally.” United States v.
Coppola, 85 F.3d 1015, 1020 (2d Cir. 1996). The statute
has been applied even when a distribution from an
estate “is not, strictly speaking, the payment of a debt.”
Id. “Thus, if an executor . . . distributes any portion of
the estate before all of its tax is paid, he or she is
personally liable, to the extent of the payment or
distribution, for so much of the tax that remains due
and unpaid.” United States v. First Midwest
Bank/Illinois, N.A., No. 94-C-7365, 1997 U.S. Dist.
LEXIS 16913, at *56 (N.D. Ill. Oct. 27, 1997)
(quotations and citation omitted) (hereinafter “First
Midwest”).
Here, Johnson and Smith admit they distributed
assets from the Estate prior to satisfying the
Government’s tax claim. They contend, however, that
they are not personally liable because the Estate had
sufficient assets to pay the tax at the time the
distributions were made. Johnson and Smith point to
the Distribution Agreement to support their contention
because the Heirs agreed, under that document, to pay
the Estate tax as it became due. Since the Estate had
this “right of contribution” from the Heirs, Johnson and
Smith claim this constitutes a sufficient asset for them
to avoid liability. They cite Schwartz v. Commissioner
of Internal Revenue, 560 F.2d 311 (8th Cir. 1977) to
support their contention.
In Schwartz, the Tax Court had evaluated the
assets and liabilities of an estate and concluded that
the estate was insolvent at the time the executor made

App. 133
distributions from it. When discussing the estate’s
liabilities, the Tax Court failed to account for the right
of contributions from third parties for the payment of
notes owed by the estate. Third parties had made
payments on the notes, so “the right of contribution
was of some value.” Id. at 317. In that context, the
Eighth Circuit stated, “[i]t is well settled that the
obligation of a third party, which the estate has agreed
to pay or has given collateral for, is a liability of the
estate with any right of contribution from the third
party representing an asset of the estate.” Id.
Contrary to this rule, the Tax Court had counted
the notes as an obligation of the estate, but failed to
offset that liability by the third parties’ contributions
to pay off that liability. Id. The Eighth Circuit therefore
reversed the Tax Court because it found the court had
“both understated the amount of the estate’s assets and
overstated the amount of its liabilities.” Id. at 317.
Notably, the estate did not assume the liabilities in an
effort to divest itself of all assets. When the estate
assumed the liabilities, it also received the third party
contributions. Moreover, the estate had recourse
against the third parties for payment on the notes.
In contrast, the Distribution Agreement states that
most of the assets of the estate had already been
transferred before the agreement was ever entered.
The remaining assets consisted of about $523,016.90 in
cash; a note for $18,500; and real estate valued at
$199,170 for estate tax purposes. Distribution
Agreement, at 1. Rather than applying these assets to
the tax liability, Johnson and Smith distributed the
assets to themselves and two relatives, with the

App. 134
acknowledgment that the distribution would
“accomplish a complete distribution of the assets of the
Trust.” Id. ¶ 6. Even payments on the note were
distributed to the Heirs and not the Estate.
Furthermore, the Distribution Agreement is
ambiguous as to whether the Estate was a party and
had recourse against the Beneficiaries as third party
contributors. Although the Distribution Agreement
stated that Johnson and Smith were acting as Trustees
and Personal Representatives, the document was
signed by them only as Trustees and Beneficiaries.
They did not sign as Personal Representatives of the
Estate. Thus, it is not clear whether the Estate has the
right to enforce the Distribution Agreement or whether
only Johnson and Smith have the right to enforce the
agreement.
If the Estate does not have the right to enforce the
Distribution Agreement, then the agreement may be
properly interpreted as a “hold harmless agreement” to
protect Johnson and Smith, as Trustees, from personal
tax liability should the Heirs fail to pay the estate tax.
This uncertainty creates an issue of fact that must be
further developed and dismissing the claim under Rule
12(b)(6) would be improper because all factual
inferences must be drawn in favor of the Government.
Finally, even though the agreement states the Heirs
would bear the responsibility to pay the taxes, this is
not the “right of contribution” contemplated by
Schwartz. Indeed, other courts have found such
agreements to be immaterial when determining
liability under section 3713(b).

App. 135
In United States v. Coppola, 85 F.3d 1015 (2d Cir.
1996), an estate had been assessed estate taxes. Rather
than paying the estate taxes, an executor distributed
the estate’s assets to himself and two other relatives.
As part of the distribution, the parties entered into an
agreement that required each of them “to pay any
estate taxes due in proportion to the value of the assets
each received.” Id. at 1017. Nevertheless, the trial court
held that the executor was personally liable because
the distributions depleted the estate’s assets in
violation of section 3713(b). Id. at 1018. The Second
Circuit agreed. Id. at 1020.
Similarly, in First Midwest, an executor argued it
was not personally liable because it had been a party to
a settlement agreement wherein an heir had assumed
responsibility to pay the outstanding estate taxes. First
Midwest, 1997 U.S. Dist. LEXIS 16913, at *17-18.
When the heir failed to pay the taxes, the Government
brought an action against the executor. The executor
argued the settlement agreement had released the
executor from liability because it had made “adequate
provision for the payment of the taxes.” Id. at *58. The
court disagreed. Moreover, it noted that “[n]o other
court has found under any circumstance that such an
agreement relieves an executor of liability for unpaid
taxes.” Id. at *58-59. The court also stated that the
duty to pay estate taxes was not delegable under
section 2002. Id. at *53 (citation omitted). Previously
this court addressed this duty to pay estate taxes and
stated that insolvency is viewed from the perspective of
whether the estate impermissibly attempted to
delegate tax obligations. It is unnecessary, however, for
this court to determine whether the obligation of the

App. 136
Estate to pay taxes could properly be delegated by the
fiduciaries in this case.
There remains a factual dispute for the fact finder
to determine whether the Distribution Agreement is a
viable asset sufficient in value to offset liabilities and
whether the Distribution Agreement provided the
Estate with proper recourse to enforce payment of
estate taxes. If the Distribution Agreement leaves the
Estate with insufficient assets, then the liabilities
would exceed the assets of the Estate and it would be
considered insolvent according to a “balance sheet” test.
Thus, the Government has made a plausible claim that
the Estate was rendered insolvent by the Distribution
Agreement, which is all that is necessary to survive a
Rule 12(b)(6) motion to dismiss.
In this case, the individuals who distributed the
Estate’s assets accepted the risk that the Heirs may
fail to pay the tax. Now that the risk has been realized,
the Government may proceed on its claim against the
Personal Representatives. Because the Government
has stated a cognizable claim under section 3713(b),10
the court denies the motion to dismiss this cause of
action.

10

In a footnote, Defendants argue the Government’s section
3713(b) claim must be limited in scope because the Complaint only
asserts a claim against Johnson and Smith in their capacity as
personal representatives and not as trustees. Because this
argument has not been fully developed, the court will not address
it as this time. The court notes, however, that the Government has
been put on notice about this potential deficiency.

App. 137
CONCLUSION
For the reasons stated above, the court hereby
GRANTS IN PART and DENIES IN PART Defendants’
motion to dismiss.11 The court dismisses Eve H. Smith
without prejudice. Additionally, the court dismisses
any action against the remaining Defendants as
transferees or trust beneficiaries under section
6324(a)(2). The court denies the motion to dismiss the
first cause of action, however, against the Trustees and
against the life insurance beneficiaries to the extent of
the value they received under the insurance policies.
The court also denies the motion to dismiss the second
cause of action.
DATED this 29th day of July, 2013.
BY THE COURT:
/s/Clark Waddoups
Clark Waddoups
United States District Judge

11

Dkt. No. 31.

App. 138

APPENDIX E
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. art. I
Article I
Section 1.
All legislative Powers herein granted shall be vested in
a Congress of the United States, which shall consist of
a Senate and House of Representatives.
***
U.S. Const. amend. V
AMENDMENT V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall
any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for
public use, without just compensation.

App. 139
U.S. Const. amend. XIV
AMENDMENT XIV
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside.
No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
U.S.C. Title 26, §2033. Property in which the
decedent had an interest
The value of the gross estate shall include the value of
all property to the extent of the interest therein of the
decedent at the time of his death.
U.S.C. Title 26, §2035. Adjustments For Certain
Gifts Made Within 3 Years Of Decedent’s Death
(a) Inclusion of certain property in gross estate. --If-(1) the decedent made a transfer (by trust or
otherwise) of an interest in any property, or
relinquished a power with respect to any property,
during the 3-year period ending on the date of the
decedent’s death, and
(2) the value of such property (or an interest therein)
would have been included in the decedent’s gross estate

App. 140
under section 2036 , 2037 , 2038 , or 2042 if such
transferred interest or relinquished power had been
retained by the decedent on the date of his death, the
value of the gross estate shall include the value of any
property (or interest therein) which would have been so
included.
(b) Inclusion of gift tax on gifts made during 3 years
before decedent’s death. --The amount of the gross
estate (determined without regard to this subsection)
shall be increased by the amount of any tax paid under
chapter 12 by the decedent or his estate on any gift
made by the decedent or his spouse during the 3-year
period ending on the date of the decedent’s death.
(c) Other rules relating to transfers within 3 years of
death. -(1) In general. --For purposes of-(A) section 303(b) (relating to distributions in
redemption of stock to pay death taxes),
(B) section 2032A (relating to special valuation of
certain farms, etc., real property), and
(C) subchapter C of chapter 64 (relating to lien for
taxes), the value of the gross estate shall include the
value of all property to the extent of any interest
therein of which the decedent has at any time made a
transfer, by trust or otherwise, during the 3-year period
ending on the date of the decedent’s death.
(2) Coordination with section 6166. --An estate shall be
treated as meeting the 35 percent of adjusted gross
estate requirement of section 6166(a)(1) only if the

App. 141
estate meets such requirement both with and without
the application of subsection (a).
(3) Marital and small transfers. --Paragraph (1) shall
not apply to any transfer (other than a transfer with
respect to a life insurance policy) made during a
calendar year to any donee if the decedent was not
required by section 6019 (other than by reason of
section 6019(2) ) to file any gift tax return for such year
with respect to transfers to such donee.
(d) Exception. --Subsection (a) and paragraph (1) of
subsection (c) shall not apply to any bona fide sale for
an adequate and full consideration in money or money’s
worth.
(e) Treatment of certain transfers from revocable
trusts. --For purposes of this section and section 2038,
any transfer from any portion of a trust during any
period that such portion was treated under section 676
as owned by the decedent by reason of a power in the
grantor (determined without regard to section 672(e) )
shall be treated as a transfer made directly by the
decedent.
U.S.C. Title 26, §2036. Transfers with retained life
estate
(a) General rule
The value of the gross estate shall include the value of
all property to the extent of any interest therein of
which the decedent has at any time made a transfer
(except in case of a bona fide sale for an adequate and
full consideration in money or money’s worth), by trust

App. 142
or otherwise, under which he has retained for his life or
for any period not ascertainable without reference to
his death or for any period which does not in fact end
before his death—
(1) the possession or enjoyment of, or the right to the
income from, the property, or
(2) the right, either alone or in conjunction with any
person, to designate the persons who shall possess or
enjoy the property or the income therefrom.
(b) Voting rights
(1) In general
For purposes of subsection (a)(1), the retention of the
right to vote (directly or indirectly) shares of stock of a
controlled corporation shall be considered to be a
retention of the enjoyment of transferred property.
(2) Controlled corporation
For purposes of paragraph (1), a corporation shall be
treated as a controlled corporation if, at any time after
the transfer of the property and during the 3-year
period ending on the date of the decedent’s death, the
decedent owned (with the application of section 318), or
had the right (either alone or in conjunction with any
person) to vote, stock possessing at least 20 percent of
the total combined voting power of all classes of stock.
(3) Coordination with section 2035
For purposes of applying section 2035 with respect to
paragraph (1), the relinquishment or cessation of

App. 143
voting rights shall be treated as a transfer of property
made by the decedent.
(c) Limitation on application of general rule
This section shall not apply to a transfer made before
March 4, 1931; nor to a transfer made after March 3,
1931, and before June 7, 1932, unless the property
transferred would have been includible in the
decedent’s gross estate by reason of the amendatory
language of the joint resolution of March 3, 1931 (46
Stat. 1516).
U.S.C. Title 26, §2038. Revocable transfers
(a) In general
The value of the gross estate shall include the value of
all property—
(1) Transfers after June 22, 1936
To the extent of any interest therein of which the
decedent has at any time made a transfer (except in
case of a bona fide sale for an adequate and full
consideration in money or money’s worth), by trust or
otherwise, where the enjoyment thereof was subject at
the date of his death to any change through the
exercise of a power (in whatever capacity exercisable)
by the decedent alone or by the decedent in conjunction
with any other person (without regard to when or from
what source the decedent acquired such power), to
alter, amend, revoke, or terminate, or where any such
power is relinquished during the 3 year period ending
on the date of the decedent’s death.

App. 144
(2) Transfers on or before June 22, 1936
To the extent of any interest therein of which the
decedent has at any time made a transfer (except in
case of a bona fide sale for an adequate and full
consideration in money or money’s worth), by trust or
otherwise, where the enjoyment thereof was subject at
the date of his death to any change through the
exercise of a power, either by the decedent alone or in
conjunction with any person, to alter, amend, or
revoke, or where the decedent relinquished any such
power during the 3 year period ending on the date of
the decedent’s death. Except in the case of transfers
made after June 22, 1936, no interest of the decedent
of which he has made a transfer shall be included in
the gross estate under paragraph (1) unless it is
includible under this paragraph.
(b) Date of existence of power
For purposes of this section, the power to alter, amend,
revoke, or terminate shall be considered to exist on the
date of the decedent’s death even though the exercise
of the power is subject to a precedent giving of notice or
even though the alteration, amendment, revocation, or
termination takes effect only on the expiration of a
stated period after the exercise of the power, whether
or not on or before the date of the decedent’s death
notice has been given or the power has been exercised.
In such cases proper adjustment shall be made
representing the interests which would have been
excluded from the power if the decedent had lived, and
for such purpose, if the notice has not been given or the
power has not been exercised on or before the date of

App. 145
his death, such notice shall be considered to have been
given, or the power exercised, on the date of his death.
U.S.C. Title 26, §2042. Proceeds of life insurance
The value of the gross estate shall include the value of
all property-(1) Receivable by the executor. --To the extent of the
amount receivable by the executor as insurance under
policies on the life of the decedent.
(2) Receivable by other beneficiaries. --To the extent of
the amount receivable by all other beneficiaries as
insurance under policies on the life of the decedent
with respect to which the decedent possessed at his
death any of the incidents of ownership, exercisable
either alone or in conjunction with any other person.
For purposes of the preceding sentence, the term
“incident of ownership” includes a reversionary interest
(whether arising by the express terms of the policy or
other instrument or by operation of law) only if the
value of such reversionary interest exceeded 5 percent
of the value of the policy immediately before the death
of the decedent. As used in this paragraph, the term
“reversionary interest” includes a possibility that the
policy, or the proceeds of the policy, may return to the
decedent or his estate, or may be subject to a power of
disposition by him. The value of a reversionary
interest at any time shall be determined (without
regard to the fact of the decedent’s death) by usual
methods of valuation, including the use of tables of
mortality and actuarial principles, pursuant to
regulations prescribed by the Secretary.
In

App. 146
determining the value of a possibility that the policy or
proceeds thereof may be subject to a power of
disposition by the decedent, such possibility shall be
valued as if it were a possibility that such policy or
proceeds may return to the decedent or his estate.
U.S.C. Title 26, §2204. Discharge of fiduciary from
personal liability
(a) General rule
If the executor makes written application to the
Secretary for determination of the amount of the tax
and discharge from personal liability therefor, the
Secretary (as soon as possible, and in any event within
9 months after the making of such application, or, if
the application is made before the return is filed, then
within 9 months after the return is filed, but not after
the expiration of the period prescribed for the
assessment of the tax in section 6501) shall notify the
executor of the amount of the tax. The executor, on
payment of the amount of which he is notified (other
than any amount the time for payment of which is
extended under sections 6161, 6163, or 6166), and on
furnishing any bond which may be required for any
amount for which the time for payment is extended,
shall be discharged from personal liability for any
deficiency in tax thereafter found to be due and shall be
entitled to a receipt or writing showing such discharge.
(b) Fiduciary other than the executor
If a fiduciary (not including a fiduciary in respect of the
estate of a nonresident decedent) other than the
executor makes written application to the Secretary for

App. 147
determination of the amount of any estate tax for
which the fiduciary may be personally liable, and for
discharge from personal liability therefor, the
Secretary upon the discharge of the executor from
personal liability under subsection (a), or upon the
expiration of 6 months after the making of such
application by the fiduciary, if later, shall notify the
fiduciary (1) of the amount of such tax for which it has
been determined the fiduciary is liable, or (2) that it
has been determined that the fiduciary is not liable for
any such tax. Such application shall be accompanied by
a copy of the instrument, if any, under which such
fiduciary is acting, a description of the property held by
the fiduciary, and such other information for purposes
of carrying out the provisions of this section as the
Secretary may require by regulations. On payment of
the amount of such tax for which it has been
determined the fiduciary is liable (other than any
amount the time for payment of which has been
extended under section 6161, 6163, or 6166), and on
furnishing any bond which may be required for any
amount for which the time for payment has been
extended, or on receipt by him of notification of a
determination that he is not liable for any such tax, the
fiduciary shall be discharged from personal liability for
any deficiency in such tax thereafter found to be due
and shall be entitled to a receipt or writing evidencing
such discharge.
(c) Special lien under section 6324A
For purposes of the second sentence of subsection (a)
and the last sentence of subsection (b), an agreement
which meets the requirements of section 6324A

App. 148
(relating to special lien for estate tax deferred under
section 6166) shall be treated as the furnishing of bond
with respect to the amount for which the time for
payment has been extended under section 6166.
(d) Good faith reliance on gift tax returns
If the executor in good faith relies on gift tax returns
furnished under section 6103(e)(3) for determining the
decedent’s adjusted taxable gifts, the executor shall be
discharged from personal liability with respect to any
deficiency of the tax imposed by this chapter which is
attributable to adjusted taxable gifts which—
(1) are made more than 3 years before the date of the
decedent’s death, and
(2) are not shown on such returns.
U.S.C. Title 26, §3505. Liability of third parties
paying or providing for wages
(a) Direct payment by third parties
For purposes of sections 3102, 3202, 3402, and 3403, if
a lender, surety, or other person, who is not an
employer under such sections with respect to an
employee or group of employees, pays wages directly to
such an employee or group of employees, employed by
one or more employers, or to an agent on behalf of such
employee or employees, such lender, surety, or other
person shall be liable in his own person and estate to
the United States in a sum equal to the taxes (together
with interest) required to be deducted and withheld
from such wages by such employer.

App. 149
(b) Personal liability where funds are supplied
If a lender, surety, or other person supplies funds to or
for the account of an employer for the specific purpose
of paying wages of the employees of such employer,
with actual notice or knowledge (within the meaning of
section 6323(i)(1)) that such employer does not intend
to or will not be able to make timely payment or
deposit of the amounts of tax required by this subtitle
to be deducted and withheld by such employer from
such wages, such lender, surety, or other person shall
be liable in his own person and estate to the United
States in a sum equal to the taxes (together with
interest) which are not paid over to the United States
by such employer with respect to such wages. However,
the liability of such lender, surety, or other person shall
be limited to an amount equal to 25 percent of the
amount so supplied to or for the account of such
employer for such purpose.
(c) Effect of payment
Any amounts paid to the United States pursuant to
this section shall be credited against the liability of the
employer.
U.S.C. Title 26, §6166. Extension of time for
payment of estate tax where estate consists
largely of interest in closely held business
(a) 5-year deferral; 10-year installment payment
(1) In general
If the value of an interest in a closely held business
which is included in determining the gross estate of a

App. 150
decedent who was (at the date of his death) a citizen or
resident of the United States exceeds 35 percent of the
adjusted gross estate, the executor may elect to pay
part or all of the tax imposed by section 2001 in 2 or
more (but not exceeding 10) equal installments.
(2) Limitation
The maximum amount of tax which may be paid in
installments under this subsection shall be an amount
which bears the same ratio to the tax imposed by
section 2001 (reduced by the credits against such tax)
as—
(A) the closely held business amount, bears to
(B) the amount of the adjusted gross estate.
(3) Date for payment of installments
If an election is made under paragraph (1), the first
installment shall be paid on or before the date selected
by the executor which is not more than 5 years after
the date prescribed by section 6151(a) for payment of
the tax, and each succeeding installment shall be paid
on or before the date which is 1 year after the date
prescribed by this paragraph for payment of the
preceding installment.
(b) Definitions and special rules
(1) Interest in closely held business
For purposes of this section, the term “interest in a
closely held business” means—
(A) an interest as a proprietor in a trade or business
carried on as a proprietorship;

App. 151
(B) an interest as a partner in a partnership carrying
on a trade or business, if—
(i) 20 percent or more of the total capital interest in
such partnership is included in determining the gross
estate of the decedent, or
(ii) such partnership had 45 or fewer partners; or
(C) stock in a corporation carrying on a trade or
business if—
(i) 20 percent or more in value of the voting stock of
such corporation is included in determining the gross
estate of the decedent, or
(ii) such corporation had 45 or fewer shareholders.
(2) Rules for applying paragraph (1)
For purposes of paragraph (1)—
(A) Time for testing
Determinations shall be made as of the time
immediately before the decedent’s death.
(B) Certain interests held by husband and wife
Stock or a partnership interest which—
(i) is community property of a husband and wife (or the
income from which is community income) under the
applicable community property law of a State, or
(ii) is held by a husband and wife as joint tenants,
tenants by the entirety, or tenants in common, shall be
treated as owned by one shareholder or one partner, as
the case may be.

App. 152
(C) Indirect ownership
Property owned, directly or indirectly, by or for a
corporation, partnership, estate, or trust shall be
considered as being owned proportionately by or for its
shareholders, partners, or beneficiaries. For purposes
of the preceding sentence, a person shall be treated as
a beneficiary of any trust only if such person has a
present interest in the trust.
(D) Certain interests held by members of decedent’s
family
All stock and all partnership interests held by the
decedent or by any member of his family (within the
meaning of section 267(c)(4)) shall be treated as owned
by the decedent.
(3) Farmhouses and certain other structures taken into
account
For purposes of the 35-percent requirement of
subsection (a)(1), an interest in a closely held business
which is the business of farming includes an interest in
residential buildings and related improvements on the
farm which are occupied on a regular basis by the
owner or lessee of the farm or by persons employed by
such owner or lessee for purposes of operating or
maintaining the farm.
(4) Value
For purposes of this section, value shall be value
determined for purposes of chapter 11 (relating to
estate tax).

App. 153
(5) Closely held business amount
For purposes of this section, the term “closely held
business amount” means the value of the interest in a
closely held business which qualifies under subsection
(a)(1).
(6) Adjusted gross estate
For purposes of this section, the term, “adjusted gross
estate” means the value of the gross estate reduced by
the sum of the amounts allowable as a deduction under
section 2053 or 2054. Such sum shall be determined on
the basis of the facts and circumstances in existence on
the date (including extensions) for filing the return of
tax imposed by section 2001 (or, if earlier, the date on
which such return is filed).
(7) Partnership interests and stock which is not readily
tradable
(A) In general
If the executor elects the benefits of this paragraph (at
such time and in such manner as the Secretary shall by
regulations prescribe), then—
(i) for purposes of paragraph (1)(B)(i) or (1)(C)(i)
(whichever is appropriate) and for purposes of
subsection (c), any capital interest in a partnership and
any non-readily-tradable stock which (after the
application of paragraph (2)) is treated as owned by the
decedent shall be treated as included in determining
the value of the decedent’s gross estate,

App. 154
(ii) the executor shall be treated as having selected
under subsection (a)(3) the date prescribed by section
6151(a), and
(iii) for purposes of applying section 6601(j), the 2percent portion (as defined in such section) shall be
treated as being zero.
(B) Non-readily-tradable stock defined
For purposes of this paragraph, the term “non-readilytradable stock” means stock for which, at the time of
the decedent’s death, there was no market on a stock
exchange or in an over-the-counter market.
(8) Stock in holding company treated as business
company stock in certain cases
(A) In general
If the executor elects the benefits of this paragraph,
then—
(i) Holding company stock treated as business company
stock
For purposes of this section, the portion of the stock of
any holding company which represents direct
ownership (or indirect ownership through 1 or more
other holding companies) by such company in a
business company shall be deemed to be stock in such
business company.
(ii) 5-year deferral for principal not to apply
The executor shall be treated as having selected under
subsection (a)(3) the date prescribed by section 6151(a).

App. 155
(iii) 2-percent interest rate not to apply
For purposes of applying section 6601(j), the 2-percent
portion (as defined in such section) shall be treated as
being zero.
(B) All stock must be non-readily-tradable stock
(i) In general
No stock shall be taken into account for purposes of
applying this paragraph unless it is non-readilytradable stock (within the meaning of paragraph
(7)(B)).
(ii) Special application where only holding company
stock is non-readily-tradable stock
If the requirements of clause (i) are not met, but all of
the stock of each holding company taken into account
is non-readily-tradable, then this paragraph shall
apply, but subsection (a)(1) shall be applied by
substituting “5” for “10”.
(C) Application of voting stock requirement of
paragraph (1)(C)(i)
For purposes of clause (i) of paragraph (1)(C), the
deemed stock resulting from the application of
subparagraph (A) shall be treated as voting stock to the
extent that voting stock in the holding company owns
directly (or through the voting stock of 1 or more other
holding companies) voting stock in the business
company.
(D) Definitions
For purposes of this paragraph—

App. 156
(i) Holding company
The term “holding company” means any corporation
holding stock in another corporation.
(ii) Business company
The term “business company” means any corporation
carrying on a trade or business.
(9) Deferral not available for passive assets
(A) In general
For purposes of subsection (a)(1) and determining the
closely held business amount (but not for purposes of
subsection (g)), the value of any interest in a closely
held business shall not include the value of that portion
of such interest which is attributable to passive assets
held by the business.
(B) Passive asset defined
For purposes of this paragraph—
(i) In general
The term “passive asset” means any asset other than
an asset used in carrying on a trade or business.
(ii) Stock treated as passive asset
The term “passive asset” includes any stock in another
corporation unless—
(I) such stock is treated as held by the decedent by
reason of an election under paragraph (8), and
(II) such stock qualified under subsection (a)(1).

App. 157
(iii) Exception for active corporations
If—
(I) a corporation owns 20 percent or more in value of
the voting stock of another corporation, or such other
corporation has 45 or fewer shareholders, and
(II) 80 percent or more of the value of the assets of each
such corporation is attributable to assets used in
carrying on a trade or business, then such corporations
shall be treated as 1 corporation for purposes of clause
(ii). For purposes of applying subclause (II) to the
corporation holding the stock of the other corporation,
such stock shall not be taken into account.
(10) Stock in qualifying lending and finance business
treated as stock in an active trade or business company
(A) In general
If the executor elects the benefits of this paragraph,
then—
(i) Stock in qualifying lending and finance business
treated as stock in an active trade or business company
For purposes of this section, any asset used in a
qualifying lending and finance business shall be
treated as an asset which is used in carrying on a trade
or business.
(ii) 5-year deferral for principal not to apply
The executor shall be treated as having selected under
subsection (a)(3) the date prescribed by section 6151(a).

App. 158
(iii) 5 equal installments allowed
For purposes of applying subsection (a)(1), “5” shall be
substituted for “10”.
(B) Definitions
For purposes of this paragraph—
(i) Qualifying lending and finance business
The term “qualifying lending and finance business”
means a lending and finance business, if—
(I) based on all the facts and circumstances
immediately before the date of the decedent’s death,
there was substantial activity with respect to the
lending and finance business, or
(II) during at least 3 of the 5 taxable years ending
before the date of the decedent’s death, such business
had at least 1 full-time employee substantially all of
whose services were the active management of such
business, 10 full-time, nonowner employees
substantially all of whose services were directly related
to such business, and $5,000,000 in gross receipts from
activities described in clause (ii).
(ii) Lending and finance business
The term “lending and finance business” means a trade
or business of—
(I) making loans,
(II) purchasing or discounting accounts receivable,
notes, or installment obligations,

App. 159
(III) engaging in rental and leasing of real and tangible
personal property, including entering into leases and
purchasing, servicing, and disposing of leases and
leased assets,
(IV) rendering services or making facilities available in
the ordinary course of a lending or finance business,
and
(V) rendering services or making facilities available in
connection with activities described in subclauses (I)
through (IV) carried on by the corporation rendering
services or making facilities available, or another
corporation which is a member of the same affiliated
group (as defined in section 1504 without regard to
section 1504(b)(3)).
(iii) Limitation
The term “qualifying lending and finance business”
shall not include any interest in an entity, if the stock
or debt of such entity or a controlled group (as defined
in section 267(f)(1)) of which such entity was a member
was readily tradable on an established securities
market or secondary market (as defined by the
Secretary) at any time within 3 years before the date of
the decedent’s death.
(c) Special rule for interest in 2 or more closely held
businesses
For purposes of this section, interest in 2 or more
closely held businesses, with respect to each of which
there is included in determining the value of the
decedent’s gross estate 20 percent or more of the total
value of each such business, shall be treated as an

App. 160
interest in a single closely held business. For purposes
of the 20-percent requirement of the preceding
sentence, an interest in a closely held business which
represents the surviving spouse’s interest in property
held by the decedent and the surviving spouse as
community property or as joint tenants, tenants by the
entirety, or tenants in common shall be treated as
having been included in determining the value of the
decedent’s gross estate.
(d) Election
Any election under subsection (a) shall be made not
later than the time prescribed by section 6075(a) for
filing the return of tax imposed by section 2001
(including extensions thereof), and shall be made in
such manner as the Secretary shall by regulations
prescribe. If an election under subsection (a) is made,
the provisions of this subtitle shall apply as though the
Secretary were extending the time for payment of the
tax.
(e) Proration of deficiency to installments
If an election is made under subsection (a) to pay any
part of the tax imposed by section 2001 in installments
and a deficiency has been assessed, the deficiency shall
(subject to the limitation provided by subsection (a)(2))
be prorated to the installments payable under
subsection (a). The part of the deficiency so prorated to
any installment the date for payment of which has not
arrived shall be collected at the same time as, and as a
part of, such installment. The part of the deficiency so
prorated to any installment the date for payment of
which has arrived shall be paid upon notice and

App. 161
demand from the Secretary. This subsection shall not
apply if the deficiency is due to negligence, to
intentional disregard of rules and regulations, or to
fraud with intent to evade tax.
(f) Time for payment of interest
If the time for payment of any amount of tax has been
extended under this section—
(1) Interest for first 5 years
Interest payable under section 6601 of any unpaid
portion of such amount attributable to the first 5 years
after the date prescribed by section 6151(a) for
payment of the tax shall be paid annually.
(2) Interest for periods after first 5 years
Interest payable under section 6601 on any unpaid
portion of such amount attributable to any period after
the 5-year period referred to in paragraph (1) shall be
paid annually at the same time as, and as a part of,
each installment payment of the tax.
(3) Interest in the case of certain deficiencies
In the case of a deficiency to which subsection (e)
applies which is assessed after the close of the 5-year
period referred to in paragraph (1), interest
attributable to such 5-year period, and interest
assigned under paragraph (2) to any installment the
date for payment of which has arrived on or before the
date of the assessment of the deficiency, shall be paid
upon notice and demand from the Secretary.

App. 162
(4) Selection of shorter period
If the executor has selected a period shorter than 5
years under subsection (a)(3), such shorter period shall
be substituted for 5 years in paragraphs (1), (2), and (3)
of this subsection.
(g) Acceleration of payment
(1) Disposition of interest; withdrawal of funds from
business
(A) If—
(i)(I) any portion of an interest in a closely held
business which qualifies under subsection (a)(1) is
distributed, sold, exchanged, or otherwise disposed of,
or
(II) money and other property attributable to such an
interest is withdrawn from such trade or business, and
(ii) the aggregate of such distributions, sales,
exchanges, or other dispositions and withdrawals
equals or exceeds 50 percent of the value of such
interest, then the extension of time for payment of tax
provided in subsection (a) shall cease to apply, and the
unpaid portion of the tax payable in installments shall
be paid upon notice and demand from the Secretary.
(B) In the case of a distribution in redemption of stock
to which section 303 (or so much of section 304 as
relates to section 303) applies—
(i) the redemption of such stock, and the withdrawal of
money and other property distributed in such

App. 163
redemption, shall not be treated as a distribution or
withdrawal for purposes of subparagraph (A), and
(ii) for purposes of subparagraph (A), the value of the
interest in the closely held business shall be considered
to be such value reduced by the value of the stock
redeemed.
This subparagraph shall apply only if, on or before the
date prescribed by subsection (a)(3) for the payment of
the first installment which becomes due after the date
of the distribution (or, if earlier, on or before the day
which is 1 year after the date of the distribution), there
is paid an amount of the tax imposed by section 2001
not less than the amount of money and other property
distributed.
(C) Subparagraph (A)(i) does not apply to an exchange
of stock pursuant to a plan of reorganization described
in subparagraph (D), (E), or (F) of section 368(a)(1) nor
to an exchange to which section 355 (or so much of
section 356 as relates to section 355) applies; but any
stock received in such an exchange shall be treated for
purposes of subparagraph (A)(i) as an interest
qualifying under subsection (a)(1).
(D) Subparagraph (A)(i) does not apply to a transfer of
property of the decedent to a person entitled by reason
of the decedent’s death to receive such property under
the decedent’s will, the applicable law of descent and
distribution, or a trust created by the decedent. A
similar rule shall apply in the case of a series of
subsequent transfers of the property by reason of death
so long as each transfer is to a member of the family

App. 164
(within the meaning of section 267(c)(4)) of the
transferor in such transfer.
(E) Changes in interest in holding company
If any stock in a holding company is treated as stock in
a business company by reason of subsection (b)(8)(A)—
(i) any disposition of any interest in such stock in such
holding company which was included in determining
the gross estate of the decedent, or
(ii) any withdrawal of any money or other property
from such holding company attributable to any interest
included in determining the gross estate of the
decedent, shall be treated for purposes of subparagraph
(A) as a disposition of (or a withdrawal with respect to)
the stock qualifying under subsection (a)(1).
(F) Changes in interest in business company
If any stock in a holding company is treated as stock in
a business company by reason of subsection (b)(8)(A)—
(i) any disposition of any interest in such stock in the
business company by such holding company, or
(ii) any withdrawal of any money or other property
from such business company attributable to such stock
by such holding company owning such stock, shall be
treated for purposes of subparagraph (A) as a
disposition of (or a withdrawal with respect to) the
stock qualifying under subsection (a)(1).
(2) Undistributed income of estate
(A) If an election is made under this section and the
estate has undistributed net income for any taxable

App. 165
year ending on or after the due date for the first
installment, the executor shall, on or before the date
prescribed by law for filing the income tax return for
such taxable year (including extensions thereof), pay an
amount equal to such undistributed net income in
liquidation of the unpaid portion of the tax payable in
installments.
(B) For purposes of subparagraph (A), the
undistributed net income of the estate for any taxable
year is the amount by which the distributable net
income of the estate for such taxable year (as defined in
section 643) exceeds the sum of—
(i) the amounts for such taxable year specified in
paragraphs (1) and (2) of section 661(a) (relating to
deductions for distributions, etc.);
(ii) the amount of tax imposed for the taxable year on
the estate under chapter 1; and
(iii) the amount of the tax imposed by section 2001
(including interest) paid by the executor during the
taxable year (other than any amount paid pursuant to
this paragraph).
(C) For purposes of this paragraph, if any stock in a
corporation is treated as stock in another corporation
by reason of subsection (b)(8)(A), any dividends paid by
such other corporation to the corporation shall be
treated as paid to the estate of the decedent to the
extent attributable to the stock qualifying under
subsection (a)(1).

App. 166
(3) Failure to make payment of principal or interest
(A) In general
Except as provided in subparagraph (B), if any
payment of principal or interest under this section is
not paid on or before the date fixed for its payment by
this section (including any extension of time), the
unpaid portion of the tax payable in installments shall
be paid upon notice and demand from the Secretary.
(B) Payment within 6 months
If any payment of principal or interest under this
section is not paid on or before the date determined
under subparagraph (A) but is paid within 6 months of
such date—
(i) the provisions of subparagraph (A) shall not apply
with respect to such payment,
(ii) the provisions of section 6601(j) shall not apply with
respect to the determination of interest on such
payment, and
(iii) there is imposed a penalty in an amount equal to
the product of—
(I) 5 percent of the amount of such payment, multiplied
by
(II) the number of months (or fractions thereof) after
such date and before payment is made.
The penalty imposed under clause (iii) shall be treated
in the same manner as a penalty imposed under
subchapter B of chapter 68.

App. 167
(h) Election in case of certain deficiencies
(1) In general
If—
(A) a deficiency in the tax imposed by section 2001 is
assessed,
(B) the estate qualifies under subsection (a)(1), and
(C) the executor has not made an election under
subsection (a), the executor may elect to pay the
deficiency in installments. This subsection shall not
apply if the deficiency is due to negligence, to
intentional disregard of rules and regulations, or to
fraud with intent to evade tax.
(2) Time of election
An election under this subsection shall be made not
later than 60 days after issuance of notice and demand
by the Secretary for the payment of the deficiency, and
shall be made in such manner as the Secretary shall by
regulations prescribe.
(3) Effect of election on payment
If an election is made under this subsection, the
deficiency shall (subject to the limitation provided by
subsection (a)(2)) be prorated to the installments which
would have been due if an election had been timely
made under subsection (a) at the time the estate tax
return was filed. The part of the deficiency so prorated
to any installment the date for payment of which would
have arrived shall be paid at the time of the making of
the election under this subsection. The portion of the

App. 168
deficiency so prorated to installments the date for
payment of which would not have so arrived shall be
paid at the time such installments would have been
due if such an election had been made.
(i) Special rule for certain direct skips
To the extent that an interest in a closely held business
is the subject of a direct skip (within the meaning of
section 2612(c)) occurring at the same time as and as a
result of the decedent’s death, then for purposes of this
section any tax imposed by section 2601 on the transfer
of such interest shall be treated as if it were additional
tax imposed by section 2001.
(j) Regulations
The Secretary shall prescribe such regulations as may
be necessary to the application of this section.
(k) Cross references
(1) Security
For authority of the Secretary to require security
in the case of an extension under this section, see
section 6165.
(2) Lien
For special lien (in lieu of bond) in the case of an
extension under this section, see section 6324A.
(3) Period of limitation
For extension of the period of limitation in the
case of an extension under this section, see
section 6503(d).

App. 169
(4) Interest
For provisions relating to interest on tax payable
in installments under this section, see subsection
(j) of section 6601.
(5) Transfers within 3 years of death
For special rule for qualifying an estate under
this section where property has been transferred
within 3 years of decedent’s death, see section
2035(c)(2).
U.S.C. Title 26, §6203. Method of assessment
The assessment shall be made by recording the liability
of the taxpayer in the office of the Secretary in
accordance with rules or regulations prescribed by the
Secretary. Upon request of the taxpayer, the Secretary
shall furnish the taxpayer a copy of the record of the
assessment.
U.S.C. Title 26, §6212. Notice of deficiency
(a) In general
If the Secretary determines that there is a deficiency in
respect of any tax imposed by subtitles A or B or
chapter 41, 42, 43, or 44 he is authorized to send notice
of such deficiency to the taxpayer by certified mail or
registered mail. Such notice shall include a notice to
the taxpayer of the taxpayer’s right to contact a local
office of the taxpayer advocate and the location and
phone number of the appropriate office.

App. 170
(b) Address for notice of deficiency
(1) Income and gift taxes and certain excise taxes
In the absence of notice to the Secretary under section
6903 of the existence of a fiduciary relationship, notice
of a deficiency in respect of a tax imposed by subtitle A,
chapter 12, chapter 41, chapter 42, chapter 43, or
chapter 44 if mailed to the taxpayer at his last known
address, shall be sufficient for purposes of subtitle A,
chapter 12, chapter 41, chapter 42, chapter 43, chapter
44, and this chapter even if such taxpayer is deceased,
or is under a legal disability, or, in the case of a
corporation, has terminated its existence.
(2) Joint income tax return
In the case of a joint income tax return filed by
husband and wife, such notice of deficiency may be a
single joint notice, except that if the Secretary has been
notified by either spouse that separate residences have
been established, then, in lieu of the single joint notice,
a duplicate original of the joint notice shall be sent by
certified mail or registered mail to each spouse at his
last known address.
(3) Estate tax
In the absence of notice to the Secretary under section
6903 of the existence of a fiduciary relationship, notice
of a deficiency in respect of a tax imposed by chapter
11, if addressed in the name of the decedent or other
person subject to liability and mailed to his last known
address, shall be sufficient for purposes of chapter 11
and of this chapter.

App. 171
(c) Further deficiency letters restricted
(1) General rule
If the Secretary has mailed to the taxpayer a notice of
deficiency as provided in subsection (a), and the
taxpayer files a petition with the Tax Court within the
time prescribed in section 6213(a), the Secretary shall
have no right to determine any additional deficiency of
income tax for the same taxable year, of gift tax for the
same calendar year, of estate tax in respect of the
taxable estate of the same decedent, of chapter 41 tax
for the same taxable year, of chapter 43 tax for the
same taxable year, of chapter 44 tax for the same
taxable year, of section 4940 tax for the same taxable
year, or of chapter 42 tax, (other than under section
4940) with respect to any act (or failure to act) to which
such petition relates, except in the case of fraud, and
except as provided in section 6214(a) (relating to
assertion of greater deficiencies before the Tax Court),
in section 6213(b)(1) (relating to mathematical or
clerical errors), in section 6851 or 6852 (relating to
termination assessments), or in section 6861(c)
(relating to the making of jeopardy assessments).
(2) Cross references
For assessment as a deficiency notwithstanding
the prohibition of further deficiency letters, in
the case of—
(A) Deficiency attributable to change of
treatment with respect to itemized deductions,
see section 63(e)(3).

App. 172
(B) Deficiency attributable to gain on
involuntary conversion, see section 1033(a)(2)(C)
and (D).
(C) Deficiency attributable to activities not
engaged in for profit, see section 183(e)(4).
For provisions allowing determination of tax in
title 11 cases, see section 505(a) of title 11 of the
United States Code.
(d) Authority to rescind notice of deficiency with
taxpayer’s consent
The Secretary may, with the consent of the taxpayer,
rescind any notice of deficiency mailed to the taxpayer.
Any notice so rescinded shall not be treated as a notice
of deficiency for purposes of subsection (c)(1) (relating
to further deficiency letters restricted), section 6213(a)
(relating to restrictions applicable to deficiencies;
petition to Tax Court), and section 6512(a) (relating to
limitations in case of petition to Tax Court), and the
taxpayer shall have no right to file a petition with the
Tax Court based on such notice. Nothing in this
subsection shall affect any suspension of the running of
any period of limitations during any period during
which the rescinded notice was outstanding.
U.S.C. Title 26, §6213. Restrictions applicable to
deficiencies; petition to Tax Court
(a) Time for filing petition and restriction on assessment
Within 90 days, or 150 days if the notice is addressed
to a person outside the United States, after the notice
of deficiency authorized in section 6212 is mailed (not

App. 173
counting Saturday, Sunday, or a legal holiday in the
District of Columbia as the last day), the taxpayer may
file a petition with the Tax Court for a redetermination
of the deficiency. Except as otherwise provided in
section 6851, 6852, or 6861 no assessment of a
deficiency in respect of any tax imposed by subtitle A,
or B, chapter 41, 42, 43, or 44 and no levy or proceeding
in court for its collection shall be made, begun, or
prosecuted until such notice has been mailed to the
taxpayer, nor until the expiration of such 90-day or
150-day period, as the case may be, nor, if a petition
has been filed with the Tax Court, until the decision of
the Tax Court has become final. Notwithstanding the
provisions of section 7421(a), the making of such
assessment or the beginning of such proceeding or levy
during the time such prohibition is in force may be
enjoined by a proceeding in the proper court, including
the Tax Court, and a refund may be ordered by such
court of any amount collected within the period during
which the Secretary is prohibited from collecting by
levy or through a proceeding in court under the
provisions of this subsection. The Tax Court shall have
no jurisdiction to enjoin any action or proceeding or
order any refund under this subsection unless a timely
petition for a redetermination of the deficiency has
been filed and then only in respect of the deficiency
that is the subject of such petition. Any petition filed
with the Tax Court on or before the last date specified
for filing such petition by the Secretary in the notice of
deficiency shall be treated as timely filed.

App. 174
(b) Exceptions to restrictions on assessment
(1) Assessments arising out of mathematical or clerical
errors
If the taxpayer is notified that, on account of a
mathematical or clerical error appearing on the return,
an amount of tax in excess of that shown on the return
is due, and that an assessment of the tax has been or
will be made on the basis of what would have been the
correct amount of tax but for the mathematical or
clerical error, such notice shall not be considered as a
notice of deficiency for the purposes of subsection (a)
(prohibiting assessment and collection until notice of
the deficiency has been mailed), or of section 6212(c)(1)
(restricting further deficiency letters), or of section
6512(a) (prohibiting credits or refunds after petition to
the Tax Court), and the taxpayer shall have no right to
file a petition with the Tax Court based on such notice,
nor shall such assessment or collection be prohibited by
the provisions of subsection (a) of this section. Each
notice under this paragraph shall set forth the error
alleged and an explanation thereof.
(2) Abatement of assessment of mathematical or clerical
errors
(A) Request for abatement
Notwithstanding section 6404(b), a taxpayer may file
with the Secretary within 60 days after notice is sent
under paragraph (1) a request for an abatement of any
assessment specified in such notice, and upon receipt
of such request, the Secretary shall abate the
assessment. Any reassessment of the tax with respect
to which an abatement is made under this

App. 175
subparagraph shall be subject to the deficiency
procedures prescribed by this subchapter.
(B) Stay of collection
In the case of any assessment referred to in paragraph
(1), notwithstanding paragraph (1), no levy or
proceeding in court for the collection of such
assessment shall be made, begun, or prosecuted during
the period in which such assessment may be abated
under this paragraph.
(3) Assessments arising out of tentative carryback or
refund adjustments
If the Secretary determines that the amount applied,
credited, or refunded under section 6411 is in excess of
the overassessment attributable to the carryback or the
amount described in section 1341(b)(1) with respect to
which such amount was applied, credited, or refunded,
he may assess without regard to the provisions of
paragraph (2) the amount of the excess as a deficiency
as if it were due to a mathematical or clerical error
appearing on the return.
(4) Assessment of amount paid
Any amount paid as a tax or in respect of a tax may be
assessed upon the receipt of such payment
notwithstanding the provisions of subsection (a). In any
case where such amount is paid after the mailing of a
notice of deficiency under section 6212, such payment
shall not deprive the Tax Court of jurisdiction over
such deficiency determined under section 6211 without
regard to such assessment.

App. 176
(5) Certain orders of criminal restitution
If the taxpayer is notified that an assessment has been
or will be made pursuant to section 6201(a)(4)—
(A) such notice shall not be considered as a notice of
deficiency for the purposes of subsection (a)
(prohibiting assessment and collection until notice of
the deficiency has been mailed), section 6212(c)(1)
(restricting further deficiency letters), or section
6512(a) (prohibiting credits or refunds after petition to
the Tax Court), and
(B) subsection (a) shall not apply with respect to the
amount of such assessment.
(c) Failure to file petition
If the taxpayer does not file a petition with the Tax
Court within the time prescribed in subsection (a), the
deficiency, notice of which has been mailed to the
taxpayer, shall be assessed, and shall be paid upon
notice and demand from the Secretary.
(d) Waiver of restrictions
The taxpayer shall at any time (whether or not a notice
of deficiency has been issued) have the right, by a
signed notice in writing filed with the Secretary, to
waive the restrictions provided in subsection (a) on the
assessment and collection of the whole or any part of
the deficiency.
(e) Suspension of filing period for certain excise taxes
The running of the time prescribed by subsection (a) for
filing a petition in the Tax Court with respect to the

App. 177
taxes imposed by section 4941 (relating to taxes on selfdealing), 4942 (relating to taxes on failure to distribute
income), 4943 (relating to taxes on excess business
holdings), 4944 (relating to investments which
jeopardize charitable purpose), 4945 (relating to taxes
on taxable expenditures), 4951 (relating to taxes on
self-dealing), or 4952 (relating to taxes on taxable
expenditures), 4955 (relating to taxes on political
expenditures), 4958 (relating to private excess benefit),
4971 (relating to excise taxes on failure to meet
minimum funding standard), 4975 (relating to excise
taxes on prohibited transactions) shall be suspended
for any period during which the Secretary has extended
the time allowed for making correction under section
4963(e).
(f) Coordination with title 11
(1) Suspension of running of period for filing petition in
title 11 cases
In any case under title 11 of the United States Code,
the running of the time prescribed by subsection (a) for
filing a petition in the Tax Court with respect to any
deficiency shall be suspended for the period during
which the debtor is prohibited by reason of such case
from filing a petition in the Tax Court with respect to
such deficiency, and for 60 days thereafter.
(2) Certain action not taken into account
For purposes of the second and third sentences of
subsection (a), the filing of a proof of claim or request
for payment (or the taking of any other action) in a case
under title 11 of the United States Code shall not be
treated as action prohibited by such second sentence.

App. 178
(g) Definitions
For purposes of this section—
(1) Return
The term “return” includes any return, statement,
schedule, or list, and any amendment or supplement
thereto, filed with respect to any tax imposed by
subtitle A or B, or chapter 41, 42, 43, or 44.
(2) Mathematical or clerical error
The term “mathematical or clerical error” means—
(A) an error in addition, subtraction, multiplication, or
division shown on any return,
(B) an incorrect use of any table provided by the
Internal Revenue Service with respect to any return if
such incorrect use is apparent from the existence of
other information on the return,
(C) an entry on a return of an item which is
inconsistent with another entry of the same or another
item on such return,
(D) an omission of information which is required to be
supplied on the return to substantiate an entry on the
return,
(E) an entry on a return of a deduction or credit in an
amount which exceeds a statutory limit imposed by
subtitle A or B, or chapter 41, 42, 43, or 44, if such
limit is expressed—
(i) as a specified monetary amount, or

App. 179
(ii) as a percentage, ratio, or fraction,
and if the items entering into the application of such
limit appear on such return,
(F) an omission of a correct taxpayer identification
number required under section 32 (relating to the
earned income credit) to be included on a return,
(G) an entry on a return claiming the credit under
section 32 with respect to net earnings from selfemployment described in section 32(c)(2)(A) to the
extent the tax imposed by section 1401 (relating to selfemployment tax) on such net earnings has not been
paid,
(H) an omission of a correct TIN required under section
21 (relating to expenses for household and dependent
care services necessary for gainful employment) or
section 151 (relating to allowance of deductions for
personal exemptions),
(I) an omission of a correct TIN required under section
24(e) (relating to child tax credit) to be included on a
return,
(J) an omission of a correct TIN required under section
25A(g)(1) (relating to higher education tuition and
related expenses) to be included on a return,
(K) an omission of information required by section
32(k)(2) (relating to taxpayers making improper prior
claims of earned income credit) or an entry on the
return claiming the credit under section 32 for a
taxable year for which the credit is disallowed under
subsection (k)(1) thereof,

App. 180
(L) the inclusion on a return of a TIN required to be
included on the return under section 21, 24, or 32 if—
(i) such TIN is of an individual whose age affects the
amount of the credit under such section, and
(ii) the computation of the credit on the return reflects
the treatment of such individual as being of an age
different from the individual’s age based on such TIN,
(M) the entry on the return claiming the credit under
section 32 with respect to a child if, according to the
Federal Case Registry of Child Support Orders
established under section 453(h) of the Social Security
Act, the taxpayer is a noncustodial parent of such child,
(N) an omission of any increase required under section
36(f) with respect to the recapture of a credit allowed
under section 36,
(O) the inclusion on a return of an individual taxpayer
identification number issued under section 6109(i)
which has expired, been revoked by the Secretary, or is
otherwise invalid,
(P) an omission of information required by section
24(g)(2) or an entry on the return claiming the credit
under section 24 for a taxable year for which the credit
is disallowed under subsection (g)(1) thereof, and
(Q) an omission of information required by section
25A(b)(4)(B) or an entry on the return claiming the
American Opportunity Tax Credit for a taxable year for
which such credit is disallowed under section
25A(b)(4)(A).

App. 181
A taxpayer shall be treated as having omitted a correct
TIN for purposes of the preceding sentence if
information provided by the taxpayer on the return
with respect to the individual whose TIN was provided
differs from the information the Secretary obtains from
the person issuing the TIN.
(h) Cross references
(1) For assessment as if a mathematical error on
the return, in the case of erroneous claims for
income tax prepayment credits, see section
6201(a)(3).
(2) For assessments without regard to
restrictions imposed by this section in the case
of—
(A) Recovery of foreign income taxes, see section
905(c).
(B) Recovery of foreign estate tax, see section
2016.
(3) For provisions relating to application of this
subchapter in the case of certain partnership
items, etc., see section 6230(a).
U.S.C. Title 26, §6302. Mode or time of collection
(a) Establishment by regulations
If the mode or time for collecting any tax is not
provided for by this title, the Secretary may establish
the same by regulations.

App. 182
U.S.C. Title 26, §6303. Notice And Demand For
Tax
a) General rule
Where it is not otherwise provided by this title, the
Secretary shall, as soon as practicable, and within 60
days, after the making of an assessment of a tax
pursuant to section 6203, give notice to each person
liable for the unpaid tax, stating the amount and
demanding payment thereof. Such notice shall be left
at the dwelling or usual place of business of such
person, or shall be sent by mail to such person’s last
known address.
(b) Assessment prior to last date for payment
Except where the Secretary believes collection would be
jeopardized by delay, if any tax is assessed prior to the
last date prescribed for payment of such tax, payment
of such tax shall not be demanded under subsection (a)
until after such date.
U.S.C. Title 26, §6321. Lien for taxes
If any person liable to pay any tax neglects or refuses
to pay the same after demand, the amount (including
any interest, additional amount, addition to tax, or
assessable penalty, together with any costs that may
accrue in addition thereto) shall be a lien in favor of the
United States upon all property and rights to property,
whether real or personal, belonging to such person.

App. 183
U.S.C. Title 26, §6324. Special liens for estate and
gift taxes
(a) Liens for estate tax
Except as otherwise provided in subsection (c)—
(1) Upon gross estate
Unless the estate tax imposed by chapter 11 is sooner
paid in full, or becomes unenforceable by reason of
lapse of time, it shall be a lien upon the gross estate of
the decedent for 10 years from the date of death, except
that such part of the gross estate as is used for the
payment of charges against the estate and expenses of
its administration, allowed by any court having
jurisdiction thereof, shall be divested of such lien.
(2) Liability of transferees and others
If the estate tax imposed by chapter 11 is not paid
when due, then the spouse, transferee, trustee (except
the trustee of an employees’ trust which meets the
requirements of section 401(a)), surviving tenant,
person in possession of the property by reason of the
exercise, nonexercise, or release of a power of
appointment, or beneficiary, who receives, or has on
the date of the decedent’s death, property included in
the gross estate under sections 2034 to 2042, inclusive,
to the extent of the value, at the time of the decedent’s
death, of such property, shall be personally liable for
such tax. Any part of such property transferred by (or
transferred by a transferee of) such spouse, transferee,
trustee, surviving tenant, person in possession, or
beneficiary, to a purchaser or holder of a security
interest shall be divested of the lien provided in

App. 184
paragraph (1) and a like lien shall then attach to all the
property of such spouse, transferee, trustee, surviving
tenant, person in possession, or beneficiary, or
transferee of any such person, except any part
transferred to a purchaser or a holder of a security
interest.
(3) Continuance after discharge of fiduciary
The provisions of section 2204 (relating to discharge of
fiduciary from personal liability) shall not operate as a
release of any part of the gross estate from the lien for
any deficiency that may thereafter be determined to be
due, unless such part of the gross estate (or any
interest therein) has been transferred to a purchaser or
a holder of a security interest, in which case such part
(or such interest) shall not be subject to a lien or to any
claim or demand for any such deficiency, but the lien
shall attach to the consideration received from such
purchaser or holder of a security interest, by the heirs,
legatees, devisees, or distributees.
(b) Lien for gift tax
Except as otherwise provided in subsection (c), unless
the gift tax imposed by chapter 12 is sooner paid in full
or becomes unenforceable by reason of lapse of time,
such tax shall be a lien upon all gifts made during the
period for which the return was filed, for 10 years from
the date the gifts are made. If the tax is not paid when
due, the donee of any gift shall be personally liable for
such tax to the extent of the value of such gift. Any part
of the property comprised in the gift transferred by the
donee (or by a transferee of the donee) to a purchaser
or holder of a security interest shall be divested of the

App. 185
lien imposed by this subsection and such lien, to the
extent of the value of such gift, shall attach to all the
property (including after-acquired property) of the
donee (or the transferee) except any part transferred to
a purchaser or holder of a security interest.
(c) Exceptions
(1) The lien imposed by subsection (a) or (b) shall not be
valid as against a mechanic’s lienor and, subject to the
conditions provided by section 6323(b) (relating to
protection for certain interests even though notice
filed), shall not be valid with respect to any lien or
interest described in section 6323(b).
(2) If a lien imposed by subsection (a) or (b) is not valid
as against a lien or security interest, the priority of
such lien or security interest shall extend to any item
described in section 6323(e) (relating to priority of
interest and expenses) to the extent that, under local
law, such item has the same priority as the lien or
security interest to which it relates.
U.S.C. Title 26, §6324A. Special lien for estate tax
deferred under section 6166
(a) General rule
In the case of any estate with respect to which an
election has been made under section 6166, if the
executor makes an election under this section (at such
time and in such manner as the Secretary shall by
regulations prescribe) and files the agreement referred
to in subsection (c), the deferred amount (plus any
interest, additional amount, addition to tax, assessable

App. 186
penalty, and costs attributable to the deferred amount)
shall be a lien in favor of the United States on the
section 6166 lien property.
(b) Section 6166 lien property
(1) In general
For purposes of this section, the term “section 6166 lien
property” means interests in real and other property to
the extent such interests(A) can be expected to survive the deferral period, and
(B) are designated in the agreement referred to in
subsection (c).
(2) Maximum value of required property
The maximum value of the property which the
Secretary may require as section 6166 lien property
with respect to any estate shall be a value which is not
greater than the sum of(A) the deferred amount, and
(B) the required interest amount.
For purposes of the preceding sentence, the value of
any property shall be determined as of the date
prescribed by section 6151(a) for payment of the tax
imposed by chapter 11 and shall be determined by
taking into account any encumbrance such as a lien
under section 6324B.

App. 187
(3) Partial substitution of bond for lien
If the value required as section 6166 lien property
pursuant to paragraph (2) exceeds the value of the
interests in property covered by the agreement referred
to in subsection (c), the Secretary may accept bond in
an amount equal to such excess conditioned on the
payment of the amount extended in accordance with
the terms of such extension.
(c) Agreement
The agreement referred to in this subsection is a
written agreement signed by each person in being who
has an interest (whether or not in possession) in any
property designated in such agreement(1) consenting to the creation of the lien under this
section with respect to such property, and
(2) designating a responsible person who shall be the
agent for the beneficiaries of the estate and for the
persons who have consented to the creation of the lien
in dealings with the Secretary on matters arising under
section 6166 or this section.
(d) Special rules
(1) Requirement that lien be filed
The lien imposed by this section shall not be valid as
against any purchaser, holder of a security interest,
mechanic’s lien, or judgment lien creditor until notice
thereof which meets the requirements of section 6323(f)
has been filed by the Secretary. Such notice shall not
be required to be refiled.

App. 188
(2) Period of lien
The lien imposed by this section shall arise at the time
the executor is discharged from liability under section
2204 (or, if earlier, at the time notice is filed pursuant
to paragraph (1)) and shall continue until the liability
for the deferred amount is satisfied or becomes
unenforceable by reason of lapse of time.
(3) Priorities
Even though notice of a lien imposed by this section
has been filed as provided in paragraph (1), such lien
shall not be valid(A) Real property tax and special assessment liens
To the extent provided in section 6323(b)(6).
(B) Real property subject to a mechanic’s lien for repairs
and improvement
In the case of any real property subject to a lien for
repair or improvement, as against a mechanic’s lienor.
(C) Real property construction
financing agreement

or improvement

As against any security interest set forth in paragraph
(3) of section 6323(c) (whether such security interest
came into existence before or after tax lien filing).
Subparagraphs (B) and (C) shall not apply to any
security interest which came into existence after the
date on which the Secretary filed notice (in a manner
similar to notice filed under section 6323(f)) that
payment of the deferred amount has been accelerated
under section 6166(g).

App. 189
(4) Lien to be in lieu of section 6324 lien
If there is a lien under this section on any property
with respect to any estate, there shall not be any lien
under section 6324 on such property with respect to the
same estate.
(5) Additional lien property required in certain cases
If at any time the value of the property covered by the
agreement is less than the unpaid portion of the
deferred amount and the required interest amount, the
Secretary may require the addition of property to the
agreement (but he may not require under this
paragraph that the value of the property covered by the
agreement exceed such unpaid portion). If property
having the required value is not added to the property
covered by the agreement (or if other security equal to
the required value is not furnished) within 90 days
after notice and demand therefor by the Secretary, the
failure to comply with the preceding sentence shall be
treated as an act accelerating payment of the
installments under section 6166(g).
(6) Lien to be in lieu of bond
The Secretary may not require under section 6165 the
furnishing of any bond for the payment of any tax to
which an agreement which meets the requirements of
subsection (c) applies.
(e) Definitions
For purposes of this section(1) Deferred amount

App. 190
The term “deferred amount” means the aggregate
amount deferred under section 6166 (determined as of
the date prescribed by section 6151(a) for payment of
the tax imposed by chapter 11).
(2) Required interest amount
The term “required interest amount” means the
aggregate amount of interest which will be payable
over the first 4 years of the deferral period with respect
to the deferred amount (determined as of the date
prescribed by section 6151(a) for the payment of the tax
imposed by chapter 11).
(3) Deferral period
The term “deferral period” means the period for which
the payment of tax is deferred pursuant to the election
under section 6166.
(4) Application of definitions in case of deficiencies
In the case of a deficiency, a separate deferred amount,
required interest amount, and deferral period shall be
determined as of the due date of the first installment
after the deficiency is prorated to installments under
section 6166.
U.S.C. Title 26, §6330. Notice and opportunity for
hearing before levy
(d) Proceeding after hearing
(1) Petition for review by Tax Court
The person may, within 30 days of a determination
under this section, petition the Tax Court for review of

App. 191
such determination (and the Tax Court shall have
jurisdiction with respect to such matter).
(2) Suspension of running of period for filing petition in
title 11 cases
In the case of a person who is prohibited by reason of a
case under title 11, United States Code, from filing a
petition under paragraph (1) with respect to a
determination under this section, the running of the
period prescribed by such subsection for filing such a
petition with respect to such determination shall be
suspended for the period during which the person is so
prohibited from filing such a petition, and for 30 days
thereafter.
(3) Jurisdiction retained at IRS Office of Appeals
The Internal Revenue Service Office of Appeals shall
retain jurisdiction with respect to any determination
made under this section, including subsequent
hearings requested by the person who requested the
original hearing on issues regarding(A) collection actions taken or proposed with respect to
such determination; and
(B) after the person has exhausted all administrative
remedies, a change in circumstances with respect to
such person which affects such determination.

App. 192
U.S.C. Title 26, §6501. Limitations on assessment
and collection
(a) General rule
Except as otherwise provided in this section, the
amount of any tax imposed by this title shall be
assessed within 3 years after the return was filed
(whether or not such return was filed on or after the
date prescribed) or, if the tax is payable by stamp, at
any time after such tax became due and before the
expiration of 3 years after the date on which any part
of such tax was paid, and no proceeding in court
without assessment for the collection of such tax shall
be begun after the expiration of such period. For
purposes of this chapter, the term “return” means the
return required to be filed by the taxpayer (and does
not include a return of any person from whom the
taxpayer has received an item of income, gain, loss,
deduction, or credit).
(b) Time return deemed filed
(1) Early return
For purposes of this section, a return of tax imposed by
this title, except tax imposed by chapter 3, 4, 21, or 24,
filed before the last day prescribed by law or by
regulations promulgated pursuant to law for the filing
thereof, shall be considered as filed on such last day.
(2) Return of certain employment and withholding taxes
For purposes of this section, if a return of tax imposed
by chapter 3, 4, 21, or 24 for any period ending with or
within a calendar year is filed before April 15 of the

App. 193
succeeding calendar year, such return shall be
considered filed on April 15 of such calendar year.
(3) Return executed by Secretary
Notwithstanding the provisions of paragraph (2) of
section 6020(b), the execution of a return by the
Secretary pursuant to the authority conferred by such
section shall not start the running of the period of
limitations on assessment and collection.
(4) Return of excise taxes
For purposes of this section, the filing of a return for a
specified period on which an entry has been made with
respect to a tax imposed under a provision of subtitle D
(including a return on which an entry has been made
showing no liability for such tax for such period) shall
constitute the filing of a return of all amounts of such
tax which, if properly paid, would be required to be
reported on such return for such period.
(c) Exceptions
(1) False return
In the case of a false or fraudulent return with the
intent to evade tax, the tax may be assessed, or a
proceeding in court for collection of such tax may be
begun without assessment, at any time.
(2) Willful attempt to evade tax
In case of a willful attempt in any manner to defeat or
evade tax imposed by this title (other than tax imposed
by subtitle A or B), the tax may be assessed, or a

App. 194
proceeding in court for the collection of such tax may be
begun without assessment, at any time.
(3) No return
In the case of failure to file a return, the tax may be
assessed, or a proceeding in court for the collection of
such tax may be begun without assessment, at any
time.
(4) Extension by agreement
(A) In general
Where, before the expiration of the time prescribed for
the assessment of any tax imposed by this title, except
the estate tax provided in chapter 11, both the
Secretary and the taxpayer have consented in writing
to its assessment after such time, the tax may be
assessed at any time prior to the expiration of the
period agreed upon. The period so agreed upon may be
extended by subsequent agreements in writing made
before the expiration of the period previously agreed
upon.
(B) Notice to taxpayer of right to refuse or limit
extension
The Secretary shall notify the taxpayer of the
taxpayer’s right to refuse to extend the period of
limitations, or to limit such extension to particular
issues or to a particular period of time, on each
occasion when the taxpayer is requested to provide
such consent.

App. 195
(5) Tax resulting from changes in certain income tax or
estate tax credits
For special rules applicable in cases where the
adjustment of certain taxes allowed as a credit
against income taxes or estate taxes results in
additional tax, see section 905(c) (relating to the
foreign tax credit for income tax purposes) and
section 2016 (relating to taxes of foreign
countries, States, etc., claimed as credit against
estate taxes).
(6) Termination of private foundation status
In the case of a tax on termination of private
foundation status under section 507, such tax may be
assessed, or a proceeding in court for the collection of
such tax may be begun without assessment, at any
time.
(7) Special rule for certain amended returns
Where, within the 60-day period ending on the day on
which the time prescribed in this section for the
assessment of any tax imposed by subtitle A for any
taxable year would otherwise expire, the Secretary
receives a written document signed by the taxpayer
showing that the taxpayer owes an additional amount
of such tax for such taxable year, the period for the
assessment of such additional amount shall not expire
before the day 60 days after the day on which the
Secretary receives such document.

App. 196
(8) Failure to notify Secretary of certain foreign
transfers
(A) In general
In the case of any information which is required to be
reported to the Secretary pursuant to an election under
section 1295(b) or under section 1298(f), 6038, 6038A,
6038B, 6038D, 6046, 6046A, or 6048, the time for
assessment of any tax imposed by this title with
respect to any tax return, event, or period to which
such information relates shall not expire before the
date which is 3 years after the date on which the
Secretary is furnished the information required to be
reported under such section.
(B) Application to failures due to reasonable cause
If the failure to furnish the information referred to in
subparagraph (A) is due to reasonable cause and not
willful neglect, subparagraph (A) shall apply only to
the item or items related to such failure.
(9) Gift tax on certain gifts not shown on return
If any gift of property the value of which (or any
increase in taxable gifts required under section 2701(d)
which) is required to be shown on a return of tax
imposed by chapter 12 (without regard to section
2503(b)), and is not shown on such return, any tax
imposed by chapter 12 on such gift may be assessed, or
a proceeding in court for the collection of such tax may
be begun without assessment, at any time. The
preceding sentence shall not apply to any item which is
disclosed in such return, or in a statement attached to

App. 197
the return, in a manner adequate to apprise the
Secretary of the nature of such item.
(10) Listed transactions
If a taxpayer fails to include on any return or
statement for any taxable year any information with
respect to a listed transaction (as defined in section
6707A(c)(2)) which is required under section 6011 to be
included with such return or statement, the time for
assessment of any tax imposed by this title with
respect to such transaction shall not expire before the
date which is 1 year after the earlier of—
(A) the date on which the Secretary is furnished the
information so required, or
(B) the date that a material advisor meets the
requirements of section 6112 with respect to a request
by the Secretary under section 6112(b) relating to such
transaction with respect to such taxpayer.
(11) Certain orders of criminal restitution
In the case of any amount described in section
6201(a)(4), such amount may be assessed, or a
proceeding in court for the collection of such amount
may be begun without assessment, at any time.
(12) Certain
adjustments

taxes

attributable

to

partnership

In the case of any partnership adjustment determined
under subchapter C of chapter 63, the period for
assessment of any tax imposed under chapter 2 or 2A
which is attributable to such adjustment shall not
expire before the date that is 1 year after—

App. 198
(A) in the case of an adjustment pursuant to the
decision of a court in a proceeding brought under
section 6234, such decision becomes final, or
(B) in any other case, 90 days after the date on which
the notice of the final partnership adjustment is mailed
under section 6231.
(d) Request for prompt assessment
Except as otherwise provided in subsection (c), (e), or
(f), in the case of any tax (other than the tax imposed
by chapter 11 of subtitle B, relating to estate taxes) for
which return is required in the case of a decedent, or by
his estate during the period of administration, or by a
corporation, the tax shall be assessed, and any
proceeding in court without assessment for the
collection of such tax shall be begun, within 18 months
after written request therefor (filed after the return is
made and filed in such manner and such form as may
be prescribed by regulations of the Secretary) by the
executor, administrator, or other fiduciary representing
the estate of such decedent, or by the corporation, but
not after the expiration of 3 years after the return was
filed. This subsection shall not apply in the case of a
corporation unless—
(1)(A) such written request notifies the Secretary that
the corporation contemplates dissolution at or before
the expiration of such 18-month period, (B) the
dissolution is in good faith begun before the expiration
of such 18-month period, and (C) the dissolution is
completed;

App. 199
(2)(A) such written request notifies the Secretary that
a dissolution has in good faith been begun, and (B) the
dissolution is completed; or
(3) a dissolution has been completed at the time such
written request is made.
(e) Substantial omission of items
Except as otherwise provided in subsection (c)—
(1) Income taxes
In the case of any tax imposed by subtitle A—
(A) General rule
If the taxpayer omits from gross income an amount
properly includible therein and—
(i) such amount is in excess of 25 percent of the amount
of gross income stated in the return, or
(ii) such amount—
(I) is attributable to one or more assets with respect to
which information is required to be reported under
section 6038D (or would be so required if such section
were applied without regard to the dollar threshold
specified in subsection (a) thereof and without regard
to any exceptions provided pursuant to subsection
(h)(1) thereof), and
(II) is in excess of $5,000, the tax may be assessed, or
a proceeding in court for collection of such tax may be
begun without assessment, at any time within 6 years
after the return was filed.

App. 200
(B) Determination of gross income
For purposes of subparagraph (A)—
(i) In the case of a trade or business, the term “gross
income” means the total of the amounts received or
accrued from the sale of goods or services (if such
amounts are required to be shown on the return) prior
to diminution by the cost of such sales or services;
(ii) An understatement of gross income by reason of an
overstatement of unrecovered cost or other basis is an
omission from gross income; and
(iii) In determining the amount omitted from gross
income (other than in the case of an overstatement of
unrecovered cost or other basis), there shall not be
taken into account any amount which is omitted from
gross income stated in the return if such amount is
disclosed in the return, or in a statement attached to
the return, in a manner adequate to apprise the
Secretary of the nature and amount of such item.
(C) Constructive dividends
If the taxpayer omits from gross income an amount
properly includible therein under section 951(a), the
tax may be assessed, or a proceeding in court for the
collection of such tax may be done without assessing, at
any time within 6 years after the return was filed.
(2) Estate and gift taxes
In the case of a return of estate tax under chapter 11 or
a return of gift tax under chapter 12, if the taxpayer
omits from the gross estate or from the total amount of
the gifts made during the period for which the return

App. 201
was filed items includible in such gross estate or such
total gifts, as the case may be, as exceed in amount 25
percent of the gross estate stated in the return or the
total amount of gifts stated in the return, the tax may
be assessed, or a proceeding in court for the collection
of such tax may be begun without assessment, at any
time within 6 years after the return was filed. In
determining the items omitted from the gross estate or
the total gifts, there shall not be taken into account any
item which is omitted from the gross estate or from the
total gifts stated in the return if such item is disclosed
in the return, or in a statement attached to the return,
in a manner adequate to apprise the Secretary of the
nature and amount of such item.
(3) Excise taxes
In the case of a return of a tax imposed under a
provision of subtitle D, if the return omits an amount
of such tax properly includible thereon which exceeds
25 percent of the amount of such tax reported thereon,
the tax may be assessed, or a proceeding in court for
the collection of such tax may be begun without
assessment, at any time within 6 years after the return
is filed. In determining the amount of tax omitted on a
return, there shall not be taken into account any
amount of tax imposed by chapter 41, 42, 43, or 44
which is omitted from the return if the transaction
giving rise to such tax is disclosed in the return, or in
a statement attached to the return, in a manner
adequate to apprise the Secretary of the existence and
nature of such item.

App. 202
(f) Personal holding company tax
If a corporation which is a personal holding company
for any taxable year fails to file with its return under
chapter 1 for such year a schedule setting forth—
(1) the items of gross income and adjusted ordinary
gross income, described in section 543, received by the
corporation during such year, and
(2) the names and addresses of the individuals who
owned, within the meaning of section 544 (relating to
rules for determining stock ownership), at any time
during the last half of such year more than 50 percent
in value of the outstanding capital stock of the
corporation, the personal holding company tax for such
year may be assessed, or a proceeding in court for the
collection of such tax may be begun without
assessment, at any time within 6 years after the return
for such year was filed.
(g) Certain income tax returns of corporations
(1) Trusts or partnerships
If a taxpayer determines in good faith that it is a trust
or partnership and files a return as such under subtitle
A, and if such taxpayer is thereafter held to be a
corporation for the taxable year for which the return is
filed, such return shall be deemed the return of the
corporation for purposes of this section.
(2) Exempt organizations
If a taxpayer determines in good faith that it is an
exempt organization and files a return as such under
section 6033, and if such taxpayer is thereafter held to

App. 203
be a taxable organization for the taxable year for which
the return is filed, such return shall be deemed the
return of the organization for purposes of this section.
(3) DISC
If a corporation determines in good faith that it is a
DISC (as defined in section 992(a)) and files a return as
such under section 6011(c)(2) and if such corporation is
thereafter held to be a corporation which is not a DISC
for the taxable year for which the return is filed, such
return shall be deemed the return of a corporation
which is not a DISC for purposes of this section.
(h) Net operating loss or capital loss carrybacks
In the case of a deficiency attributable to the
application to the taxpayer of a net operating loss
carryback or a capital loss carryback (including
deficiencies which may be assessed pursuant to the
provisions of section 6213(b)(3)), such deficiency may be
assessed at any time before the expiration of the period
within which a deficiency for the taxable year of the net
operating loss or net capital loss which results in such
carryback may be assessed.
(i) Foreign tax carrybacks
In the case of a deficiency attributable to the
application to the taxpayer of a carryback under section
904(c) (relating to carryback and carryover of excess
foreign taxes) or under section 907(f) (relating to
carryback and carryover of disallowed foreign oil and
gas taxes), such deficiency may be assessed at any time
before the expiration of one year after the expiration of
the period within which a deficiency may be assessed

App. 204
for the taxable year of the excess taxes described in
section 904(c) or 907(f) which result in such carryback.
(j) Certain credit carrybacks
(1) In general
In the case of a deficiency attributable to the
application to the taxpayer of a credit carryback
(including deficiencies which may be assessed pursuant
to the provisions of section 6213(b)(3)), such deficiency
may be assessed at any time before the expiration of
the period within which a deficiency for the taxable
year of the unused credit which results in such
carryback may be assessed, or with respect to any
portion of a credit carryback from a taxable year
attributable to a net operating loss carryback, capital
loss carryback, or other credit carryback from a
subsequent taxable year, at any time before the
expiration of the period within which a deficiency for
such subsequent taxable year may be assessed.
(2) Credit carryback defined
For purposes of this subsection, the term “credit
carryback” has the meaning given such term by section
6511(d)(4)(C).
(k) Tentative carryback adjustment assessment period
In a case where an amount has been applied, credited,
or refunded under section 6411 (relating to tentative
carryback and refund adjustments) by reason of a net
operating loss carryback, a capital loss carryback, or a
credit carryback (as defined in section 6511(d)(4)(C)) to
a prior taxable year, the period described in subsection

App. 205
(a) of this section for assessing a deficiency for such
prior taxable year shall be extended to include the
period described in subsection (h) or (j), whichever is
applicable; except that the amount which may be
assessed solely by reason of this subsection shall not
exceed the amount so applied, credited, or refunded
under section 6411, reduced by any amount which may
be assessed solely by reason of subsection (h) or (j), as
the case may be.
(l) Special rule for chapter 42 and similar taxes
(1) In general
For purposes of any tax imposed by section 4912, by
chapter 42 (other than section 4940), or by section
4975, the return referred to in this section shall be the
return filed by the private foundation, plan, trust, or
other organization (as the case may be) for the year in
which the act (or failure to act) giving rise to liability
for such tax occurred. For purposes of section 4940,
such return is the return filed by the private
foundation for the taxable year for which the tax is
imposed.
(2) Certain contributions
organizations

to

section

501(c)(3)

In the case of a deficiency of tax of a private foundation
making a contribution in the manner provided in
section 4942(g)(3) (relating to certain contributions to
section 501(c)(3) organizations) attributable to the
failure of a section 501(c)(3) organization to make the
distribution prescribed by section 4942(g)(3), such
deficiency may be assessed at any time before the
expiration of one year after the expiration of the period

App. 206
within which a deficiency may be assessed for the
taxable year with respect to which the contribution was
made.
(3) Certain set-asides described in section 4942(g)(2)
In the case of a deficiency attributable to the failure of
an amount set aside by a private foundation for a
specific project to be treated as a qualifying
distribution under the provisions of section
4942(g)(2)(B)(ii), such deficiency may be assessed at
any time before the expiration of 2 years after the
expiration of the period within which a deficiency may
be assessed for the taxable year to which the amount
set aside relates.
(m) Deficiencies attributable to election of certain
credits
The period for assessing a deficiency attributable to
any election under section 30B(h)(9), 30C(e)(4),
30D(e)(4), 35(g)(11), 40(f), 43, 45B, 45C(d)(4), 45H(g), or
51(j) (or any revocation thereof) shall not expire before
the date 1 year after the date on which the Secretary is
notified of such election (or revocation).
(n) Cross reference
For period of limitations for assessment and
collection in the case of a joint income return
filed after separate returns have been filed, see
section 6013(b)(3) and (4).

App. 207
Section 277(a) of the Revenue Act of 1926
(predecessor to U.S.C. Title 26, §6501):
SEC. 277. (a) Except as provided in section 278— (1)
The amount of income taxes imposed by this Act shall
be assessed within three years after the return was
filed, and no proceeding in court without assessment
for the collection of such taxes shall be begun after the
expiration of such period.
(2) The amount of income, excess-profits, and warprofits taxes imposed by the Revenue Act of 1921, and
by such Act as amended, for the taxable year 1921 and
succeeding taxable years, and the amount of income
taxes imposed by the Revenue Act of 1924, shall be
assessed within four years after the return was filed,
and no proceeding in court without assessment for the
collection of such taxes shall be begun after the
expiration of such period.
(3) The amount of income, excess-profits, and warprofits taxes imposed by the Act entitled “An Act to
provide revenue, equalize duties, and encourage the
industries of the United States, and for other
purposes,” approved August 5, 1909, the Act entitled
“An Act to reduce tariff duties and to provide revenue
for the Government, and for other purposes,” approved
October 3, 1913, the Revenue Act of 1916, the Revenue
Act of 1917, the Revenue Act of 1918, and by any such
Act as amended, shall be assessed within five years
after the return was filed, and no proceeding in court
without assessment for the collection of such taxes
shall be begun after the expiration of such period.

App. 208
(4) In the case of income received during the lifetime of
a decedent, the tax shall be assessed, and any
proceeding in court without assessment for the
collection of such tax shall be begun, within one year
after written request therefor (filed after the return is
made) by the executor, administrator, or other
fiduciary representing the estate of such decedent, but
not after the expiration of the period prescribed for the
assessment of the tax in paragraph (1), (2), or (3) of this
subdivision.
(5) If a corporation makes no return of the tax imposed
by this title, but each of the shareholders includes in
his return his distributive share of the net income of
the corporation, then the tax of the corporation shall be
assessed within four years after the last date on which
any such shareholder’s return was filed. Nothing in
section 283 shall be construed as making the provisions
of this paragraph applicable to any tax imposed by a
prior Act of Congress.
U.S.C. Title 26, §6502. Collection after assessment
(a) Length of period
Where the assessment of any tax imposed by this title
has been made within the period of limitation properly
applicable thereto, such tax may be collected by levy or
by a proceeding in court, but only if the levy is made or
the proceeding begun—
(1) within 10 years after the assessment of the tax, or
(2) if—

App. 209
(A) there is an installment agreement between the
taxpayer and the Secretary, prior to the date which is
90 days after the expiration of any period for collection
agreed upon in writing by the Secretary and the
taxpayer at the time the installment agreement was
entered into; or
(B) there is a release of levy under section 6343 after
such 10-year period, prior to the expiration of any
period for collection agreed upon in writing by the
Secretary and the taxpayer before such release.
If a timely proceeding in court for the collection of a tax
is commenced, the period during which such tax may
be collected by levy shall be extended and shall not
expire until the liability for the tax (or a judgment
against the taxpayer arising from such liability) is
satisfied or becomes unenforceable.
(b) Date when levy is considered made
The date on which a levy on property or rights to
property is made shall be the date on which the notice
of seizure provided in section 6335(a) is given.
Section 278(d) of the Revenue Act of 1926
(predecessor to U.S.C. Title 26, §6502):
SEC. 278. (d) Where the assessment of any income,
excess-profits, or warprofits tax imposed by this title or
by prior Act of Congress has been made (whether
before or after the enactment of this Act) within the
statutory period of limitation properly applicable
thereto, such tax may be collected by distraint or by a
proceeding in court (begun before or after the

App. 210
enactment of this Act), but only if begun (1) within six
years after the assessment of the tax, or (2) prior to the
expiration of any period for collection agreed upon in
writing by the Commissioner and the taxpayer.
U.S.C. Title 26, §6503. Suspension of running of
period of limitation
(a) Issuance of statutory notice of deficiency
(1) General rule
The running of the period of limitations provided in
section 6501 or 6502 on the making of assessments or
the collection by levy or a proceeding in court, in
respect of any deficiency as defined in section 6211
(relating to income, estate, gift and certain excise
taxes), shall (after the mailing of a notice under section
6212(a)) be suspended for the period during which the
Secretary is prohibited from making the assessment or
from collecting by levy or a proceeding in court (and in
any event, if a proceeding in respect of the deficiency is
placed on the docket of the Tax Court, until the
decision of the Tax Court becomes final), and for 60
days thereafter.
(2) Corporation joining in consolidated income tax
return
If a notice under section 6212(a) in respect of a
deficiency in tax imposed by subtitle A for any taxable
year is mailed to a corporation, the suspension of the
running of the period of limitations provided in
paragraph (1) of this subsection shall apply in the case

App. 211
of corporations with which such corporation made a
consolidated income tax return for such taxable year.
(b) Assets of taxpayer in control or custody of court
The period of limitations on collection after assessment
prescribed in section 6502 shall be suspended for the
period the assets of the taxpayer are in the control or
custody of the court in any proceeding before any court
of the United States or of any State or of the District of
Columbia, and for 6 months thereafter.
(c) Taxpayer outside United States
The running of the period of limitations on collection
after assessment prescribed in section 6502 shall be
suspended for the period during which the taxpayer is
outside the United States if such period of absence is
for a continuous period of at least 6 months. If the
preceding sentence applies and at the time of the
taxpayer’s return to the United States the period of
limitations on collection after assessment prescribed in
section 6502 would expire before the expiration of 6
months from the date of his return, such period shall
not expire before the expiration of such 6 months.
(d) Extensions of time for payment of estate tax
The running of the period of limitation for collection of
any tax imposed by chapter 11 shall be suspended for
the period of any extension of time for payment granted
under the provisions of section 6161(a)(2) or (b)(2) or
under the provisions of section 6163 or 6166.

App. 212
(e) Extensions of time for payment of tax attributable to
recoveries of foreign expropriation losses
The running of the period of limitations for collection of
the tax attributable to a recovery of a foreign
expropriation loss (within the meaning of section
6167(f)) shall be suspended for the period of any
extension of time for payment under subsection (a) or
(b) of section 6167.
(f) Wrongful seizure of or lien on property of third party
(1) Wrongful seizure
The running of the period under section 6502 shall be
suspended for a period equal to the period from the
date property (including money) of a third party is
wrongfully seized or received by the Secretary to the
date the Secretary returns property pursuant to section
6343(b) or the date on which a judgment secured
pursuant to section 7426 with respect to such property
becomes final, and for 30 days thereafter. The running
of such period shall be suspended under this paragraph
only with respect to the amount of such assessment
equal to the amount of money or the value of specific
property returned.
(2) Wrongful lien
In the case of any assessment for which a lien was
made on any property, the running of the period under
section 6502 shall be suspended for a period equal to
the period beginning on the date any person becomes
entitled to a certificate under section 6325(b)(4) with
respect to such property and ending on the date which
is 30 days after the earlier of—

App. 213
(A) the earliest date on which the Secretary no longer
holds any amount as a deposit or bond provided under
section 6325(b)(4) by reason of such deposit or bond
being used to satisfy the unpaid tax or being refunded
or released; or
(B) the date that the judgment secured under section
7426(b)(5) becomes final.
The running of such period shall be suspended under
this paragraph only with respect to the amount of such
assessment equal to the value of the interest of the
United States in the property plus interest, penalties,
additions to the tax, and additional amounts
attributable thereto.
(g) Suspension pending correction
The running of the periods of limitations provided in
sections 6501 and 6502 on the making of assessments
or the collection by levy or a proceeding in court in
respect of any tax imposed by chapter 42 or section 507,
4971, or 4975 shall be suspended for any period
described in section 507(g)(2) or during which the
Secretary has extended the time for making correction
under section 4963(e).
(h) Cases under title 11 of the United States Code
The running of the period of limitations provided in
section 6501 or 6502 on the making of assessments or
collection shall, in a case under title 11 of the United
States Code, be suspended for the period during which
the Secretary is prohibited by reason of such case from
making the assessment or from collecting and—

App. 214
(1) for assessment, 60 days thereafter, and
(2) for collection, 6 months thereafter.
(i) Extension of time for payment of undistributed PFIC
earnings tax liability
The running of any period of limitations for collection
of any amount of undistributed PFIC earnings tax
liability (as defined in section 1294(b)) shall be
suspended for the period of any extension of time under
section 1294 for payment of such amount.
(j) Extension in case of certain summonses
(1) In general
If any designated summons is issued by the Secretary
to a corporation (or to any other person to whom the
corporation has transferred records) with respect to
any return of tax by such corporation for a taxable year
(or other period) for which such corporation is being
examined under the coordinated examination program
(or any successor program) of the Internal Revenue
Service, the running of any period of limitations
provided in section 6501 on the assessment of such tax
shall be suspended—
(A) during any judicial enforcement period—
(i) with respect to such summons, or
(ii) with respect to any other summons which is issued
during the 30-day period which begins on the date on
which such designated summons is issued and which
relates to the same return as such designated
summons, and

App. 215
(B) if the court in any proceeding referred to in
paragraph (3) requires any compliance with a summons
referred to in subparagraph (A), during the 120-day
period beginning with the 1st day after the close of the
suspension under subparagraph (A).
If subparagraph (B) does not apply, such period shall in
no event expire before the 60th day after the close of
the suspension under subparagraph (A).
(2) Designated summons
For purposes of this subsection—
(A) In general
The term “designated summons” means any summons
issued for purposes of determining the amount of any
tax imposed by this title if—
(i) the issuance of such summons is preceded by a
review of such issuance by the regional counsel of the
Office of Chief Counsel for the region in which the
examination of the corporation is being conducted,
(ii) such summons is issued at least 60 days before the
day on which the period prescribed in section 6501 for
the assessment of such tax expires (determined with
regard to extensions), and
(iii) such summons clearly states that it is a designated
summons for purposes of this subsection.
(B) Limitation
A summons which relates to any return shall not be
treated as a designated summons if a prior summons

App. 216
which relates to such return was treated as a
designated summons for purposes of this subsection.
(3) Judicial enforcement period
For purposes of this subsection, the term “judicial
enforcement period” means, with respect to any
summons, the period—
(A) which begins on the day on which a court
proceeding with respect to such summons is brought,
and
(B) which ends on the day on which there is a final
resolution as to the summoned person’s response to
such summons.
(k) Cross references
For suspension in case of—
(1) Deficiency dividends of a personal holding
company, see section 547(f).
(2) Receiverships, see subchapter B of chapter 70.
(3) Claims against transferees and fiduciaries,
see chapter 71.
(4) Tax return preparers, see section 6694(c)(3).
(5) Deficiency dividends in the case of a
regulated investment company or a real estate
investment trust, see section 860(h).

App. 217
U.S.C. Title 26, §6504. Cross references
For limitation period in case of—
(1) Adjustments to accrued foreign taxes, see
section 905(c).
(2) Change of treatment with respect to itemized
deductions where taxpayer and his spouse make
separate returns, see section 63(e)(3).
(3) Involuntary conversion of property, see
section 1033(a)(2)(C) and (D).
(4) Application by fiduciary for discharge from
personal liability for estate tax, see section 2204.
(5) Insolvent banks and trust companies, see
section 7507.
(6) Service in a combat zone, etc., see section
7508.
(7) Claims against transferees and fiduciaries,
see chapter 71.
(8) Assessments to recover excessive amounts
paid under section 6420 (relating to gasoline used
on farms), 6421 (relating to gasoline used for
certain nonhighway purposes or by local transit
systems), or 6427 (relating to fuels not used for
taxable purposes) and assessments of civil
penalties under section 6675 for excessive claims
under section 6420, 6421, or 6427, see section
6206.
(9) Assessment and collection of interest, see
section 6601(g).

App. 218
(10) Assessment of civil penalties under section
6694 or 6695, see section 6696(d)(1).
U.S.C. Title 26, §6901. Transferred assets
(a) Method of collection
The amounts of the following liabilities shall, except as
hereinafter in this section provided, be assessed, paid,
and collected in the same manner and subject to the
same provisions and limitations as in the case of the
taxes with respect to which the liabilities were
incurred:
(1) Income, estate, and gift taxes
(A) Transferees
The liability, at law or in equity, of a transferee of
property—
(i) of a taxpayer in the case of a tax imposed by subtitle
A (relating to income taxes),
(ii) of a decedent in the case of a tax imposed by
chapter 11 (relating to estate taxes), or
(iii) of a donor in the case of a tax imposed by chapter
12 (relating to gift taxes), in respect of the tax imposed
by subtitle A or B.
(B) Fiduciaries
The liability of a fiduciary under section 3713(b) of title
31, United States Code, in respect of the payment of
any tax described in subparagraph (A) from the estate

App. 219
of the taxpayer, the decedent, or the donor, as the case
may be.
(2) Other taxes
The liability, at law or in equity of a transferee of
property of any person liable in respect of any tax
imposed by this title (other than a tax imposed by
subtitle A or B), but only if such liability arises on the
liquidation of a partnership or corporation, or on a
reorganization within the meaning of section 368(a).
(b) Liability
Any liability referred to in subsection (a) may be either
as to the amount of tax shown on a return or as to any
deficiency or underpayment of any tax.
(c) Period of limitations
The period of limitations for assessment of any such
liability of a transferee or a fiduciary shall be as
follows:
(1) Initial transferee
In the case of the liability of an initial transferee,
within 1 year after the expiration of the period of
limitation for assessment against the transferor;
(2) Transferee of transferee
In the case of the liability of a transferee of a
transferee, within 1 year after the expiration of the
period of limitation for assessment against the
preceding transferee, but not more than 3 years after
the expiration of the period of limitation for assessment
against the initial transferor; except that if, before the

App. 220
expiration of the period of limitation for the assessment
of the liability of the transferee, a court proceeding for
the collection of the tax or liability in respect thereof
has been begun against the initial transferor or the last
preceding transferee, respectively, then the period of
limitation for assessment of the liability of the
transferee shall expire 1 year after the return of
execution in the court proceeding.
(3) Fiduciary
In the case of the liability of a fiduciary, not later than
1 year after the liability arises or not later than the
expiration of the period for collection of the tax in
respect of which such liability arises, whichever is the
later.
(d) Extension by agreement
(1) Extension of time for assessment
If before the expiration of the time prescribed in
subsection (c) for the assessment of the liability, the
Secretary and the transferee or fiduciary have both
consented in writing to its assessment after such time,
the liability may be assessed at any time prior to the
expiration of the period agreed upon. The period so
agreed upon may be extended by subsequent
agreements in writing made before the expiration of
the period previously agreed upon. For the purpose of
determining the period of limitation on credit or refund
to the transferee or fiduciary of overpayments of tax
made by such transferee or fiduciary or overpayments
of tax made by the transferor of which the transferee or
fiduciary is legally entitled to credit or refund, such
agreement and any extension thereof shall be deemed

App. 221
an agreement and extension thereof referred to in
section 6511(c).
(2) Extension of time for credit or refund
If the agreement is executed after the expiration of the
period of limitation for assessment against the
taxpayer with reference to whom the liability of such
transferee or fiduciary arises, then in applying the
limitations under section 6511(c) on the amount of the
credit or refund, the periods specified in section
6511(b)(2) shall be increased by the period from the
date of such expiration to the date of the agreement.
(e) Period for assessment against transferor
For purposes of this section, if any person is deceased,
or is a corporation which has terminated its existence,
the period of limitation for assessment against such
person shall be the period that would be in effect had
death or termination of existence not occurred.
(f) Suspension of running of period of limitations
The running of the period of limitations upon the
assessment of the liability of a transferee or fiduciary
shall, after the mailing to the transferee or fiduciary of
the notice provided for in section 6212 (relating to
income, estate, and gift taxes), be suspended for the
period during which the Secretary is prohibited from
making the assessment in respect of the liability of the
transferee or fiduciary (and in any event, if a
proceeding in respect of the liability is placed on the
docket of the Tax Court, until the decision of the Tax
Court becomes final), and for 60 days thereafter.

App. 222
(g) Address for notice of liability
In the absence of notice to the Secretary under section
6903 of the existence of a fiduciary relationship, any
notice of liability enforceable under this section
required to be mailed to such person, shall, if mailed to
the person subject to the liability at his last known
address, be sufficient for purposes of this title, even if
such person is deceased, or is under a legal disability,
or, in the case of a corporation, has terminated its
existence.
(h) Definition of transferee
As used in this section, the term “transferee” includes
donee, heir, legatee, devisee, and distributee, and with
respect to estate taxes, also includes any person who,
under section 6324(a)(2), is personally liable for any
part of such tax.
(i) Extension of time
For extensions of time by reason of armed service
in a combat zone, see section 7508.
Section 311 of the Revenue Act of 1928
(predecessor to U.S.C. Title 26, §6901):
SEC. 311. TRANSFERRED ASSETS. (a) Method of
collection.—The amounts of the following liabilities
shall, except as hereinafter in this section provided, be
assessed, collected, and paid in the same manner and
subject to the same provisions and limitations as in the
case of a deficiency in a tax imposed by this title
(including the provisions in case of delinquency in
payment after notice and demand, the provisions

App. 223
authorizing distraint and proceedings in court for
collection, and the provisions prohibiting claims and
suits for refunds):
(1) TRANSFEREES.—The liability, at law or in equity,
of a transferee of property of a taxpayer, in respect of
the tax (including interest, additional amounts, and
additions to the tax provided by law) imposed upon the
taxpayer by this title.
(2) FIDUCIARIES.—The liability of a fiduciary under
section 3467 of the Revised Statutes in respect of the
payment of any such tax from the estate of the
taxpayer. Any such liability may be either as to the
amount of tax shown on the return or as to any
deficiency in tax.
(b) Period of limitation.—The period of limitation for
assessment of any such liability of a transferee or
fiduciary shall be as follows:
(1) In the case of the liability of an initial transferee of
the property of the taxpayer, within one year after the
expiration of the period of limitation for assessment
against the taxpayer;
(2) In the case of the liability of a transferee of a
transferee of the property of the taxpayer, within one
year after the expiration of the period of limitation for
assessment against the preceding transferee, but only
if within three years after the expiration of the period
of limitation for assessment against the taxpayer;
except that if before the expiration of the period of
limitation for the assessment of the liability of the
transferee, a court proceeding for the collection of the
tax or liability in respect thereof has been begun

App. 224
against the taxpayer or last preceding transferee,
respectively, then the period of limitation for
assessment of the liability of the transferee shall expire
one year after the return of execution in the court
proceeding.
(3) In the case of the liability of a fiduciary, not later
than one year after the liability arises or not later than
the expiration of the period for collection of the tax in
respect of which such liability arises, whichever is the
later.
(c) Period for assessment against taxpayer.—For the
purposes of this section, if the taxpayer is deceased, or
in the case of a corporation, has terminated its
existence, the period of limitation for assessment
against the taxpayer shall be the period that would be
in effect had the death or termination of existence not
occurred.
(d) Suspension of running of statute of
limitations.—The running of the statute of limitations
upon the assessment of the liability of a transferee or
fiduciary shall, after the mailing to the transferee or
fiduciary of the notice provided for in section 272(a),
SEVENTIETH CONGRESS. SESS. I. CH. 852. 1928.
861 be suspended for the period during which the
Commissioner is prohibited from making the
assessment in respect of the liability of the transferee
or fiduciary (and in any event, if a proceeding in
respect of the liability is placed on the docket of the
Board, until the decision of the Board becomes final),
and for 60 days thereafter.

App. 225
(e) Address for notice of liability.—In the absence of
notice to the Commissioner under section 312 (b) of the
existence of a fiduciary relationship, notice of liability
enforceable under this section in respect of a tax
imposed by this title, if mailed to the person subject to
the liability at his last known address, shall be
sufficient for the purposes of this title even if such
person is deceased, or is under a legal disability, or, in
the case of a corporation, has terminated its existence.
(f) Definition of “transferee”.—As used in this section,
the term “transferee” includes heir, legatee, devisee,
and distributee.
Section 280 of the Revenue Act of 1926
(predecessor to U.S.C. Title 26, §6901):
SEC. 280. (a) The amounts of the following liabilities
shall, except as hereinafter in this section provided, be
assessed, collected, and paid in the same manner and
subject to the same provisions and limitations as in the
case of a deficiency in a tax imposed by this title
(including the provisions in case of delinquency in
payment after notice and demand, the provisions
authorizing distraint and proceedings in court for
collection, and the provisions prohibiting claims and
suits for refunds):
(1) The liability, at law or in equity, of a transferee of
property of a taxpayer, in respect of the tax (including
interest, additional amounts, and additions to the tax
provided by law) imposed upon the taxpayer by this
title or by any prior income, excess-profits, or warprofits tax Act.

App. 226
(2) The liability of a fiduciary under section 3467 of the
Revised Statutes in respect of the payment of any such
tax from the estate of the taxpayer.
Any such liability m ay be either as to the amount of
tax shown on the return or as to any deficiency in tax.
(b) The period of limitation for assessment of any such
liability of a transferee or fiduciary shall be as follows:
(1) Within one year after the expiration of the period of
limitation for assessment against the taxpayer; or
(2) If the period of limitation for assessment against
the taxpayer expired before the enactment of this Act
but assessment against the taxpayer was made within
such period, then within six years after the making of
such assessment against the taxpayer, but in no case
later than one year after the enactment of this Act.
(3) If a court proceeding against the taxpayer for the
collection of the tax has been begun within either of the
above periods, then within one year after return of
execution in such proceeding.
(c) For the purposes of this section, if the taxpayer is
deceased, or in the case of a corporation, has
terminated its existence, the period of limitation for
assessment against the taxpayer shall be the period
that would be in effect had the death or termination of
existence not occurred.
(d) The running of the period of limitation upon the
assessment of the liability of a transferee or fiduciary
shall, after the mailing of the notice under subdivision
(a) of section 274 to the transferee of fiduciary, be

App. 227
suspended for the period during which the
Commissioner is prohibited from making the
assessment in respect of the liability of the transferee
or fiduciary, and for 60 days thereafter.
(e) This section shall not apply to any suit or other
proceeding for the enforcement of the liability of a
transferee or fiduciary pending at the time of the
enactment of this Act.
(f) As used in this section, the term “transferee”
includes heir, legatee, devisee, and distributee.
U.S.C. Title 26, §6902. Provisions of special
application to transferees
(a) Burden of proof
In proceedings before the Tax Court the burden of proof
shall be upon the Secretary to show that a petitioner is
liable as a transferee of property of a taxpayer, but not
to show that the taxpayer was liable for the tax.
(b) Evidence
Upon application to the Tax Court, a transferee of
property of a taxpayer shall be entitled, under rules
prescribed by the Tax Court, to a preliminary
examination of books, papers, documents,
correspondence, and other evidence of the taxpayer or
a preceding transferee of the taxpayer’s property, if the
transferee making the application is a petitioner before
the Tax Court for the redetermination of his liability in
respect of the tax (including interest, additional
amounts, and additions to the tax provided by law)
imposed upon the taxpayer. Upon such application, the

App. 228
Tax Court may require by subpoena, ordered by the
Tax Court or any division thereof and signed by a
judge, the production of all such books, papers,
documents, correspondence, and other evidence within
the United States the production of which, in the
opinion of the Tax Court or division thereof, is
necessary to enable the transferee to ascertain the
liability of the taxpayer or preceding transferee and
will not result in undue hardship to the taxpayer or
preceding transferee. Such examination shall be had at
such time and place as may be designated in the
subpoena.
U.S.C. Title 26, §7430. Awarding of costs and
certain fees
(a) In general
In any administrative or court proceeding which is
brought by or against the United States in connection
with the determination, collection, or refund of any tax,
interest, or penalty under this title, the prevailing
party may be awarded a judgment or a settlement for—
(1) reasonable administrative costs incurred in
connection with such administrative proceeding within
the Internal Revenue Service, and
(2) reasonable litigation costs incurred in connection
with such court proceeding.
(b) Limitations
(1) Requirement that administrative remedies be
exhausted

App. 229
A judgment for reasonable litigation costs shall not be
awarded under subsection (a) in any court proceeding
unless the court determines that the prevailing party
has exhausted the administrative remedies available to
such party within the Internal Revenue Service. Any
failure to agree to an extension of the time for the
assessment of any tax shall not be taken into account
for purposes of determining whether the prevailing
party meets the requirements of the preceding
sentence.
(2) Only costs allocable to the United States
An award under subsection (a) shall be made only for
reasonable litigation and administrative costs which
are allocable to the United States and not to any other
party.
(3) Costs denied where party prevailing protracts
proceedings
No award for reasonable litigation and administrative
costs may be made under subsection (a) with respect to
any portion of the administrative or court proceeding
during which the prevailing party has unreasonably
protracted such proceeding.
(4) Period for applying to IRS for administrative costs
An award may be made under subsection (a) by the
Internal Revenue Service for reasonable administrative
costs only if the prevailing party files an application
with the Internal Revenue Service for such costs before
the 91st day after the date on which the final decision
of the Internal Revenue Service as to the determination
of the tax, interest, or penalty is mailed to such party.

App. 230
(c) Definitions
For purposes of this section—
(1) Reasonable litigation costs
The term “reasonable litigation costs” includes—
(A) reasonable court costs, and
(B) based upon prevailing market rates for the kind or
quality of services furnished—
(i) the reasonable expenses of expert witnesses in
connection with a court proceeding, except that no
expert witness shall be compensated at a rate in excess
of the highest rate of compensation for expert witnesses
paid by the United States,
(ii) the reasonable cost of any study, analysis,
engineering report, test, or project which is found by
the court to be necessary for the preparation of the
party’s case, and
(iii) reasonable fees paid or incurred for the services of
attorneys in connection with the court proceeding,
except that such fees shall not be in excess of $125 per
hour unless the court determines that a special factor,
such as the limited availability of qualified attorneys
for such proceeding, the difficulty of the issues
presented in the case, or the local availability of tax
expertise, justifies a higher rate.
In the case of any calendar year beginning after 1996,
the dollar amount referred to in clause (iii) shall be
increased by an amount equal to such dollar amount
multiplied by the cost-of-living adjustment determined

App. 231
under section 1(f)(3) for such calendar year, by
substituting “calendar year 1995” for “calendar year
2016” in subparagraph (A)(ii) thereof. If any dollar
amount after being increased under the preceding
sentence is not a multiple of $10, such dollar amount
shall be rounded to the nearest multiple of $10.
(2) Reasonable administrative costs
The term “reasonable administrative costs” means—
(A) any administrative fees or similar charges imposed
by the Internal Revenue Service, and
(B) expenses, costs, and fees described in paragraph
(1)(B), except that any determination made by the
court under clause (ii) or (iii) thereof shall be made by
the Internal Revenue Service in cases where the
determination under paragraph (4)(C) of the awarding
of reasonable administrative costs is made by the
Internal Revenue Service.
Such term shall only include costs incurred on or after
whichever of the following is the earliest: (i) the date of
the receipt by the taxpayer of the notice of the decision
of the Internal Revenue Service Office of Appeals;
(ii) the date of the notice of deficiency; or (iii) the date
on which the first letter of proposed deficiency which
allows the taxpayer an opportunity for administrative
review in the Internal Revenue Service Office of
Appeals is sent.

App. 232
(3) Attorneys’ fees
(A) In general
For purposes of paragraphs (1) and (2), fees for the
services of an individual (whether or not an attorney)
who is authorized to practice before the Tax Court or
before the Internal Revenue Service shall be treated as
fees for the services of an attorney.
(B) Pro bono services
The court may award reasonable attorneys’ fees under
subsection (a) in excess of the attorneys’ fees paid or
incurred if such fees are less than the reasonable
attorneys’ fees because an individual is representing
the prevailing party for no fee or for a fee which (taking
into account all the facts and circumstances) is no more
than a nominal fee. This subparagraph shall apply only
if such award is paid to such individual or such
individual’s employer.
(4) Prevailing party
(A) In general
The term “prevailing party” means any party in any
proceeding to which subsection (a) applies (other than
the United States or any creditor of the taxpayer
involved)—
(i) which—
(I) has substantially prevailed with respect to the
amount in controversy, or
(II) has substantially prevailed with respect to the most
significant issue or set of issues presented, and

App. 233
(ii) which meets the requirements of the 1st sentence of
section 2412(d)(1)(B) of title 28, United States Code (as
in effect on October 22, 1986) except to the extent
differing procedures are established by rule of court
and meets the requirements of section 2412(d)(2)(B) of
such title 28 (as so in effect).
(B) Exception if United States establishes that its
position was substantially justified
(i) General rule
A party shall not be treated as the prevailing party in
a proceeding to which subsection (a) applies if the
United States establishes that the position of the
United States in the proceeding was substantially
justified.
(ii) Presumption of no justification if Internal Revenue
Service did not follow certain published guidance
For purposes of clause (i), the position of the United
States shall be presumed not to be substantially
justified if the Internal Revenue Service did not follow
its applicable published guidance in the administrative
proceeding. Such presumption may be rebutted.
(iii) Effect of losing on substantially similar issues
In determining for purposes of clause (i) whether the
position of the United States was substantially
justified, the court shall take into account whether the
United States has lost in courts of appeal for other
circuits on substantially similar issues.

App. 234
(iv) Applicable published guidance
For purposes of clause (ii), the term “applicable
published guidance” means—
(I) regulations, revenue rulings, revenue procedures,
information releases, notices, and announcements, and
(II) any of the following which are issued to the
taxpayer: private letter rulings, technical advice
memoranda, and determination letters.
(C) Determination as to prevailing party
Any determination under this paragraph as to whether
a party is a prevailing party shall be made by
agreement of the parties or—
(i) in the case where the final determination with
respect to the tax, interest, or penalty is made at the
administrative level, by the Internal Revenue Service,
or
(ii) in the case where such final determination is made
by a court, the court.
(D) Special rules for applying net worth requirement
In applying the requirements of section 2412(d)(2)(B)
of title 28, United States Code, for purposes of
subparagraph (A)(ii) of this paragraph—
(i) the net worth limitation in clause (i) of such section
shall apply to—
(I) an estate but shall be determined as of the date of
the decedent’s death, and

App. 235
(II) a trust but shall be determined as of the last day of
the taxable year involved in the proceeding, and
(ii) individuals filing a joint return shall be treated as
separate individuals for purposes of clause (i) of such
section.
(E) Special rules where judgment less than taxpayer’s
offer
(i) In general
A party to a court proceeding meeting the requirements
of subparagraph (A)(ii) shall be treated as the
prevailing party if the liability of the taxpayer
pursuant to the judgment in the proceeding
(determined without regard to interest) is equal to or
less than the liability of the taxpayer which would have
been so determined if the United States had accepted
a qualified offer of the party under subsection (g).
(ii) Exceptions
This subparagraph shall not apply to—
(I) any judgment issued pursuant to a settlement; or
(II) any proceeding in which the amount of tax liability
is not in issue, including any declaratory judgment
proceeding, any proceeding to enforce or quash any
summons issued pursuant to this title, and any action
to restrain disclosure under section 6110(f).
(iii) Special rules
If this subparagraph applies to any court proceeding—

App. 236
(I) the determination under clause (i) shall be made by
reference to the last qualified offer made with respect
to the tax liability at issue in the proceeding; and
(II) reasonable administrative and litigation costs shall
only include costs incurred on and after the date of
such offer.
(iv) Coordination
This subparagraph shall not apply to a party which is
a prevailing party under any other provision of this
paragraph.
(5) Administrative proceedings
The term “administrative proceeding” means any
procedure or other action before the Internal Revenue
Service.
(6) Court proceedings
The term “court proceeding” means any civil action
brought in a court of the United States (including the
Tax Court and the United States Court of Federal
Claims).
(7) Position of United States
The term “position of the United States” means—
(A) the position taken by the United States in a judicial
proceeding to which subsection (a) applies, and
(B) the position taken in an administrative proceeding
to which subsection (a) applies as of the earlier of—

App. 237
(i) the date of the receipt by the taxpayer of the notice
of the decision of the Internal Revenue Service Office of
Appeals, or
(ii) the date of the notice of deficiency.
(d) Special rules for payment of costs
(1) Reasonable administrative costs
An award for reasonable administrative costs shall be
payable out of funds appropriated under section 1304
of title 31, United States Code.
(2) Reasonable litigation costs
An award for reasonable litigation costs shall be
payable in the case of the Tax Court in the same
manner as such an award by a district court.
(e) Multiple actions
For purposes of this section, in the case of—
(1) multiple actions which could have been joined or
consolidated, or
(2) a case or cases involving a return or returns of the
same taxpayer (including joint returns of married
individuals) which could have been joined in a single
court proceeding in the same court, such actions or
cases shall be treated as 1 court proceeding regardless
of whether such joinder or consolidation actually
occurs, unless the court in which such action is brought
determines, in its discretion, that it would be
inappropriate to treat such actions or cases as joined or
consolidated.

App. 238
(f) Right of appeal
(1) Court proceedings
An order granting or denying (in whole or in part) an
award for reasonable litigation or administrative costs
under subsection (a) in a court proceeding, may be
incorporated as a part of the decision or judgment in
the court proceeding and shall be subject to appeal in
the same manner as the decision or judgment.
(2) Administrative proceedings
A decision granting or denying (in whole or in part) an
award for reasonable administrative costs under
subsection (a) by the Internal Revenue Service shall be
subject to the filing of a petition for review with the
Tax Court under rules similar to the rules under
section 7463 (without regard to the amount in dispute).
If the Secretary sends by certified or registered mail a
notice of such decision to the petitioner, no proceeding
in the Tax Court may be initiated under this paragraph
unless such petition is filed before the 91st day after
the date of such mailing.
(3) Appeal of Tax Court decision
An order of the Tax Court disposing of a petition under
paragraph (2) shall be reviewable in the same manner
as a decision of the Tax Court, but only with respect to
the matters determined in such order.
(g) Qualified offer
For purposes of subsection (c)(4)—

App. 239
(1) In general
The term “qualified offer” means a written offer
which—
(A) is made by the taxpayer to the United States during
the qualified offer period;
(B) specifies the offered amount of the taxpayer’s
liability (determined without regard to interest);
(C) is designated at the time it is made as a qualified
offer for purposes of this section; and
(D) remains open during the period beginning on the
date it is made and ending on the earliest of the date
the offer is rejected, the date the trial begins, or the
90th day after the date the offer is made.
(2) Qualified offer period
For purposes of this subsection, the term “qualified
offer period” means the period—
(A) beginning on the date on which the first letter of
proposed deficiency which allows the taxpayer an
opportunity for administrative review in the Internal
Revenue Service Office of Appeals is sent, and
(B) ending on the date which is 30 days before the date
the case is first set for trial.
U.S.C. Title 26, §7441. Status
There is hereby established, under article I of the
Constitution of the United States, a court of record to
be known as the United States Tax Court. The

App. 240
members of the Tax Court shall be the chief judge and
the judges of the Tax Court. The Tax Court is not an
agency of, and shall be independent of, the executive
branch of the Government.
U.S.C. Title 26, §7442. Jurisdiction
The Tax Court and its divisions shall have such
jurisdiction as is conferred on them by this title, by
chapters 1, 2, 3, and 4 of the Internal Revenue Code of
1939, by title II and title III of the Revenue Act of 1926
(44 Stat. 10–87), or by laws enacted subsequent to
February 26, 1926.
U.S.C. Title 31, §3713. Priority of Government
claims
(a)(1) A claim of the United States Government shall be
paid first when(A) a person indebted to the Government is insolvent
and(i) the debtor without enough property to pay all debts
makes a voluntary assignment of property;
(ii) property of the debtor, if absent, is attached; or
(iii) an act of bankruptcy is committed; or
(B) the estate of a deceased debtor, in the custody of the
executor or administrator, is not enough to pay all
debts of the debtor.
(2) This subsection does not apply to a case under title
11.

App. 241
(b) A representative of a person or an estate (except a
trustee acting under title 11) paying any part of a debt
of the person or estate before paying a claim of the
Government is liable to the extent of the payment for
unpaid claims of the Government.
Utah Code §78B-2-309. Within six years -- Mesne
profits of real property -- Instrument in writing -Fire suppression
(1)

An action may be brought within six years:

(a)

for the mesne profits of real property;

(b)
subject to Subsection (2), upon any contract,
obligation, or liability founded upon an instrument in
writing, except those mentioned in Section 78B-2-311;
or
(c) to recover fire suppression costs or other damages
caused by wildland fire.
(2)
For a credit agreement, as defined in Section 255-4, the six-year period described in Subsection (1)
begins the later of the day on which:
(a)

the debt arose;

(b)
the debtor makes a written acknowledgment of
the debt or a promise to pay the debt; or
(c) the debtor or a third party makes a payment on the
debt.

App. 242
US Treasury Regulation
Procedure For Payment.

§

31.3505-1(d)(1).

A lender, surety, or other person may satisfy the
personal liability imposed upon him by section 3505 by
executing Form 4219 and filing it, accompanied by
payment of the amount of tax and interest due the
United States, in accordance with the instructions for
the form. In the event that the lender, surety, or other
person does not satisfy the liability imposed by section
3505, the United States may collect the liability by
appropriate civil proceedings commenced within 10
years after assessment of the tax against the employer.
US Treasury Regulation
Applicable Provisions.

§301.6901-1(a)(1).

301.6901-1(a) Method Of Collection
301.6901-1(a)(1) Income, Estate, And Gift Taxes. —
The amount for which a transferee of property of-301.6901-1(a)(1)(i) —
A taxpayer, in the case of a tax imposed by subtitle A
of the Code (relating to income taxes),
301.6901-1(a)(1)(ii) —
A decedent, in the case of the estate tax imposed by
chapter 11 of the Code, or
301.6901-1(a)(1)(iii) —
A donor, in the case of the gift tax imposed by chapter
12 of the Code, is liable, at law or in equity, and the
amount of the personal liability of a fiduciary under
section 3467 of the Revised Statutes, as amended (31
U.S.C. 192), in respect of the payment of such taxes,

App. 243
whether shown on the return of the taxpayer or
determined as a deficiency in the tax, shall be assessed
against such transferee or fiduciary and paid and
collected in the same manner and subject to the same
provisions and limitations as in the case of a deficiency
in the tax with respect to which such liability is
incurred, except as hereinafter provided.
IRS Internal Revenue Manual 5.17.14.4.4, no. 4
(01-24-2012).
Establishing Transferee or
Fiduciary Liability by Suit
1. The United States may establish transferee or
fiduciary liability by filing a suit in district court
pursuant to IRC § 7402 and 28 USC §§ 1340 and 1345.
This suit is brought against the transferee or fiduciary
and results in a judgment against the third party,
permitting collection from any of the transferee’s or
fiduciary’s assets.
2. Since a suit to establish transferee or fiduciary
liability is a collection suit, the ten-year statute of
limitations in IRC § 6502 for suits to collect taxes
applies. The ten-year statute of limitations provided for
in IRC § 6324 from the date of death or the date of the
gift applies for collection of estate and gift taxes if the
suit is based on IRC § 6324 transferee liability.
3. A suit to establish transferee or fiduciary liability is
not limited to certain types of taxes as are the
assessment procedures of IRC § 6901. All types of
taxes, including employment and excise taxes, can be
collected in a transferee suit.

App. 244
4. A suit to impose transferee liability may be
necessary when the procedures of IRC § 6901 are not
available because the statute of limitations for
assessment has expired.
5. A suit to impose transferee liability may be
preferable to assessment when:
• the transferred property has depreciated in value;
• the transferee has concealed, disposed of, or
converted the transferred property; or
• the transferee has commingled the transferred
property with other property.
Note: Where the value of the property has decreased
following the transfer, the amount of any personal
judgment against the transferee ordinarily cannot
exceed the value of the property at the time of the
transfer.
6. Where liability is sought to be imposed on a thirdparty for another’s tax by way of a suit brought by the
United States in a district court, the burden of proof is
on the United States as the petitioning party. When a
transferee files a refund suit, the burden of proof
remains with the transferee.
7. The government may also bring a suit to collect
against the transferred property in the hands of the
transferee, also called a suit to set aside a fraudulent
transfer. See IRM 5.17.14.4.6, Suit to Set Aside a
Fraudulent Transfer.

App. 245
Tax Court Rule 13(a)
RULE 13. JURISDICTION
1
(a) Notice of Deficiency or of Transferee or Fiduciary
Liability Required: Except in actions for declaratory
judgment, for disclosure, for readjustment or
adjustment of partnership items, for administrative
costs, for review of failure to abate interest, for
redetermination of employment status, for
determination of relief from joint and several liability,
for lien and levy, for review of whistleblower awards, or
for certification actions with respect to passports (see
Titles XXI, XXII, XXIV, and XXVI through XXXIV), the
jurisdiction of the Court depends: (1) In a case
commenced in the Court by a taxpayer, upon the
issuance by the Commissioner of a notice of deficiency
in income, gift, or estate tax or, in the taxes under Code
Chapter 41, 42, 43, or 44 (relating to the excise taxes on
certain organizations and persons dealing with them),
or in the tax under Code Chapter 45 (relating to the
windfall profit tax), or in any other taxes which are the
subject of the issuance of a notice of deficiency by the
Commissioner; and (2) in a case commenced in the
Court by a transferee or fiduciary, upon the issuance by
the Commissioner of a notice of liability to the
transferee or fiduciary. See Code secs. 6212, 6213,
6901.

